<html>
<title> - NOMINATION OF JEFFREY A. ROSEN, TO BE DEPUTY SECRETARY, U.S. DEPARTMENT OF TRANSPORTATION</title>
<body><pre>[Senate Hearing 115-217]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 115-217

                    NOMINATION OF JEFFREY A. ROSEN,
                        TO BE DEPUTY SECRETARY,
                   U.S. DEPARTMENT OF TRANSPORTATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 29, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











                Available online: http://www.govinfo.gov

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-972 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                 
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel





























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 29, 2017...................................     1
Statement of Senator Wicker......................................     1
Statement of Senator Booker......................................     2
    Article dated August 10, 2010 from The Baltimore Sun entitled 
      ``Major Rules Deserve a Vote: Regulations Costing Millions 
      of Dollars are Created Without Congressional Approval'' by 
      Jeff Rosen and Susan Dudley................................    50
Statement of Senator Nelson......................................    20
Statement of Senator Klobuchar...................................    23
Statement of Senator Fischer.....................................    25
Statement of Senator Hassan......................................    27
Statement of Senator Blumenthal..................................    29
    Opposition letter dated March 29, 2017.......................    31
Statement of Senator Sullivan....................................    33
    Letter dated March 23, 2017 to Michael Huerta, FAA 
      Administrator from Matt Akinson, Board Chair, Alaska Air 
      Carriers Association and Jane Dale, Director, Alaska Air 
      Carriers Association.......................................    35
    Letter dated March 10, 2017 to Representative Bishop from 
      Zachary M. Adams, Director of Operations, Everts Air Cargo.    38
    Letter dated March 28, 2017 to Senator Dan Sullivan from 
      Zachary Adams, Director of Operations, Everts Air Cargo....    41
Statement of Senator Cortez Masto................................    43
Statement of Senator Cantwell....................................    45
Statement of Senator Markey......................................    47
Statement of Senator Duckworth...................................    55

                               Witnesses

Hon. Rob Portman, U.S. Senator from Ohio.........................     3
Jeffrey A. Rosen, Nominee to be Deputy Secretary, U.S. Department 
  Transportation.................................................     5
    Prepared statement...........................................     6
    Biographical information.....................................     7

                                Appendix

Response to written questions submitted to Jeffrey A. Rosen by:
    Hon. Dan Sullivan............................................    61
    Hon. Bill Nelson.............................................    61
    Hon. Amy Klobuchar...........................................    65
    Hon. Richard Blumenthal......................................    66
    Hon. Brian Schatz............................................    79
    Hon. Edward Markey...........................................    84
    Hon. Cory Booker.............................................    85
    Hon. Tom Udall...............................................    86
    Hon. Catherine Cortez Masto..................................    94
    Hon. Maggie Hassan...........................................    95
Response to pre-hearing questions submitted to Jeffrey A. Rosen 
  by:
    Hon. Bill Nelson.............................................    94
    Hon. Amy Klobuchar...........................................    98
    Hon. Richard Blumenthal......................................   100
    Hon. Brian Schatz............................................   101
    Hon. Cory Booker.............................................   101
 
                    NOMINATION OF JEFFREY A. ROSEN,
                       TO BE DEPUTY SECRETARY,
                   U.S. DEPARTMENT OF TRANSPORTATION

                              ----------                              


                       WEDNESDAY, MARCH 29, 2017

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
SD-G50, Dirksen Senate Office Building, Hon. Roger Wicker, 
presiding.
    Present: Senators Wicker [presiding], Thune, Booker, 
Nelson, Hassan, Blumenthal, Klobuchar, Young, Fischer, 
Sullivan, Cortez Masto, Cantwell, Markey, and Duckworth.

          OPENING STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Good afternoon. Today we will consider the 
nomination of Jeffrey A. Rosen to be Deputy Secretary of 
Transportation. Without objection, I will place my full 
statement in the record and simply summarize.
    The Department of Transportation contains 10 components 
agencies, employs approximately 57,000 people, and has an 
operating budget of more than $75 billion. As second in charge 
of the Department, Mr. Rosen will work hand-in-hand with the 
capable Secretary Elaine Chao to lead our Nation in the day-to-
day operation of its various modes of transportation.
    Today marks the 50th anniversary of the Department of 
Transportation, and its mission remains the same today as it 
was 50 years ago, to serve the United States by ensuring a 
vast, safe, efficient, accessible, and convenient 
transportation system that meets our vital national interests 
and enhances the quality of life of the American people today 
and into the future.
    President Trump announced during his joint address to 
Congress last month to launch our national rebuilding, I will 
be asking Congress to approve legislation that produces a $1 
trillion investment in the infrastructure of the United States, 
financed through both public and private capital, creating 
millions of new jobs. We'll certainly be interested in talking 
to our nominee about this goal today.
    Mr. Rosen is not a stranger to government service, having 
served in the Department of Transportation as General Counsel 
from 2003 to 2006. In this capacity, he oversaw a number of 
important transportation bills, including SAFETEA and its 
implementation, as well as the FAA reauthorization bill Vision 
100 in the year 2003.
    Mr. Rosen then went on to serve as General Counsel under 
Senator Portman in the Office of Management and Budget from 
2006 to 2009.
    Mr. Rosen, I would like to thank you for testifying today 
and for your willingness to continue your record of service to 
our country.
    I will now turn to Ranking Member Booker for any opening 
remarks he may have.
    Senator Booker.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Chairman Wicker, I'm grateful for that, and 
thank you for holding this hearing.
    More importantly, Mr. Rosen, thank you very much. It's a 
solemn and sacred commitment you make when you step forward to 
serve your country, and I'm grateful for your willingness to do 
so.
    We are in this committee--I've actually been really 
grateful, and it's good that I'm sitting next to Senator Wicker 
because we've found a lot of bipartisan space to work together.
    Infrastructure, as a whole, traditionally in our country 
has been a very bipartisan area. The challenge we have right 
now is, we in America, are woefully underinvesting in our 
infrastructure, especially in comparison to our peers in China 
or in Western Europe. Those folks who we're competing against 
economically are prioritizing infrastructure is a significant 
way.
    And the American Society of Civil Engineers, who released 
their report this year, gave the United States infrastructure a 
D-plus. We are not a D-plus nation, we're an A-plus nation, and 
we should have an infrastructure that reflects that.
    Our investments in infrastructure are at a 22-year low. At 
a time that we see, again, Europe investing to 5 percent of 
their GDP in infrastructure; China, 9 percent of their economy 
in infrastructure; we're just at 3 percent.
    I believe that if we fail to make infrastructure 
investments, we're going to run into catastrophes as well in 
terms of the infrastructure and the potential for bad things to 
happen. When we're talking about our economy and getting people 
to work, helping productivity, helping businesses to thrive, 
infrastructure is essential.
    Just take, for example, the rail tunnel, the busiest rail 
tunnel in our entire country is that between New Jersey and New 
York. It's over 100 years old. It's the busiest river crossing 
in all of North America. Twenty-five percent of our bridges are 
structurally deficient, but this one crossing in and of itself 
portends of a tremendous opportunity to expand our economy to 
increase efficiencies, to help businesses grow, and, in fact, 
dollars invested in projects like that create multiples of 
return for our economy.
    But as we delay this work, delay making adequate 
investments in our aging infrastructure, it actually costs more 
and more and more money. In 2014, the cost of Americans stuck 
in traffic alone was $160 billion. On the other hand, a dollar 
invested, as I said, brings back at least $2.00 in return in 
economic growth.
    So we have work to do, and I believe, as we see according 
to the National Safety Council, that the preliminary 2016 data 
shows that it's not just an economic issue, it's because of the 
tens of thousands of people that are dying in motor vehicle 
crashes and other challenges due to things that could be done 
to make our infrastructure, our transportation modes, a lot 
more safe.
    And so we have a lot of work to do, but I believe we are 
moving in the wrong direction. I believe, in fact, we've taken 
some of the greatest inheritances that my generation has, me 
being an X Generation, my colleague here being a Millennial----
    [Laughter.]
    Senator Booker.--we have inherited from our ancestors this 
incredible top-of-the-line infrastructure, we've trashed it, 
and are about to hand over to our children one of the more 
substandard infrastructures in the developed world. This has to 
be a Republican and Democratic bipartisan effort. We cannot be 
about simply regulations or no regulations. We have to have 
smart government doing what is best for our common goals.
    Now, I'm pleased that President Trump has promised a $1 
trillion investment in infrastructure, but so far, we have seen 
no details. It's critical here that in the leadership of this 
Department that we begin to flesh out a plan for getting there.
    I know the Democrats have released a blueprint that 
outlines a $1 trillion investment that I believe we need to 
make. It's an opening bid into what should be a larger and 
urgent, not just conversation, but ultimately action plan in 
getting this done.
    There are a number of critical issues that this committee 
deals with in regards to the Department of Transportation that 
must be addressed. It is a partnership between the Department 
of Transportation and this committee, as well as those in the 
House, that I believe can make for positive change for our 
country.
    So, Mr. Rosen, I look forward to this conversation we're 
about to have, and I look forward to hearing from you about 
your plans to drive forward improvements in our infrastructure 
and assurances for safety. And, again, I conclude that I am 
grateful for the young man to my right, Senator Wicker, for his 
leadership during this hearing.
    Senator Wicker. Thank you, Senator Booker, for that fine 
compliment. I don't really know what a Millennial is, but I 
know I don't fit into that definition. As a matter of fact, I'm 
old enough to remember discussions about what to do about these 
young whippersnappers, the Baby Boomers.
    [Laughter.]
    Senator Wicker. So that's how far back I go. We are now 
joined by our distinguished colleague, Senator Portman, who has 
the honor of introducing Mr. Rosen to the panel.
    Senator Portman, you are recognized.

                STATEMENT OF HON. ROB PORTMAN, 
                     U.S. SENATOR FROM OHIO

    Senator Portman. Great. Thank you, Chairman Wicker, Ranking 
Member Booker, and to my other colleagues, Senators Klobuchar, 
Hassan, Blumenthal, Young, and Hassan, who are here. Listen, I 
am just honored to have been asked to introduce Jeffrey Rosen. 
He is a class act, and I'm really glad he is willing to step up 
to serve as Deputy Secretary of Transportation.
    President Trump has sent a number of impressive candidates 
our way: among those have been Elaine Chao, who happens to be 
related to one of our colleagues, and also Jeffrey Rosen. He's 
a graduate of Northwestern University and Harvard Law School, 
magna cum laude. Don't hold that against him. He's also one of 
the most respected lawyers in town. He has litigated a lot of 
high-stakes, high-complexity cases in more than 20 different 
states during his 30 years of experience. He has been in jury 
trials, bench trials, contracts cases, securities cases, class 
actions, you name it. And he has got great experience and lots 
of respect as a lawyer.
    In 2003, he was unanimously confirmed by the Senate to 
serve as Chief Legal Officer to the Department of 
Transportation. He supervised, he told me today, 425 lawyers 
over at DOT. And when he was there, he rolled up his sleeves, 
and he got involved in the details of how the Department works. 
He gained experience that I think will make him very well 
qualified to serve as Deputy Secretary.
    In 2006, he did leave the Department of Transportation, and 
he left because I asked him to come over to the Office of 
Management and Budget to lead. Instead of 425 lawyers, I think 
we had five. But I wanted the best people around me, I really 
did, and in the case of Jeff, I was able to get the best 
because he was awesome. He was General Counsel at OMB. He was 
also a senior policy advisor. He was, of course, always 
vigilant about the use of taxpayer dollars.
    And more importantly to me, he was always really well 
prepared and insightful and a straight shooter; he never 
hesitated to tell me what I needed to know even when I didn't 
want to hear it. I respected that about him and I've stayed in 
touch with him since as a result. He went on to become a 
Governor of the Postal Service. That's a tough lift, it's a 
heavy lift, and he served his country well there.
    If you really want to get a good sense of his judgment, 
though, you have to look no further than his wife, Kathy, who 
is an Ohioan and has many other things about her that make her 
a great person, a great mom. They have three great kids: Anne, 
Sally, and James. And for all the professional accomplishments 
he has had, he loves to talk about his kids. He's prouder of 
them than anything in life, and that's another reason that I 
think he is the kind of person we would want in public service. 
He's got his values in the right place.
    He has got a passion for this business, and thank goodness 
he does. Not everybody does. He is willing, once again, to suit 
up and to help serve us and to serve his country, and he 
certainly has the experience and skills and the aptitude we 
would want in a Deputy Secretary of Transportation. Considering 
all the issues that Senator Booker and Senator Wicker talked 
about, it's going to be a challenging task, and I know he's up 
to it. I strongly urge you to confirm him in the Committee and 
across the floor so that he can get back to public service.
    Thank you both.
    Senator Wicker. Thank you very much, Senator Portman.
    And now, Mr. Rosen, you are invited to come forward and 
provide an opening statement. Thank you very much for your 
service.

STATEMENT OF JEFFREY A. ROSEN, NOMINEE TO BE DEPUTY SECRETARY, 
               U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Rosen. Mr. Chairman, Senator Booker, and all the 
members of the Committee, thank you for the opportunity to 
appear here today. If I'm confirmed, I would very much look 
forward to working with all of you to advance the important 
work of the Department of Transportation.
    I also want to thank Senator Portman for his very kind 
introduction. I was honored to serve with him at OMB when he 
was the Director there, and I sincerely appreciate his taking 
the time to be here today.
    Although Senator Portman already did it, I would like to 
introduce my wife, Dr. Kathleen Rosen, who is here with me 
today. And unfortunately, our three adult children, who live in 
Colorado and New York, are unable to be here to cheer on their 
old dad.
    So let me begin by saying I'm also grateful to President 
Trump and to Secretary Chao for showing their confidence in my 
ability to serve in this key position, particularly at a time 
when transportation and infrastructure are so vital to our 
country.
    During the 35 years of my career to date, I have had a 
number of experiences which, if I am confirmed, I hope would 
prove useful to the role that I would play at DOT. As you 
heard, one is that I previously served as the General Counsel 
at that Department, and I was very fortunate to work there with 
Secretary Norman Mineta, who I think some of you know, and 
worked on a wide range of transportation issues. And, of 
course, I also served at OMB with Senator Portman.
    As you heard, I've also spent 30 years in the private 
sector at the law firm of Kirkland & Ellis, but I wanted to 
mention that in addition to my work as a litigator there, I 
served in a variety of management roles, including several 
years on the firm's management committee and as co-head of its 
Washington, D.C., office. I also would like to just note that 
last year I served as the elected Chair of the American Bar 
Association's Section of Administrative Law, which has 
thousands of members nationwide. And for several years, I've 
been a member of the Administrative Conference of the United 
States.
    Now, as members of this Committee well know, transportation 
is a very broad subject, and in the time I have available, I 
would just like to touch briefly on two points. The first is 
that DOT is a regulatory agency, and the safety of our 
traveling public must continue to be its primary regulatory 
objective. At DOT, the General Counsel has long been the Chief 
Regulatory Policy Officer. And when I served in that role, the 
Department issued a number of important safety regulations. But 
things change. We're now a decade later, and we are seeing 
major technology innovations in transportation, largely driven 
by the private sector.
    Now, for example, I drive a hybrid vehicle, which was an 
innovative technology when I bought it 8 years ago, but it now 
seems ancient by comparison to the self-driving cars and trucks 
being developed today. So determining the role of governments 
with regard to new technologies like automated vehicles and 
drones will be complex, but it's vital if Congress and the 
Executive Branch are to position the Federal Government as 
enabling innovation while also protecting the public safety.
    A second topic, a second important topic, I wanted to 
allude to is, as some of you have referenced, the urgent focus 
on infrastructure, where we know the aging of our highways, our 
bridges, our airports, and our air traffic control system have 
become all too plain, but for which the solutions will require 
both creativity and flexibility.
    I'm not yet at DOT, but in thinking about this topic, one 
of the things I came to appreciate from my prior public service 
is the importance of DOT officials having good communication 
and working relationships with the Members of Congress, and I 
would certainly regard that as an important part of my job if 
I'm confirmed to serve again at DOT.
    I would like to end on something on a personal note if I 
may. I come before this Committee as someone acutely aware of 
how fortunate I've been to this point in my life. My parents 
were not college graduates, but they were smart and caring 
people who made sure I had the education and the opportunity to 
become a lawyer. My wife had a similar experience, as her 
parents were not college graduates, but they are bright and 
wonderful people who helped her on her chosen path to becoming 
an emergency room physician.
    So having traveled this road heightens how much I 
appreciate our unique country, and it makes me care deeply 
about our future, and that's why I want to do this. If I'm 
confirmed, I see this nomination as an opportunity to make a 
meaningful contribution to something that impacts the daily 
lives of every single American. And, indeed, if I am confirmed, 
I would welcome the chance to work with all of you to help 
rebuild, refurbish, and revitalize America's transportation 
system to enable the mobility and the connectivity that 
Americans need so that our economy can continue to grow and 
enhance the quality of life for all Americans.
    So thank you again for the opportunity to be here today.
    [The prepared statement and biographical information of Mr. 
Rosen follow:]

 Prepared Statement of Jeffrey A. Rosen, Nominee for Deputy Secretary, 
                   U.S. Department of Transportation
    Chairman Thune, Ranking Member Nelson, and members of the 
Committee:

    Thank you for the opportunity to appear before you today. If I am 
confirmed, I will look forward to working with all of you to advance 
the important work of the Department of Transportation.
    I also want to thank Senator Portman for his very kind 
introduction. I was honored to serve with him at OMB when he was the 
Director there. I sincerely appreciate his taking time to be here 
today.
    I am also pleased to introduce my wife, Dr. Kathleen Rosen, who is 
here with me today. Unfortunately, our three adult children, who live 
in Colorado and New York, are not able to be here to cheer on their old 
dad.
    Let me begin by saying that I am grateful to President Trump and 
Secretary Chao for showing their confidence in my ability to serve in 
this key position, particularly at a time when transportation and 
infrastructure are so vital to our country. During the 35 years of my 
career to date, I have had a number of experiences which, if I am 
confirmed, may prove useful to the role I would play at DOT. One is 
that I previously served as General Counsel at DOT, where I was 
fortunate to work with Secretary Norman Mineta on a wide range of 
transportation issues, and I also served as General Counsel and Senior 
Policy Advisor at OMB, as you heard from Senator Portman. Additionally, 
I have spent 30 years in the private sector at the law firm of Kirkland 
& Ellis LLP, during which, in addition to my work as a litigator, I 
served in a variety of management roles, including several years on the 
firm's global management committee and as co-head of its Washington, 
D.C. office. Finally, I will note that last year I served as the 
elected Chair of the American Bar Association's Section of 
Administrative Law, which has thousands of members nationwide, and for 
several years I have been a member of the Administrative Conference of 
the United States.
    Now, as members of this Committee well know, transportation is a 
very broad subject. Today, I'd like to briefly touch on two points.
    First, DOT is a regulatory agency, and the safety of our traveling 
public must continue to be its primary regulatory objective. At DOT the 
General Counsel has long been the chief regulatory policy officer, and 
when I served in that role, the Department issued a number of important 
safety regulations. Now--a decade later--we are seeing major technology 
innovations in transportation, driven by the private sector. For 
example, I drive a hybrid vehicle, which was an innovative technology 
when I bought it eight years ago, but it now seems ancient by 
comparison to the self-driving cars and trucks being developed today. 
Determining the role of governments with regard to new technologies 
like automated vehicles and drones will be complex but vital if 
Congress and the Executive Branch are to position the Federal 
Government as enabling innovation while also protecting the public's 
safety.
    A second important topic I want to mention is the urgent focus on 
infrastructure, where the aging of our highways, bridges, airports, and 
air traffic control has become all too plain, but for which the 
solutions will require both creativity and flexibility. I am not yet at 
DOT, but in thinking about this topic, one of the things I came to 
appreciate from my prior public service was the importance of DOT 
officials having good communication and working relationships with the 
members of Congress, and I would certainly regard that as an important 
part of my job if I am confirmed to serve again at DOT.
    I would like to end on something of a personal note, if I may: I 
come before this Committee as someone acutely aware of how fortunate I 
have been to this point in life. My parents were not college graduates, 
but they were smart and caring people who made sure I had the education 
and opportunity to become a lawyer. My wife had a similar experience, 
as her parents were not college graduates, but they are bright and 
wonderful people who helped her on her chosen path to becoming an 
emergency room physician. Having traveled this road heightened how much 
I appreciate our unique country, and makes me care deeply about its 
future. If I am confirmed, I see this nomination as an opportunity to 
make a meaningful contribution to something that impacts the daily 
lives of all Americans.
    Indeed, if I am confirmed, I would welcome the chance to work with 
all of you to help rebuild, refurbish and revitalize America's 
transportation system, to enable the mobility Americans need, so that 
our economy can continue to grow, and enhance the quality of life for 
all Americans. Thank you again for the opportunity to appear here 
today.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Jeffrey Adam 
Rosen.
    2. Position to which nominated: Deputy Secretary of the U.S. 
Department of Transportation.
    3. Date of Nomination: March 21, 2017.
    4. Address (List current place of residence and office addresses):

        Home: Information not released to the public.

    5. Date and Place of Birth: April 2, 1958; Boston, Massachusetts.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriages).

        Married for 34 years to Kathleen Nichols Rosen, M.D. (retired)

        Children: Anne Rebecca Rosen, age 26 (New York, NY); Sally 
        Amanda Rosen, age 24 (Lafayette, CO); James Kenneth Rosen, age 
        23 (Boulder, CO).

    7. List all college and graduate degrees. Provide year and school 
attended.

        Northwestern University, Evanston, IL; attended 9/76-6/79; B.A. 
        with Highest Distinction (Economics), June 1979

        Harvard Law School, Cambridge, MA; attended 9/79-6/82; J.D. 
        Magna Cum Laude, June 1982

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        (a) Kirkland & Ellis LLP (and Kirkland & Ellis Int'l), 
        Washington, D.C.: Partner May 2009 to March 2017

        (b) Executive Office of the President/White House Office of 
        Management and Budget, Washington, D.C.: General Counsel and 
        Senior Policy Advisor, July 2006 to January 2009

        (c) U.S. Department of Transportation, Washington, D.C.: 
        General Counsel, December 2003 to June 2006, and Senior 
        Advisor, October 2003 to December 2003. Also served as DOT 
        designee for Amtrak Board 2005-2006.

        (d) Kirkland & Ellis LLP, Washington, D.C.: 1982-2003--Began as 
        an associate in 1982, became a partner in 1988, and eventually 
        co-head of D.C. office and a member of the firm's executive 
        management committee in 1999.

        (e) Georgetown University Law Center, Washington, D.C.: Adjunct 
        Professor--taught course in Professional Responsibility/Legal 
        Ethics. 1996-2003.

        (f) Summer positions after college: Dewey Ballantine LLP, New 
        York, N.Y. (1981), Summer associate; Lord Bissell & Brook, 
        Chicago, IL (1980), Summer associate; Apparel Buying Co., 
        Braintree, MA (1979), Summer warehouse employee.

    9. Attach a copy of your resume.
    A copy of my most recent professional biography is attached as 
Attachment A, although it has not been updated to reflect my recent 
resignation from the law firm of Kirkland & Ellis LLP and other 
organizations.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years.
    I am currently an appointed Public Member of the Administrative 
Conference of the United States, and have been since 2013.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.

        Partner, Kirkland & Ellis LLP and Kirkland & Ellis 
        International, 2009-2017

        Chair of the ABA Section of Administrative Law and Regulatory 
        Practice (2015-2016); also served as Vice-Chair (2013-2014), 
        Chair-Elect (2014-2015), and Last Retiring Chair (2016-2017)

        Member of the Board of Visitors, Northwestern University's 
        College of Arts & Sciences (2009 to present)

        Member of the Board of Directors, Free State Foundation (2011-
        2016)

        Member of the U.S. Chamber of Commerce Government Operations, 
        Oversight & Consumer Affairs Committee (2012-2017)

        Member of the Advisory Board of the National Federation of 
        Independent Business Small Business Legal Center (2011-2017)

        Trustee of Jeffrey Adam Rosen Revocable Living Trust (1996 to 
        present)

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    To the best of my recollection and available records, in addition 
to the organizations listed in response to question 11 above, other 
organizations of which I have been a member during the last ten years 
are listed below. I am not aware of any organization to which I have 
belonged having had a discriminatory restricted membership policy.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
American Law Institute           1996 to present  Member
------------------------------------------------------------------------
U.S. Supreme Court Historical    1990 to present  Member
 Society
------------------------------------------------------------------------
D.C. Circuit Historical Society  2009 to present  Member
------------------------------------------------------------------------
Virginia Historical Society      1991 to present  Member
------------------------------------------------------------------------
Fairfax County Historical        1997 to present  Member
 Society
------------------------------------------------------------------------
Northern Neck of Virginia        2014 to present  Member
 Historical Society
------------------------------------------------------------------------
Fairfax Genealogical Society     2015 to present  Member
------------------------------------------------------------------------
Northwestern University Alumni   1983 to present  Member
 Club of
Washington, D.C.
------------------------------------------------------------------------
Phi Beta Kappa                   1978 to present  Member
------------------------------------------------------------------------
National Association of          2012 to present  Member
 Scholars
------------------------------------------------------------------------
Association for the Advancement  1990 to present  Member
 of Automotive Medicine
------------------------------------------------------------------------
Society of Automotive Engineers        1990-2009  Member
------------------------------------------------------------------------
Chesterbrook Woods Citizens      1993 to present  Member
 Association
------------------------------------------------------------------------
McLean Racquet Club              2008 to present  Member
------------------------------------------------------------------------
Chesterbrook Swim & Tennis Club        1994-2015  Member
------------------------------------------------------------------------
White Point Yacht Club           2014 to present  Member
------------------------------------------------------------------------
Ashburn Xtreme Youth Hockey            2007-2011  Asst Coach,
 Club                                             Club Member
------------------------------------------------------------------------

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    I have not been a candidate for a public office, and I do not have 
any outstanding campaign debt.
    I have held a number of appointed governmental positions, as 
General Counsel of the U.S. Department of Transportation (2003-2006); 
General Counsel and Senior Policy Advisor at the White House Office of 
Management and Budget (2006-2009); as a Public Member of the 
Administrative Conference of the United States (2013 to present); and 
as a Member of the Arlington County (VA) Historical Affairs and 
Landmark Review Board (1991-1993).
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.
    Please see Attachment B.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.
    Received various academic honors (e.g., Phi Beta Kappa, Deru 
Honorary, Departmental Honors in Economics).
    Received various professional recognitions (e.g., ``Washington, 
D.C. Super Lawyer'' (2012, 2013, 2014, 2015, 2016); Washington, D.C. 
``Top Lawyers'' (2012, 2013, 2014 and 2015); top-rated ``AV'' 
Preeminent in Martindale-Hubbell for more than 15 years; Listed in 
Who's Who in American Law and Who's Who in America). Member of American 
Law Institute.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated.
    Do not attach copies of these publications unless otherwise 
instructed.
    To the best of my recollection and available records, my 
publications and public remarks are listed below.
Publications

        ``Putting Regulators on a Budget,'' 27 National Affairs 42 
        (Spring 2016)

        ``The Regulatory Budget Revisited,'' 66 Admin.L.Rev. 835 (Fall 
        2014).

        ``Fishing for a Reason to Regulate,'' The Hill online (April 
        10, 2013)

        ``President Needs to Get Serious About Spending Cuts;'' The 
        Hill (December 20, 2012)

        ``2008 Obama Would Like Ryan Budget,'' Des Moines Register 
        p.13A (August 30, 2012)

        ``The 2012 Budget Surplus That Disappeared,'' National Review 
        Online (December 14, 2011)

        ``Rein on Federal Regulations Will Only Benefit Economy,'' 
        Cincinnati Enquirer (November 9, 2011)

        ``Obama's Spending Ideas Unbalanced,'' The Hill Op-Ed p. 20 
        (September 28, 2011)''

        ``Who Checks the Fact Checker?'' National Review Online 
        (September 16, 2011)

        ``Costly Federal Regulations Escape Congressional Approval,'' 
        Atlanta Journal Constitution (September 1, 2010)

        ``Major Rules Deserve a Vote,'' Baltimore Sun Op-Ed, p. 13 
        (August 10, 2010)

        ``Government Incentives For Businesses,'' 19 Business Law Today 
        51-55 (May/June 2010)

        ``A Chance for a second Look: Judicial Review of Rulemaking 
        Petition Denials,'' 35 Admin. & Regulatory Law News 7-9 (Fall 
        2009)

        ``Obama vs. the Regulators,'' The Washington Post Op-Ed (August 
        6, 2009)

        ``Watch for Hidden Taxes,'' Boston Globe Op-Ed (June 12, 2009)

        ``Obama Regulations are Taxing Consumers,'' Washington Business 
        Journal (June 12, 2009)

        ``Court Acceptance of `In-Kind' Settlements in Consumer Class 
        Actions,'' 9 Class Actions & Derivative Suits 20 (Summer 1999)

    In addition, during 2009-2010, I was a contributor to National 
Journal's online experts' blog series for transportation topics, with 
eight postings.
Speeches/Remarks

        Speaker on ``Repairing Regulation'' at University of Virginia 
        Journal of Law & Politics program ``Reining In the 
        Administrative State'' (October 21, 2016)

        Program Co-Chair and Speaker at Joint ABA, SBCA. and GW 
        Regulatory Studies program on ``Benefit-Cost Analysis and the 
        Courts'' (October 11, 2016)

        Speaker at ABA Section of Administrative Law teleforum on ``New 
        Life for the Congressional Review Act?'' (May 26, 2016)

        Speaker at Kirby Center for Constitutional Studies and 
        Citizenship Program on ``Leashing Leviathan: The Case for a 
        Congressional Regulatory Budget'' (May 25, 2016)

        Speaker at Federalist Society's Annual Executive Branch Review 
        Program's Plenary Panel on ``Congressional Regulatory Reform 
        Proposals'' (May 17, 2016)

        Speaker/moderator on ``Current Debates on Regulatory Reform'' 
        at joint ABA and Hoover Institution program ``The Second Hoover 
        Commission's 60th Anniversary: Lessons for Regulatory Reform'' 
        (March 16, 2016)

        Moderator for ``The Role of OIRA in the Regulatory Process: A 
        Discussion with OIRA Administrator Howard Shelanski'' at ABA's 
        12th Annual Administrative Law Institute (March 15, 2016)

        Speaker at U.S. Chamber of Commerce's Joint Fall Committee 
        Meeting on ``Regulation: Who Decides?'' (December 9, 2015)

        Speaker/moderator at ABA's Fall Administrative Law Conference 
        on ``The Regulatory Budget Revisited'' (October 30, 2015)

        Speaker at George Mason University program ``Regulatory Boot 
        Camp for Policy Advisors'' on ``Reform--The Path Forward'' 
        (April 1, 2015)

        Speaker at the University of Pennsylvania Program on Regulation 
        workshop on ``Agenda-Setting and the Regulatory State'' 
        (November 7, 2014)

        Speaker at the Washington Legal Foundation Media Briefing 
        Series, U.S. Supreme Court: Reviewing The October 2013 Term 
        (June 25, 2014)

        Program Chairman, 10th Annual ABA Administrative Law Institute 
        (April 3-4, 2014)

        Speaker at U.S. Chamber of Commerce's Center for Capital 
        Markets Competitiveness on ``The Role of Cost-Benefit Analysis 
        in Regulatory Rulemakings'' (March 12, 2013).

        Speaker/moderator at ABA Administrative Law Section program on 
        ``Proposals and Prospects for Regulatory Reform'' (October 3, 
        2012)

        Speaker at ABA's 8th annual Administrative Law Institute on 
        ``Current Proposals for Regulatory Reform'' (May 10, 2012)

        Speaker at House Energy and Commerce Committee's Roundtable on 
        ``Improving the Economy Through Better Federal Science'' (March 
        22, 2012)

        Speaker at ABA's Fall Administrative Law Conference on 
        ``Administrative Law: Time to REIN it in, CURB it, or Reform 
        It'' (November 17, 2011)

        Speaker/moderator at ABA's annual Rulemaking Institute on 
        ``Regulatory Reform--Current Legislative Proposals and Obama 
        Administration Initiatives'' (May 3, 2011)

        Speaker at U.S. Chamber of Commerce program on ``Restoring 
        Balance to the Regulatory Process'' (March 22, 2011)

        Speaker at Homeland Security Law Institute on ``Transportation 
        and Supply Chain Security'' (March 2, 2011)

        Speaker at Conference of Chief Justices Mid-Year Meeting on 
        ``When Is Federal Preemption Appropriate?'' (January 25, 2011)

        Speaker at American Enterprise Institute for Public Policy 
        Research's program on ``Who Is Accountable for Federal 
        Regulations?'' (December 2, 2010)

        Speaker at ABA's Annual Meeting program on ``Are Chevron, 
        Vermont Yankee, and State Farm in Need of New Thinking'' 
        (August 6, 2010)

        Speaker at ABA's annual Rulemaking Institute on ``Formal and 
        Hybrid Rulemaking: Time for a Revival'' (June 1, 2010)

        Speaker at U.S. Department of Transportation's ``One DOT Legal 
        Day'' on ``Former General Counsels' Lessons Learned'' (May 11, 
        2010)

        Speaker at NYU Law School Symposium on ``Changes to the 
        Regulatory State: President Obama's Approach to Regulation'' 
        (March 12, 2010)

        Speaker at ABA Administrative Law Section's Fall Conference on 
        ``Scrutinizing Regulatory Reversals'' (October 22, 2009)

        Speaker/moderator at ABA Rulemaking Committee program on 
        ``Reflections on Rulemaking'' (October 8, 2009)

        Speaker at Meeting of ABA Task Force on Federal Preemption of 
        State Tort Laws (October 1, 2009)

        Speaker at AAAE webinar on EPA's Proposed Airport De-Icing Rule 
        (September 2, 2009)

        Speaker at Heritage Foundation Program ``Hurting or Helping 
        Consumers? Destroying Federal Preemption One Industry At a 
        Time'' (August 5, 2009)

        Speaker at Civil Justice Reform Group's General Counsels 
        Program, on ``Preemption of State Tort Law By Federal Agency 
        Regulation of Interstate Commerce'' (June 19, 2009)

        Speaker at ABA Administrative Law Section's Regulatory Practice 
        Institute, ``New Directions in Agency Rulemaking'' (June 10, 
        2009)

        Speaker at Kirkland & Ellis Conference ``Managing the 
        Enforcement Response to the Financial Crisis,'' addressing 
        ``Pulling the tarp off the TARP: Navigating the Perils of the 
        Bailout'' (April 2, 2009)

        Speaker at President's Council on Integrity and Efficiency on 
        ``Earmarks and Executive Order 13457'' (March 12, 2008)

        Speaker at Homeland Security Law Institute on ``Regulatory 
        Developments for 2008'' (January 17, 2008)

        Speaker at AEI-Brookings Joint Center for Regulatory Analysis 
        Program on ``The Role of Competition Analysis in Regulatory 
        Decisions'' (May 15, 2007)

        Speaker at Washington International Business Council Meeting on 
        ``OMB Priorities Affecting International Trade and Business'' 
        (April 26, 2007)

        Speaker at Heritage Foundation's Regulatory Working Group on 
        ``OMB's Regulatory Review Process'' (April 19, 2007)

        Speaker at Homeland Security Law Institute on ``Regulatory 
        Developments for 2007'' (January 17, 2007)

        Speaker at U.S. Conference of Mayors Annual Meeting on ``Amtrak 
        Reform'' (May 11, 2005)

        Speaker at National Conference of State Legislators Annual 
        Spring Forum on ``Amtrak Update'' (April 15, 2005)

        Speaker at Federal Highway Administration's Annual Legal 
        Workshop on ``Who Owns Transportation Infrastructure'' (March 
        2, 2005)

        Speaker at DOT Aviation Enforcement Office's Disability Rights 
        Forum (November 9, 2004)

        Speaker at ABA Administrative Law Section's Transportation 
        Subcommittee on ``Statutory Mandates of Rulemakings'' 
        (September 30, 2004)

        Speaker at National Air Carriers Association Board Meeting on 
        ``Aviation War Risk Insurance and other current issues'' 
        (August 8, 2004)

        Speaker at Regional Airlines Association General Counsel 
        Program, on ``Current Legal and Regulatory Issues'' (June 22, 
        2004)

        Speaker at Price Waterhouse General Counsel Forum on ``Taming 
        the Class Action Tiger: Surviving Settlement Challenges'' 
        (December 16, 1999)

        Speaker at Kirkland & Ellis Litigation Conference on ``The 
        Future of Class Action Litigation: Dealing with the Ripple 
        Effects of the Supreme Court Decisions in Amchem and Ortiz'' 
        (September 16, 1999).

        Speaker at ALI-ABA Securities Law Seminar on ``New Dimensions 
        In Securities Litigation'' (March 22, 1990)

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

  <bullet> ``Hearing on Nominations for the Department of Commerce, 
        Corporation for Public Broadcasting, and Department of 
        Transportation,'' testimony before the Senate Committee on 
        Commerce, Science, and Transportation. November 4, 2003.

  <bullet> ``Implementation of the Small Business Paperwork Relief Act 
        of 2002,'' testimony before a joint hearing of the House 
        Government Reform Committee's Subcommittee on Energy Policy, 
        Natural Resources and Regulatory Affairs, and of the House 
        Small Business Committee's Subcommittee on Regulatory Reform 
        and Oversight. January 28, 2004.

  <bullet> ``Ratification of the 2001 Cape Town Convention on 
        International Interests in Mobile Equipment,'' testimony before 
        the Senate Foreign Relations Committee. April 1, 2004.

  <bullet> ``Government Policies Regarding the Ability of an Airline to 
        Deny Transport to an Individual Found Unsafe or Dangerous,'' 
        testimony before the Senate Appropriations Committee's 
        Subcommittee on Transportation, Treasury, and General 
        Government. June 24, 2004.

  <bullet> ``Amtrak's Budget,'' testimony before the House 
        Appropriations Committee's Subcommittee on Transportation, 
        Treasury, HUD, Judiciary and District of Columbia. April 27, 
        2005.

  <bullet> ``Amtrak's Budget,'' testimony before the Senate 
        Appropriations Committee's Subcommittee on Transportation, 
        Treasury, and General Government. May 12, 2005.

  <bullet> ``The Impact of Regulation on U.S. Manufacturing,'' 
        testimony before the House Committee on Government Reform's 
        Subcommittee on Regulatory Affairs. June 28, 2005.

  <bullet> ``Amtrak Reform,'' testimony before the Senate Commerce, 
        Science, and Transportation Committee's Subcommittee on Surface 
        Transportation and Merchant Marine. April 21, 2005.

  <bullet> ``Amtrak Reform Proposals,'' testimony before the House 
        Transportation and Infrastructure Committee's Subcommittee on 
        Railroads. September 21, 2005.

  <bullet> ``Current Governance Issues at Amtrak,'' testimony before 
        the House Transportation and Infrastructure Committee's 
        Subcommittee on Railroads. November 15, 2005.

  <bullet> ``The Administrative Procedure Act at 65--Is Reform Needed 
        to Create Jobs, Promote Economic Growth and Reduce Costs?,'' 
        testimony before the House Judiciary Committee's Subcommittee 
        on Courts, Commercial and Administrative Law. February 28, 
        2011.

  <bullet> ``The Regulatory Accountability Act of 2013'', testimony 
        before the House Judiciary Committee's Subcommittee on 
        Regulatory Reform, Commercial and Antitrust Law. July 9, 2013.

  <bullet> ``Nomination of the Honorable Jeffrey A. Rosen to be a 
        Governor, U.S. Postal Service'', U.S. Senate Committee on 
        Homeland Security & Governmental Affairs, Apri1 21, 2016.

    I also appeared at the following hearings along with DOT Secretary 
Mineta:

  <bullet> ``CAFE Standards for Passenger Cars,'' Senate Commerce, 
        Science, and Transportation Committee. May 9, 2006.

  <bullet> ``Fiscal Year 2006 DOT Budget Request,'' House Appropriation 
        Committee's Subcommittee on Transportation, Treasury, HUD, 
        Judiciary, and District Columbia. March 18, 2005.

  <bullet> ``Fiscal Year 2006 DOT Budget Request,'' Senate 
        Appropriations Committee's Subcommittee on Transportation, 
        Treasury, and General Government. March 15, 2005.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I am interested in serving because I believe I can make a positive 
contribution. Several aspects of my background may prove helpful to 
this position, including my prior service at both the U.S. Department 
of Transportation and at the Office of Management and Budget. The full 
span of my career includes experiences useful to the leadership of 
organizations, such as management, economics and policy, legal 
requirements, regulation, and budgets, as well as other skills useful 
to the position. In addition to my previous public service, I have 
served in leadership roles in a large national law firm and for a 
nationwide bar association, for example.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Being a good steward of the public's resources is an essential 
responsibility of DOT leaders. My prior experience at OMB of course 
included a strong focus on fiscal and management oversight, and my 
prior service at DOT included a strong role in ensuring adherence to 
legal requirements and fiscal integrity measures there as well. At my 
law firm, I was for several years a member of the Finance Committee, in 
addition to other roles in management in the past.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    In significant part, the Department's major responsibilities 
involve safety and safety regulation, infrastructure programs and 
funding, and operation of the air traffic control system (and some 
other operational activities). As the Department enters its fiftieth 
year, there are policy and fiscal challenges related to all of these.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have no such arrangements except the retirement benefits that are 
identified on my financial disclosure report. In particular, my law 
firm has a longstanding defined benefit pension plan, and, because of 
the length of my service (1982-2003 and 2009-2017), I am entitled to 
receive a pension.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with DOT's Designated Agency Ethics Official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with DOT's Designated Agency Ethics Official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    I have not been paid to lobby on behalf of any organization or 
individual. I have occasionally testified or provided advice without 
compensation in my personal capacity.
    As a practicing lawyer in private practice--primarily as a 
litigator--I have advised clients about a wide variety of legal and 
policy issues.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with DOT's Designated Agency Ethics Official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? If yes:

  a)  Provide the name of agency, association, committee, or group;

  b)  Provide the date the citation, disciplinary action, complaint, or 
        personnel action was issued or initiated;

  c)  Describe the citation, disciplinary action, complaint, or 
        personnel action;

  d)  Provide the results of the citation, disciplinary action, 
        complaint, or personnel action.

    No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so. please 
explain.
    I have never been involved as a party to any civil litigation, 
administrative agency proceeding, or criminal proceeding. Kirkland & 
Ellis LLP has on occasion been a party in some civil litigation, but 
none of those concerned any activities involving me personally, and I 
am not personally familiar with the details of any of those.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees?
    Yes, to the extent reasonable and feasible.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee?
    Yes, to the extent consistent with legal and customary 
requirements.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                              Attachment A
                    Resume of Jeffrey A. Rosen, P.C.
Partner, Washington, D.C.
Practice Areas

  <bullet> Litigation

  <bullet> Energy

  <bullet> Regulatory

  <bullet> Class Action, Mass Tort & Toxic Tort Litigation

  <bullet> Antitrust & Competition
Admissions

  <bullet> 1982, District of Columbia
Education

  <bullet> Harvard Law School, J.D., 1982 magna cum laude

  <bullet> Northwestern University, BA, Economics, 1979 with Highest 
        Distinction

Departmental Honors in Economics

President of Student Government
Professional Profile
During his nearly thirty years at Kirkland, Jeff Rosen has handled a 
wide variety of complex legal problems for major companies and 
organizations. In 2009, Jeff rejoined the Firm as a senior partner in 
the Washington, D.C. office, following more than five years of public 
service. In recent years, Jeff's practice has focused on both 
regulatory and litigation matters. During his previous 21 years at 
Kirkland from 1982 to 2003, Jeff's practice principally involved 
complex business litigation matters involving antitrust, securities, 
contracts, RICO, business torts, government enforcement actions and 
product liability, including class actions. He has handled litigation 
before Federal and state courts in more than 20 states. including jury 
trials. bench evidentiary hearings, arbitrations and appellate 
arguments. He also served on Kirkland's Firmwide Management Committee 
and as Co-Head of the Washington, D.C. office.

From 2003 to 2006, Jeff served as the General Counsel of the U.S. 
Department of Transportation, after having been unanimously confirmed 
by the U.S. Senate. As that Department's Chief Legal Officer, he had 
final authority within the DOT to resolve all legal questions arising 
within or referred to the Department. As General Counsel, he oversaw 
the activities of more than 400 lawyers in the Transportation 
Department and its operating administrations. Jeff also had 
responsibility for DOT's regulatory program, enforcement and litigation 
activities, legal issues relating to international activities involving 
transportation, legislative proposals, and he acted as counsel to 
Secretary Norman Mineta. At DOT, Jeff testified on behalf of the 
Administration before various committees of Congress on ten occasions. 
He served on DOT's Credit Council, which was responsible for four 
Federal loan programs. In addition, he served as the Government's 
representative on the Amtrak Board of Directors, which was responsible 
for overseeing the company's management, personnel, operations, and 
finances.

From 2006 to 2009, Jeff served as General Counsel and Senior Policy 
Advisor for the White House Office of Management and Budget, which made 
him the Administration's lead lawyer for regulatory and fiscal issues, 
as well as for executive orders. Jeff's legal responsibilities included 
giving analysis and advice to the OMB Director and the President with 
regard to Federal laws related to a wide array of government agencies 
and programs, as well as administrative law, Constitutional law, ethics 
Jaws, Federal credit and insurance laws, litigation against the United 
States, and Federal budget and appropriations laws. He also handled 
responses to Congressional oversight and investigations.
Representative Matters
During his years of practice at Kirkland, Jeff has represented leading 
companies in a range of industries, including transportation, energy, 
technology and software, communications, chemicals, hotels, shopping 
malls, and financial services, among others. Some illustrative clients 
for whom he has handled significant matters during his years as a 
partner include Raytheon, Yamaha, PG&E Generating, AOL, General Motors, 
Hyundai, Qwest, Marriott, CF Industries, and the U.S. Chamber of 
Commerce.
Memberships & Affiliations
Chair of the ABA Section of Administrative Law and Regulatory Practice 
(2015-2016); previously Member of the Governing Council (2008-2012), 
and co-chair of the Section's Committee on Rulemaking (2009-2014)

Member of the Administrative Conference of the United States (2013 to 
present)

Member of the U.S. Chamber of Commerce Government Operations, Oversight 
& Consumer Affairs Committee (2012 to present)

Member of the Advisory Board of the National Federation of Independent 
Business Small Business Legal Center (2011 to present)

Member of National Journal's Panel of Transportation Experts and 
contributor to the online experts blog (2009-2012)

Counsel to the RNC Platform Committee (2012)

Member of the Board of Visitors, Northwestern University's College of 
Arts & Sciences (1998-2003, 2009 to present)

Adjunct Professor of Law, Georgetown University Law Center, Washington, 
D.C. (1996-2003)
Other Distinctions
Nominated by President Bush to be a Federal District Judge; Received 
highest rating from American Bar Association's Standing Committee on 
the Judiciary (2008)

Member of the American Law Institute (1996 to present)

Recognized as a ``Washington, D.C. Super lawyer'' (2012, 2013, 2014, 
2015 and 2016) by Super Lawyers magazine for Business Litigation/
Administrative Law/Transportation

Recognized in Washington, D.C. ``Top Lawyers'' (2012, 2013, 2014 and 
2015) by ALM Media for Business Litigation

Recognized in Corporate Responsibility Magazine's ``Legal Who's Who'' 
(2014) for Environmental Litigation

Recognized in The Legal 500 US. (2012) for Trade Secrets Litigation

Listed in Who's Who in American Law and Who's Who in America; top-rated 
``AV'' Preeminent in Martindale-Hubbell for more than 15 years
Publications

``Putting Regulators on a Budget,'' 27 National Affairs 42 (Spring 
2016) ``The Regulatory Budget Revisited,'' 66 Admin.L.Rev. 835 (Fall 
2014).

``Fishing for a Reason to Regulate,'' The Hill online (April 10, 2013)

``President Needs to Get Serious About Spending Cuts,'' The Hill 
(December 20, 2012)

``2008 Obama Would Like Ryan Budget,'' Des Moines Register p.13A 
(August 30, 2012)

``The 2012 Budget Surplus That Disappeared,'' National Review Online 
(December 14, 2011)

``Rein on Federal Regulations Will Only Benefit Economy,'' Cincinnati 
Enquirer (November 9, 2011)

``Who Checks the Fact Checker?'' National Review Online (September 16, 
2011)

``Costly Federal Regulations Escape Congressional Approval,'' Atlanta 
Journal Constitution (September 1, 2010)

``Major Rules Deserve a Vote,'' Baltimore Sun Op-Ed, p.13 (August 10, 
2010)

``Government Incentives For Businesses,'' 19 Business Law Today 51-55 
(May/June 2010)

``A Chance for a Second Look: Judicial Review of Rulemaking Petition 
Denials,'' 35 Admin. & Regulatory Law News 7-9 (Fall 2009)

``Obama vs. the Regulators,'' The Washington Post Op-Ed (August 6, 
2009)

``Watch for Hidden Taxes,'' Boston Globe Op-Ed (June 12, 2009)

``Obama Regulations are Taxing Consumers,'' Washington Business Journal 
(June 12, 2009)

``Court Acceptance of `In-Kind' Settlements in Consumer Class 
Actions,'' 9 Class Actions & Derivative Suits 20 (Summer 1999)
Seminars
Some of Jeff's recent seminar appearances include:

Speaker on ``Repairing Regulation'' at University of Virginia Journal 
of Law & Politics program ``Reining In the Administrative State'' 
(October 21, 2016)

Program Co-Chair and Speaker at Joint ABA, SBCA, and GW Regulatory 
Studies program on ``Benefit-Cost Analysis and the Courts'' (October 
11, 2016)

Speaker at ABA Section of Administrative Law teleforum on ``New Life 
for the Congressional Review Act?'' (May 26, 2016)

Speaker at Kirby Center for Constitutional Studies and Citizenship 
Program on ``Leashing Leviathan: The Case for a Congressional 
Regulatory Budget'' (May 25, 2016)

Speaker at Federalist Society's Annual Executive Branch Review 
Program's Plenary Panel on ``Congressional Regulatory Reform 
Proposals'' (May 17, 2016)

Speaker/moderator on ``Current Debates on Regulatory Reform'' at joint 
ABA and Hoover Institution program ``The Second Hoover Commission's 
60th Anniversary: Lessons for Regulatory Reform'' (March 16, 2016)

Moderator for ``The Role of OIRA in the Regulatory Process: A 
Discussion with OIRA Administrator Howard Shelanski'' at ABA's 12th 
Annual Administrative Law Institute (March 15, 2016)

Speaker at U.S. Chamber of Commerce's Joint Fall Committee Meeting on 
``Regulation: Who Decides?'' (December 9, 2015)

Speaker/moderator at ABA's Fall Administrative Law Conference on ``The 
Regulatory Budget Revisited'' (October 30, 2015)

Speaker at George Mason University program ``Regulatory Boot Camp for 
Polley Advisors'' on ``Reform--The Path Forward'' (April 1, 2015)

Speaker at the University of Pennsylvania Program on Regulation 
workshop on ``Agenda-Setting and the Regulatory State'' (November 7, 
2014)

Speaker at the Washington Legal Foundation Media Briefing Series, U.S. 
Supreme Court: Reviewing The October 2013 Term (June 25, 2014)

Program Chairman, 10th Annual ABA Administrative Law Institute (April 
3-4, 2014)

Speaker at hearing of House Judiciary Committee's Subcommittee on 
Regulatory Reform, Commercial and Antitrust Law on ``The Regulatory 
Accountability Act of 2013'' (July 9, 2013)

Speaker at U.S. Chamber of Commerce's Center for Capital Markets 
Competitiveness on ``The Role of Cost-Benefit Analysis in Regulatory 
Rulemakings'' (March 12, 2013)

Speaker/moderator at ABA Administrative Law Section program on 
``Proposals and Prospects for Regulatory Reform'' (October 3, 2012)

Speaker at ABA's 8th annual Administrative Law Institute on ``Current 
Proposals for Regulatory Reform'' (May 10, 2012)

Speaker at House Energy and Commerce Committee's ``Roundtable on 
Improving the Economy Through Better Federal Science'' (March 22, 2012)

Speaker at ABA's Fall Administrative Law Conference on ``Administrative 
Law: Time to REIN it in, CURB it, or Reform It?'' (November 17, 2011)

Speaker/moderator at ABA's annual Rulemaking Institute on ``Regulatory 
Reform-Current Legislative Proposals and Obama Administration 
Initiatives'' (May 3, 2011)

Speaker at U.S. Chamber of Commerce program on ``Restoring Balance to 
the Regulatory Process'' (March 22, 2011)

Speaker at Homeland Security Law Institute on ``Transportation and 
Supply Chain Security'' (March 2, 2011)

Speaker at hearing of House Judiciary Committee Subcommittee on Courts, 
Commercial and Administrative Law on ``The APA at 65'' (February 28, 
2011)

Speaker at Conference of Chief Justices Mid-Year Meeting on ``When Is 
Federal Preemption Appropriate?'' (January 25, 2011)

Speaker at American Enterprise Institute for Public Policy Research's 
program on ``Who Is Accountable for Federal Regulations?'' (December 2, 
2010)

Speaker at ABA's Annual Meeting program on ``Are Chevron, Vermont 
Yankee, and State Farm in Need of New Thinking'' (August 6, 2010)

Speaker at ABA's annual Rulemaking Institute on ``Formal and Hybrid 
Rulemaking: Time for a Revival'' (June 1, 2010)

Speaker at U.S. Department of Transportation's ``One DOT Legal Day'' on 
``Former General Counsels' Lessons Learned'' (May 11, 2010)

Speaker at NYU Law School Symposium on ``Changes to the Regulatory 
State: President Obama's Approach to Regulation'' (March 12, 2010)

Speaker at ABA's Fall Administrative Law Conference on ``Scrutinizing 
Regulatory Policy Reversals'' (October 22, 2009)

Speaker/moderator at ABA Rulemaking Committee program on ``Reflections 
on Rulemaking'' (October 8, 2009)

Speaker at meeting of ABA Task Force on Federal Preemption of State 
Tort Laws (October 1, 2009)

Speaker at AAAE webinar on EPA's Proposed Airport De-Icing Rule 
(September 2, 2009)

Speaker at Heritage Foundation Program on ``Hurting or Helping 
Consumers? Destroying Federal Preemption One Industry at a Time'' 
(August 5, 2009)

Speaker at ABA Administrative Law Section's Regulatory Practice 
Institute, ``New Directions In Agency Rulemaking'' (June 10, 2009)

Speaker at Kirkland & Ellis Conference ``Managing the Enforcement 
Response to the Financial Crisis'', addressing ``Pulling the tarp off 
the TARP: Navigating the Perils of the Bailout'' (April 2, 2009)

Speaker at President's Council on Integrity and Efficiency on 
``Earmarks and Executive Order 13457'' (March 12, 2008)

Speaker at Homeland Security Law Institute on ``Regulatory Developments 
for 2008'' (January 17, 2008)

Speaker at AEI-Brookings Joint Center for Regulatory Analysis Program 
on ``The Role of Competition Analysis in Regulatory Decisions'' (May 
15, 2007)
Illustrative Media Quotes and Coverage
Cheryl Bolen, ``Rosen Revitalizing ABA Section With More Debate, 
Programs,'' Bloomberg BNA (July 6, 2016)

Cheryl Bolen, ``Resolutions to Disapprove Rules on the Rise,'' 
Bloomberg BNA (May 27, 2016)

Hugh Kaplan, ``Justices Halt DOJ's Broad Application of Criminal 
Provision of Sarbanes-Oxley Act'' Bloomberg BNA (February 25, 2015)

Sara Murray, ``Romney Taps Bush Hands to Shape Economic Policies,'' The 
Wall Street Journal (February 24, 2012)

Kathryn Wolfe, ``Mitt Romney taps Bushies for transportation advice,'' 
Politico (Oct. 10, 2012)

Cheryl Bolen, ``Romney Proposals to Cut Back Regulations,'' BNA Daily 
Report (August 31, 2012)

Mark Drajem and Catherine Dodge, ``Obama Wrote Fewer Rules Than Bush, 
But Cost More,'' Bloomberg News (Oct. 26, 2011)

Catherine Dunn, ``Cutting Red Tape to Reduce Regulatory Costs of 
Government Rules,'' Corporate Counsel/Law.com (August 24, 2011)

David Ingram, ``GOP Starts Race for Top Attorneys,'' The National Law 
Journal, p. 1 (July 25, 2011)

Susan Crabtree, ``Airline Lawsuit Threatens Delays for FAA,'' The Hill, 
January 24, 2011

Tony Mauro, ``Inadmissible,'' Legal Times, p. 16 (November 29, 2010)

Carrie Levine, ``For Chamber, Legal, Lobbying Fights Multiply,'' The 
National Law Journal, p. 6 (August 9, 2010)

Sue Reisinger, ``Reunited We Stand,'' Corporate Counsel, p.17 (August 
2010)

David Ingram, ``Homecoming,'' The National Law Journal, p. 13 (June 7, 
2010)

Ralph Lindeman, ``Government Operations,'' Daily Report for 
Executives--BNA (May 3, 2010)

Melanie Trottman and Josh Mitchell, ``New Transit-Funding Rules Make 
Streetcars More Desirable,'' The Wall Street Journal (January 15, 2010)

Jim McTague, ``Congress Goes Head-Hunting,'' Barron's (July 20, 2009)

Robert Pear. ``Bush Directive Increases Sway on Regulation,'' New York 
Times, p.1 (January 30, 2007)

Cindy Skryzycki, ``Bush Order Limits Agencies' `Guidance,' '' 
Washington Post p. D1 (January 30, 2007)

Amir Efrati, ``U.S. Policy on Attorney Fees Sparks Debate at State 
Level,'' Wall Street Journal p.A12 (May 17, 2007)

Cindy Skrzycki, ``Agencies' Rules Quietly Enable Tort Reform,'' 
Washington Post, p. D1 (September 27, 2005)

Daniel Machalaba, ``Senator Questions Firing of Amtrak President,'' 
Wall Street Journal (November 15, 2005)

Alexandra Marks, ``Brake Trouble Fuels Larger Debate Over Amtrak,'' 
Christian Science Monitor (April 22, 2005)

``Big Suits--AOL v Microsoft,'' in The American Lawyer, p. 42 (April 
2002)
Courts
In addition to the D.C. Bar (1982) and the U.S. Supreme Court (1986), 
Jeff is a member of the bars of six Federal appeals courts and three 
district courts. He has appeared pro hac vice in numerous state and 
Federal courts throughout the country.
                                 ______
                                 

                              Attachment B
------------------------------------------------------------------------
                                                            Year of
            Name of Recipient                Amount      Contribution
------------------------------------------------------------------------
Rob Portman (Senate)                          $1,000            5/4/2009
------------------------------------------------------------------------
Rob Portman (Senate)                          $1,200           11/9/2009
------------------------------------------------------------------------
Kelly Ayotte (Senate)                           $500           3/22/2010
------------------------------------------------------------------------
Robert Dold (House)                             $500            6/1/2010
------------------------------------------------------------------------
National Republican Congressional             $1,000            7/7/2010
 Committee
------------------------------------------------------------------------
National Republican Senatorial Committee      $1,000           5/20/2011
------------------------------------------------------------------------
Romney for President                          $2,455            6/7/2011
------------------------------------------------------------------------
Rob Portman (Senate)                          $1,000           6/30/2011
------------------------------------------------------------------------
Ted Cruz (Senate)                             $1,000           9/12/2011
------------------------------------------------------------------------
Republican Jewish Coalition                     $500          10/20/2011
------------------------------------------------------------------------
Boehner for Speaker                           $1,500           2/16/2012
------------------------------------------------------------------------
Rob Portman (Senate)                          $2,000           7/19/2012
------------------------------------------------------------------------
Nan Hayworth (House)                            $500           7/16/2012
------------------------------------------------------------------------
Romney-Ryan                                   $2,500            9/8/2012
------------------------------------------------------------------------
Republican National Committee                   $750          10/31/2012
------------------------------------------------------------------------
Rob Portman (Senate)                          $1,000            8/2/2013
------------------------------------------------------------------------
Ryan-NRCC                                     $1,000           8/30/2013
------------------------------------------------------------------------
NRSC/NRCC Victory Committee                     $500          11/21/2013
------------------------------------------------------------------------
Liz Chey (Senate)                               $500           12/3/2013
------------------------------------------------------------------------
Tom Cotton (Senate)                           $1,000           6/30/2014
------------------------------------------------------------------------
Rob Portman (Senate)                          $1,200            8/2/2014
------------------------------------------------------------------------
James Lankford                                $1,000           9/23/2014
------------------------------------------------------------------------
Barbara Comstock (House)                        $750          10/14/2014
------------------------------------------------------------------------
John Boozman (Senate)                           $500          11/11/2014
------------------------------------------------------------------------
Right to Rise PAC                             $1,000            2/5/2015
------------------------------------------------------------------------
Ed Gillespie (Senate)                           $500           3/26/2015
------------------------------------------------------------------------
Ron Johnson (Senate)                            $500           5/19/2015
------------------------------------------------------------------------
Boehner for Speaker                           $2,700            8/1/2015
------------------------------------------------------------------------
Rubio for President                             $500           1/12/2016
------------------------------------------------------------------------
Mike Gallagher (House)                        $1,000            2/6/2016
------------------------------------------------------------------------
Mike Gallagher (House)                          $500           3/31/2016
------------------------------------------------------------------------
Liz Cheney                                    $1,000           3/23/2016
------------------------------------------------------------------------
Jason Chaffetz (House)                          $500           3/16/2016
------------------------------------------------------------------------
James Lankford (Senate)                         $500           5/14/2016
------------------------------------------------------------------------
Elise Stefanik (House)                          $500           9/15/2016
------------------------------------------------------------------------

    In the summer of 2012, I served as counsel to the Platform 
Committee for the RNC Convention.

    Senator Wicker. Thank you, Mr. Rosen.
    We are joined by the Ranking Member of the Full Committee, 
Senator Nelson, of Florida, and he would like to make an 
opening statement. So, Senator Nelson, you are recognized.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Speaking of roads and bridges, Mr. Rosen, 
we are literally at a crossroads on transportation because our 
infrastructure is crumbling, it's declining. Some multiples of 
tens of thousands of bridges in this country are deemed 
structurally unsound. The railways. You get into a growth state 
like mine, a thousand people a day net, it's already straining. 
You can't toll your way out of the situation even if you try. 
So basically, we've got to commit to do the infrastructure for 
the next generation.
    Last night, the Senate was invited to the White House, and 
I took the occasion during the reception before the concert--
and it was a wonderful concert, the Army Chorus and the Marine 
Quartet. It was enjoyed by all. There was a time for some 
talking, and I took that occasion to talk to the Vice President 
and said, ``I think the time might be right for us to consider 
a bipartisan infrastructure bill.''
    And you, of all people, ought to understand that we just 
can't keep having our commuters spend twice the time that 
otherwise they would take in order to get to work. So what 
we've got to do, and the leadership at the top, you and 
Secretary Chao, are going to have to reach out in a bipartisan 
way to start bringing people together and start doing some of 
the heavy lifting that has to be done. Now, we can all agree on 
infrastructure, but the question is, How are you going to pay 
for it? It's going to take folks like you that are going to 
have to offer that leadership. And, it's going to take that 
commitment.
    Yet you look at the President's ``skinny budget,'' and it 
doesn't tell us that. What it says is in order to build a wall 
on the Mexican border, we're going to eviscerate the maritime 
wall, the U.S. Coast Guard, 14 percent cut. That's also going 
to be an issue that we'll have to take.
    What about Amtrak? What about all the people up and down 
from New Orleans to Jacksonville that want a return of the 
Amtrak train? They've got it ready to go, but there's not going 
to be any money for it.
    So, Mr. Rosen, whether it's on infrastructure or a whole 
host of other issues, I hope that we'll have your commitment 
that you will reach out and work with Members of both parties, 
not one, in order to accomplish what all of us know have to be 
done.
    Thank you, Mr. Chairman.
    Senator Wicker. And thank you, Mr. Ranking Member.
    Mr. Rosen, do you have any response to the issue that our 
Ranking Member just raised?
    Mr. Rosen. Well, with regard to the suggestion that it 
would be important to have a bipartisan solution and to 
communicate on both sides of the aisle, I completely agree with 
that, and I think that I have a track record that would support 
that that is a concern, and it's something I can do. I did when 
I was at Transportation previously, worked for the Democratic 
Member of the Cabinet when Secretary Mineta was the 
Transportation Secretary.
    I've participated in organizations that have people of 
widely differing views. One reason I mentioned my role in the 
ABA Section of Administrative Law is that's a group of people 
that have wide-ranging views. They don't all agree with my 
views, but I think I was successful at persuading people to try 
to work together on coming up with ideas and suggestions and 
programs and the like.
    So I'm in complete agreement with Senator Nelson, that one 
of the roles that I see for this position is to communicate 
with the Congress and to work with the Congress, and that's on 
both sides of the aisle.
    Senator Wicker. Well, thank you very much. And I'm 
horrified that the timekeeper started my time running when I 
was asking if you would respond to Senator Nelson's question.
    Mr. Rosen. It has been reset.
    [Laughter.]
    Senator Wicker. I want to start off by discussing the 
Merchant Marine Academy. It's part of the Maritime 
Administration, which, of course, will come under your 
jurisdiction. You mentioned your parents not having the 
opportunity that you had for a collegiate education. For 
decades, the Merchant Marine Academy has been one of the finest 
4-year undergraduate degrees that a young American could have.
    Mr. Rosen. Right.
    Senator Wicker. And I'm determined that, as a Member of the 
Board of Governors at the Academy, that that continue. I was 
encouraged to hear that Secretary Chao has reinstated the Sea 
Year Program aboard commercial vessels for midshipmen at the 
Academy; however, today the Sea Year is operating only at 64 
percent of its original capacity while several shipping 
companies are still awaiting MARAD approval to host midshipmen.
    The first thing I want to ask is, do you have any ideas how 
MARAD can work with the shipping companies to ensure this 
vitally important training program comes back into full force?
    Mr. Rosen. Well, thank you, Senator. That was an issue that 
you were kind enough to bring to my attention, and so I asked 
some questions about that yesterday and was told that the 
process of beginning to have applicants who could help 
reinstate that program is underway and that the first group had 
been approved, which is why there are a number of members of 
the class who can resume Sea Year, and that there is another 
group of applicants who are being reviewed, and that there is a 
process to ensure that they meet the certification requirements 
so that the students who participate in the program are getting 
out of the program what they're supposed to and in an 
acceptable environment. And I think that's underway. I think if 
I was confirmed, one of the things I would, of course, want to 
do is continue to monitor that and look for ways we could 
expedite it to get it back to the situation that I know you 
would want, and I would look forward to staying in touch with 
you about that.
    Senator Wicker. Were you given any idea about the timeline?
    Mr. Rosen. No, but I'll be happy to follow up on that.
    Senator Wicker. OK. Well, it does need to be expedited 
because this needs to be back at 100 percent.
    In addition, the Merchant Marine Academy received a warning 
in its accreditation review last spring. Now, I find that 
completely unacceptable and surprising. The Academy has until 
April 2018 to come into compliance with accreditation 
standards. A loss of accreditation would have devastating 
effects on the integrity of what has been a valuable and 
prestigious institution. It cannot be allowed to happen.
    What steps should the Department take to ensure that the 
Academy stays on track to meet accreditation deadlines?
    Mr. Rosen. Well, as you know, I'm not yet at the 
Department, so I think that's an issue that if I'm confirmed, I 
would need to get better educated on. I know the Secretary is 
attuned to that issue. And I don't think there is any 
difference of opinion about the importance of getting it done. 
The steps to get there I need to get better educated about and 
again would look forward to doing that if I'm confirmed.
    Senator Wicker. Well, will you agree to make it a priority?
    Mr. Rosen. Yes.
    Senator Wicker. OK. Well, thank you very much.
    Senator Booker, you are recognized.
    Senator Booker. Mr. Chairman, with your permission, I would 
like to defer my time toward the end and let Senator Klobuchar 
go in my stead.
    Senator Wicker. Without objection, Senator Klobuchar, you 
are recognized.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Senator Booker.
    And thank you very much, Mr. Chair.
    Mr. Rosen, thank you for being here. I really want to ask 
you what Rob Portman was like as a client, but I'm not going to 
do that.
    [Laughter.]
    Senator Klobuchar. You clearly have some deep experience 
here. We also, of course, are dealing with a really difficult 
time with the proposed budget that you and I talked about in my 
office. Coming from Minnesota, whenever I think about the 
reason we need transportation funding, I think of the I-35W 
bridge that crashed in the middle of the Mississippi River on 
this beautiful summer day, killing over 12 people, 55 cars in 
the water. It was something we will never forget. And after 
that, we went in and we fixed all our bridges and spent a lot 
of money on it actually. So it is about the issues that Senator 
Booker was talking about with what we are leaving as a legacy. 
It's the effect it has on the economy, but it's also a safety 
issue.
    You and I talked about this in the office, but I'm very 
concerned about the cuts with EAS, that's Air Service, of 
course, the capital improvement grants, which are really 
important in our light rail in Minnesota, TIGER grants, and I 
would like to see if you will advocate to reverse course. I 
know you were not consulted on this budget proposal, but at 
least make developing a comprehensive infrastructure proposal a 
priority if you're confirmed.
    Mr. Rosen. Well, thank you for those observations. And I 
think what I can say is sometimes we have to separate ends from 
means. I think on the ends, there is a lot of consensus that we 
want to rebuild our infrastructure and that there are important 
objectives we have to achieve, for example, in the connectivity 
we want with rural America and the coasts and Alaska and other 
places. And so with regard to the ends, I like to think there 
is a lot of agreement. It's part of why transportation lends 
itself to some opportunity for consensus.
    The means and how we get there is often more challenging, 
and I think the budget presents those challenges, but isn't 
necessarily an objection to the goal. And so part of what I see 
as unfolding, if I'm confirmed in the Senate, is a chance to 
have further conversation and ultimately proposals in the 
President's infrastructure plan to achieve these goals, whether 
they are expansions of existing programs or whether they're all 
new programs to substitute or other ways to look at that.
    And I think we have to be flexible, but I think we're 
looking at the same goals. I think there is opportunity to get 
people together on that.
    Senator Klobuchar. I was really heartened when the 
President listed infrastructure as the first thing he wanted to 
work on, on election night, and used the figure trillion 
dollars. We've put out a proposal on that, and we got the FAST 
Act done here, but it's just the issue that right now it's 
looking at cuts. We don't have a proposal actually to add to 
infrastructure, we have to take away, and I understand you 
weren't involved in that, I wanted to make the point.
    Broadband, I'm going to just submit a question on the 
record on that. I'm one of the co-chairs of that caucus. I've 
got the Dig Once policy that we're pushing, and obviously 
that's a part of infrastructure as well. I know you see it as 
part of infrastructure, but I want to ask you about Open Skies. 
Both Democratic and Republican administrations have pursued an 
expanded Open Skies at a global level, which provides U.S. 
consumers and airports with more choice access to new 
international destinations.
    Last week I lead a letter with Senators Isakson, Durbin, 
Inhofe, Baldwin, and Tillis raising concerns about the billions 
of dollars in subsidies countries like UAE and Qatar provide 
their state-owned airlines. These subsidies, we believe, 
completely undermine the Open Skies agreements, hurt American 
workers. What can we do to ensure American airline workers are 
not harmed by unfair competition from abroad?
    Mr. Rosen. Well, I can't comment on any individual 
proceeding, partly because I'm not well-informed about the 
facts, but also would want the Department to look at things in 
a fair-minded and neutral way. But as a general principle, I 
think we've all heard the President emphasize the importance of 
trade deals generally that are good for Americans and that are 
enforced so that Americans get the benefits that are promised 
in the deals that are done. So I think in the big picture what 
I would say is I think we should enforce the agreements we 
have.
    Senator Klobuchar. Well, that means that we should be doing 
something about it then, so I appreciate that.
    Last, air traffic control. During her confirmation hearing, 
Secretary Chao said that any changes to the current air traffic 
control system should be part of a greater national discussion 
and involve a national consensus.
    As we discussed, Senator Moran and I sent out a follow-up 
letter to the Secretary outlining concerns that we've heard 
from rural airports and leaders in general in business aviation 
about this issue of air traffic control privatization.
    Will you commit to achieving a consensus among users who 
would be impacted before moving forward with any changes to the 
air traffic control system?
    Mr. Rosen. So I think, you know, we're obviously talking 
about a very complex subject where the ultimate goal is to 
modernize the technology that we use for air traffic control to 
restore the kind of leadership we've historically had and want 
to continue to have. There's a lot of discussion about how to 
get there, and I think you raised the important point about, 
what about general aviation, for example? And I think all of 
that has to be taken into account in how we get there.
    One thing that a couple of folks have mentioned to me, 
actually after we last spoke, was that some of the proposals, 
although they moved to user fee kind of systems, would 
basically exempt general aviation by retaining for general 
aviation the existing gas tax type arrangement. And so I think 
there has to be some sensitivity to that issue if we're going 
to be successful in getting to the ultimate goal. What the 
exact pieces are to make the puzzle all come together, a lot of 
work to be done on that, it's very clear.
    But, again, I think in my conversations what I take away is 
there is a large amount of agreement on the desire to get the 
Next Gen technologies in place and the kind of air traffic 
control system we all should want.
    Senator Klobuchar. OK, well, thank you. And I'll ask 
questions about the Safe Skies Act, distracted driving, 
contract towers, recreational trails, things we talked about, 
on the record, so I appreciate your time.
    Thank you.
    Mr. Rosen. Thank you.
    Senator Wicker. Thank you, Senator Klobuchar.
    Senator Fischer.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman.
    Hello, Mr. Rosen.
    Mr. Rosen. Good morning, or good afternoon. Sorry.
    Senator Fischer. Good afternoon. Recent news reports have 
suggested that the administration will seek to address tax 
reform and infrastructure at the same time. I welcome this 
approach and have advocated that as part of any major 
infrastructure initiative. At least some portion of those 
revenues should be used to expand the successful formula 
freight program that we established in the FAST Act, and this 
program provides each state guaranteed funding for a wide array 
of both urban and rural corridor highway freight projects.
    I think the beauty of this freight program is that, for 
example, Nebraska has the flexibility to invest in rail grade 
crossings or truck parking facilities along rural roads and 
highways, while, for example, California could choose to invest 
in on-dock rail at our Nation's largest port complex. These are 
all projects that would enhance the flow of freight in our 
country and also advance our economy.
    Do you believe that the freight program can represent an 
equitable way to strengthen our infrastructure for both our 
rural and our urban communities?
    Mr. Rosen. Well, I think it's an important topic, and in 
some ways, I have a simplistic view, that Congress enacted that 
in the FAST Act, and so it's less important whether I believe 
that or not, it would be helpful, but it's the law, and I think 
the Department should implement the law.
    Senator Fischer. Thank you. I know you've worked with my 
office in the past on many issues, and especially regulatory 
reform legislation for various agencies at the Department of 
Transportation, and that includes the FMCSA. You have a strong 
background, I believe, in regulatory matters both at DOT and in 
the Office of Management and Budget.
    As it relates to developing any future regulations, how do 
you foresee the DOT and modal administrations proceeding?
    Mr. Rosen. Well, obviously that's a broad topic. What I 
would like----
    Senator Fischer. I'll give you a lot of leeway to answer it 
any way you want.
    Mr. Rosen. Yes. I think that there's a real opportunity to 
use a regulatory process that takes advantage of the 
stakeholder participation, and I mean stakeholders of all 
types, by providing, and I think this was something you wound 
up being a strong supporter of in the FAST Act, of more 
advanced notice of what's coming, and, therefore, more 
opportunity to bring data to the table, more opportunity for 
creative ideas to come, to say maybe the objective is right, 
but the means is more costly than necessary.
    And so I see a process that allows earlier opportunity to 
know what's coming, stronger use of the regulatory agenda, both 
for transparency, so our citizens know what's coming from 
government, but also as a management tool, so that the 
Department is implementing things in an orderly way and not 
inadvertently unfocused, piling on one industry all at once and 
then another industry all at once rather than taking the 
opportunity to spread out where there are necessary costs to be 
incurred for safety and other reasons, and so therefore have a 
management approach out of the unified regulatory agenda or 
equivalence.
    And then, of course, I'm a big believer, it's of public 
record, in the strong use of empirical data and science as the 
basis for regulation and that the benefits justify the costs, 
and I would like to see that done. But I would also like to see 
prioritization of things that work best be built upon, and 
things that haven't worked well or are unnecessary are 
opportunities to lower the cost so that we achieve good 
outcomes in an efficient way.
    Senator Fischer. Thank you. You have experience at the DOT. 
And are there any organizational reforms or changes that you 
would consider at this point from past experience, not to pin 
you down on anything, but just in a general view? I mean, we're 
all looking at ways that we can streamline government, get 
answers faster, better responses, better transparencies. Is 
there anything out there that comes to mind that you would look 
at?
    Mr. Rosen. You know, I've just started thinking about that 
question because one of my observations from the past is the 
Department of Transportation, although I think it's an 
excellent agency of government, is a little bit of people 
functioning in silos, and there's always a need for more 
coordination and collaboration across some of our modal 
administrations.
    Particularly, there are a number of agencies that are 
devoted to surface transportation, and there are different 
parts of the Department that have aviation responsibility, 
sometimes not obvious, like the HazMat part of FMCSA has 
aviation. And so there's a need to get this more coordinated. 
Some of that's management, and I think if I'm confirmed, some 
of it would fall to me as well as the Secretary to try to 
enable the kind of coordination that's needed.
    But I'm just starting to think about the question that you 
raise, which is, are there organizational ways to enhance that? 
And I would look forward to talking to you further about that.
    Senator Fischer. Thank you, sir.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator Fischer.
    Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you, Mr. Chair, and Ranking Member.
    And good afternoon, Mr. Rosen. It's very nice to have you 
here.
    As you may know, the TIGER grants that have traditionally 
been issued through the Department of Transportation have had a 
really major positive impact on the Granite State. In recent 
years, TIGER funds have been used to support our Memorial 
Bridge as well as our Sarah Mildred Long Bridge, both of which 
play a really important role in keeping our state's economy 
going around our port.
    In January, now Secretary Chao testified before this 
committee for her nomination hearing, and I asked her about 
these grants, which have been so critical to my home state as 
well as to many other states across the country. The Secretary 
acknowledged the importance of the grants, and she even said 
that the utility of the program is, and this is a quote, ``one 
area of great agreement in Congress.''
    So the first question to you is, do you agree with 
Secretary Chao, that TIGER is a really important program?
    Mr. Rosen. Well, there are multiple ways that we fund 
infrastructure, especially projects. There are projects that 
come out of the various programs at the Federal Highway 
Administration. Now in the FAST Act, we have the Nationally 
Significant Freight and Highway Projects program that are 
labeled FASTLANE grants.
    And so this goes back to something I was saying earlier. 
The means and the ends, there can be sometimes a disconnect 
because the ends, as in some of the projects you were 
identifying, are things that are important, and they are part 
of trying to help people with their daily lives, to get to 
work, to get their kids where they need to get them, travel on 
vacation, and whatever else it is.
    And I think it's less consequential as to whether it's 
TIGER grants or FASTLANE grants or coming out of other programs 
than it is to think about, what's the best and most efficient 
way we can get this done? And I think that's part of what the 
infrastructure proposal that I understand is in the works--I'm 
not yet at the Department, as you know----
    Senator Hassan. Right.
    Mr. Rosen.--but from what I've read and heard loosely, I 
think we will focus on that.
    And so I think, again, the end of getting support for 
projects is one that looks to me at least to have widespread 
support.
    Senator Hassan. Well, I thank you for that. One of the 
reasons I ask the question, though, is that earlier in the 
month in the President's draft budget, TIGER grants were 
completely eviscerated, and that's in the absence of anything 
coming forward from the White House to help us see what an 
alternative vision might be.
    And the other thing is that these are programs that are 
critical to our economy. I mean, when you're talking about two 
bridges that cross a critical port in the Northeast, if you 
don't have those bridges, if you don't have a drawbridge that 
works, oil doesn't come into our port, right?
    So a lot of these programs exist because they're tailored 
to particular needs, and in the case of TIGER grants, often are 
initiated from the states after the state has done the homework 
about what particular need is there.
    So I'm grateful that you acknowledge the need. I am very 
concerned that when we see a budget that eviscerates something 
that most people in Congress agree has been important for 
critical projects that keep our economy going, that we don't 
throw one thing out before we have a good idea of how we're 
going to address the need. Does that seem reasonable to you?
    Mr. Rosen. Well, I understand your point. I'm not sure if I 
have a helpful answer, in that I think you have an observation 
that's useful, which is that there are needs, and I think part 
of the challenge going forward will be for us collectively to 
talk about how to meet those.
    Senator Hassan. Well, they're needs, but they're 
investments, and I think what's really--you know, our economy 
doesn't move if we don't have a strong transportation 
infrastructure. We can't lead the world without it.
    Let me move on to another area of proposed cuts, or at 
least as far as we understand them from the draft budget that 
we've seen that impact states like mine and many other states, 
and you've probably heard about it from a couple of the other 
Senators.
    The President's proposed budget eliminated the Essential 
Air Service program, and this program was designed to ensure 
rural communities receive commercial air service even in areas 
that would otherwise not be profitable for the airlines because 
of their geographic location. The Lebanon Airport is one of 
those EAS airports, and it serves ten to eleven thousand 
Granite Staters each year. Elimination of this program would 
have a devastating economic impact on rural communities that 
these airports serve.
    So what is your plan to keep rural communities connected to 
transportation services if the President's budget proposal 
eliminating EAS service becomes a reality?
    Mr. Rosen. So this is one of those questions that I have to 
point out, and I don't mean this defensively, that I'm not 
currently yet in the administration or a participant in that, 
but as a nominee for President Trump's administration, I'm of 
course obligated to support the President's budget, and I do. 
The administration campaigned on a reordering of priorities, 
and at least the way I perceive it, the so-called ``skinny 
budget'' that was released is sending the message about some 
reordered priorities.
    But having said that, I guess there are maybe three things 
I want to share that I think are responsive to your question.
    The first is that I wholeheartedly share, and I know that 
Secretary Chao shares as well, the concern that many people 
have about access to transportation in rural areas of our 
country. Transportation is one of the key ways in which we are 
connected as a nation, and if anything, I think too little 
attention has been paid to this. If people can't fly to Nome, 
Alaska, or Meridian, Mississippi, or New York State, it's just 
that much harder to keep our country knit together. And I think 
we need that more than ever. It's a national value.
    The second observation I wanted to make is rural areas must 
have access that the whole country should have to the economic 
benefits that derive from both travel and the movements of 
cargo, and I think that's good for the rural areas, and I think 
that's good for the urban areas, as anyone who ever visits a 
grocery store should know.
    So the third thing I want to say, it is my hope that if I'm 
confirmed, I would want to help the Department to more 
effectively achieve these objectives, partly by implementing 
the laws enacted by Congress and in part by looking for ways to 
make programs work better, work safer, and focus on specifics 
and how to meet this need for connectivity.
    And how to do that? I think that this is where having 
55,000 people in the Department is more valuable than one 
fellow at a table here. And I need, if I'm confirmed, to get 
people together to discuss some specifics because I think there 
might be some regulatory changes that could lower the cost, for 
example, and make rural aviation more viable.
    I think there may be other ways to address these needs that 
haven't been fully considered and fleshed out, and that the 
best way to do that is, if I'm confirmed, to both draw on the 
expertise of the Department and talk to the stakeholders.
    Senator Hassan. Well, thank you very much. I thank the 
Chair for your indulgence. And I'll just encourage you to be an 
advocate for strong transportation within the administration.
    Senator Wicker. Thank you. Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman.
    Good afternoon, Mr. Rosen.
    Mr. Rosen. Good afternoon.
    Senator Blumenthal. I've been asking for your FBI 
background check. I understand it hasn't been completed?
    Mr. Rosen. That's not my understanding, but I don't--I 
don't know--I didn't know you were asking for it.
    Senator Blumenthal. Your understanding is that it has been 
completed.
    Mr. Rosen. That is my understanding, yes, sir.
    Senator Blumenthal. OK. If it hasn't been, or at least 
hasn't been submitted to the Committee, would you agree that 
the vote should be postponed until we have it?
    Mr. Rosen. My understanding is it has been made available 
to the Committee.
    Senator Blumenthal. OK. Thank you. Let me ask you, you have 
a long and distinguished career in private practice, you've had 
a number of very eminent clients, including General Motors and 
other automobile manufacturers, the United States Chamber of 
Commerce, and the association that represents automobile 
manufacturers, if I'm correct, along with various airlines. In 
private practice, you represented the United States Chamber of 
Commerce, perhaps among others, in challenging the tailpipe 
pollution rules that were written by the EPA. Am I correct?
    Mr. Rosen. I think you're factually mistaken in the 
specifics of what you just said, but----
    Senator Blumenthal. Why don't you correct me?
    Mr. Rosen. I don't think I represented them with regard to 
the tailpipe rule, but I did represent the U.S. Chamber of 
Commerce, which was one of I think 80 parties----
    Senator Blumenthal. In the fuel economy rules?
    Mr. Rosen. No.
    Senator Blumenthal. The finding that greenhouse gases from 
motor vehicles?
    Mr. Rosen. The rules regarding the greenhouse gases and 
with respect to the PSD permitting that would have been 
triggered by the greenhouse gas transportation. I think other 
counsel actually represented them with regard to the tailpipe 
rule, but----
    Senator Blumenthal. I stand corrected. My question really 
is, would you recuse yourself with respect to those parties or 
clients whom you represented in accordance with the rules, but 
also with respect to any environmental issues that were raised 
in your representation of them?
    Mr. Rosen. Well, as I think you're probably aware, Senator, 
in the process of going through the review to be a nominee, the 
Office of Government Ethics reviews, as this Committee of 
course can, the financial report that I provided, which 
includes both financial holdings, but also clients that I had 
in the reporting period----
    Senator Blumenthal. Well, I don't--I don't--I apologize for 
interrupting you, but my time is limited. I'm not asking what 
the recusal rules are or what the review process is, I'm asking 
what you would do voluntarily? Would you recuse yourself from 
those issues relating to environmental standards concerning air 
pollution, emissions, because you've been active in the 
courtroom and also in a number of writings in stating your 
position?
    Mr. Rosen. So I think there are two things I'll say about 
that. One is with regard to the ethics agreement that I entered 
into after the review by the Office of Government Ethics. I 
will adhere to what's agreed to in that. And with regard to 
your other question, I hope I'm not misunderstanding you 
because I think you're talking about things that are at EPA 
rather than things that are at DOT.
    Senator Blumenthal. Well, there are issues that involve 
both agencies and advice that you may be called upon to give to 
the President or to other agencies.
    Mr. Rosen. And if it's covered by my ethics agreement, then 
I will adhere to what's required in the ethics agreement.
    Senator Blumenthal. Well, my hope is that you will 
voluntarily agree to go beyond the ethics agreement, do more 
than just the letter of the agreement, that you will commit to 
doing it. I'm going to be submitting some questions in 
writing----
    Mr. Rosen. Sure.
    Senator Blumenthal.--because you've written extensively on 
the need for less regulation, for, in effect, lower standards, 
and that may have been part of your job, so to speak, when you 
were in private practice, but it should not be part of your job 
when you're in the position of Deputy Secretary of the 
Department of Transportation if you are confirmed.
    Mr. Rosen. So, Senator, with all respect, I hope we aren't 
having a misunderstanding, because I don't know that I have 
written about the fuel economy standards. And so I'm not sure 
if we're miscommunicating or if I'm missing something there. 
But I will tell you, if it would give you some insight, for a 
number of years I taught professional responsibility and legal 
ethics as an adjunct professor at Georgetown University Law 
Center, and I would like to think that I will bring to this 
position and any position the highest levels of integrity and 
honesty, and I will approach the concern that you're raising 
with as fair-minded an approach as I can do.
    Senator Blumenthal. Thank you very much. Thank you. I may 
be wrong about your writings, so I'm going to go back and check 
on my own. So thank you for clarifying.
    Senator Wicker. And thank you very much, Senator 
Blumenthal.
    For the record, I'm told by staff that the FBI report has 
been completed as a matter of course and is available according 
to the standard procedure to be brought by any Senator's office 
and shown to the Member. So I hope that answers that question.
    Senator Blumenthal. It does, Mr. Chairman. Could I also 
enter in the record a letter written by various groups on this 
topic that we've been discussing? It's a letter dated March 29 
from groups including the National Resource Defense Council, 
Friends of the Earth, the Center for Energy Efficiency and 
Renewable Technology, et cetera.
    Senator Wicker. Without objection.
    [The information referred to follows:]

                                                     March 29, 2017
Dear Senator,

    We write on behalf of millions of members and supporters to urge 
you to oppose the nomination of Jeffrey A. Rosen for Deputy Secretary 
of the Department of Transportation. Rosen has a long record of 
opposing critical protections for Americans' health, safety, and 
finances, and particularly safeguards within the jurisdiction of the 
Department of Transportation.
    Rosen and his firm have represented companies and industry groups 
that have strong anti-regulatory agendas before the Department of 
Transportation, including the Alliance of Automobile Manufacturers,\1\ 
the U.S. Chamber of Commerce,\2\ and Airlines for America, a group that 
has worked to privatize air traffic control.\3\ His record shows that 
his views are closely aligned with theirs, and against the interests of 
American families.
---------------------------------------------------------------------------
    \1\ Myron Levin & Alan C. Miller, Industries Get Quiet Protection 
from Lawsuits, L.A. Times, Feb. 19, 2006, http://articles.latimes.com/
2006/feb/19/nation/na-preempt19.
    \2\ See Coalition for Responsible Regulation, Inc. v. E.P.A., 684 
F.3d 102, 107 (2012).
    \3\ Alex Daugherty, Trump's Pick for Deputy Transportation 
Secretary Did Legal Work for Airline Lobbyists, McClatchy, Mar. 14, 
2017, http://www.mcclatchydc.com/news/politics-government/white-house/
article138459268.html.
---------------------------------------------------------------------------
    In 2005 testimony, Rosen explained that he had ``overall 
supervision of the entire regulatory process'' as general counsel to 
the Department of Transportation,\4\ and he boasted that he helped 
terminate or withdraw 180 potential rulemakings in that role.\5\ When 
the agency produced rules during his tenure, they often benefited 
industry rather than consumers. For example, one rule by the National 
Highway Traffic Safety Administration (NHTSA) immunized automobile 
manufacturers from liability for deaths and injuries caused by weak 
vehicle roofs while doing little to improve safety.\6\
---------------------------------------------------------------------------
    \4\ Hearing on the Impact of Regulation on U.S. Manufacturing: 
Spotlight on Department of Labor and Department of Transportation 
Before the Subcomm. on Regulatory Affairs of the H. Comm. On Govt. 
Reform, 109th Cong. 46-47 (2005) (testimony of Jeffrey A. Rosen) 
https://www.gpo.gov/fdsys/pkg/CHRG-109hhrg23627/pdf/CHRG-
109hhrg23627.pdf.
    \5\ Id.
    \6\ Cindy Skrzycki, Agencies' Rules Quietly Enable Tort Reform, 
Wash. Post, Sept. 27, 2005, http://www.washingtonpost.com/wp-dyn/
content/article/2005/09/26/AR2005092602022.html.
---------------------------------------------------------------------------
    In private practice, Rosen represented the U.S. Chamber of Commerce 
in challenging tailpipe pollution rules written by the Environmental 
Protection Agency (EPA), which are closely related to NTHSA's fuel 
economy rules, and challenging EPA's finding that greenhouse gases from 
motor vehicles endanger human health and welfare by contributing to 
climate change.\7\ In essence, Rosen and other industry lawyers 
attempted to put the EPA's analysis of climate science on trial. They 
were roundly rejected.\8\
---------------------------------------------------------------------------
    \7\ Coalition for Responsible Regulation, Inc. v. E.P.A., 684 F.3d 
102, 107 (2012).
    \8\ Id. at 120-23.
---------------------------------------------------------------------------
    Rosen also engaged in science-defying foot-dragging over greenhouse 
gas pollution while serving as general counsel to the Office of 
Management and Budget. In one episode, he asked three times for 
memoranda explaining why carbon dioxide molecules emitted from motor 
vehicles are different from those emitted from power plants. There is 
no difference, but Rosen sought to find one in order to limit Federal 
agencies' responsibility to write rules curbing carbon pollution in the 
wake of the Supreme Court's ruling that carbon dioxide is a pollutant 
under the Clean Air Act.\9\
---------------------------------------------------------------------------
    \9\ Juliet Eilperin & R. Jeffrey Smith, EPA Won't Act on Emissions 
This Year, WASH. POST, July 11, 2008, http://www.washingtonpost.com/wp-
dyn/content/article/2008/07/10/AR2008
071003087_pf.html; Felicity Barringer, A New (and Unlikely) Tell-All, 
N.Y. Times, July 22, 2008, http://www.nytimes.com/2008/07/22/us/
22enviro.html; An Update on the Science of Global Warming and Its 
Implications, Hearing Before the S. Comm. on Envtl. & Pub. Works, 110th 
Cong. (2008) (testimony of former EPA Associate Deputy Administrator 
Jason Burnett), https://www.gpo.gov/fdsys/pkg/CHRG-110shrg88902/html/
CHRG-110shrg88902.htm.
---------------------------------------------------------------------------
    In addition to siding with industry on countless specific matters 
within the Department of Transportation's jurisdiction, Rosen projects 
a general hostility to public safeguards. He has repeated outlandish, 
debunked industry talking points on the purported cost of safeguards, 
including the self-refuting claim that Federal rules cost Americans 
$1.75 trillion each year, or $15,000 per family.\10\ In truth, Federal 
regulations are extraordinarily beneficial, providing net benefits of 
billions of dollars annually.\11\
---------------------------------------------------------------------------
    \10\ Hearing on H.R. 2122, the Regulatory Accountability Act of 
2013 Before the Subcomm. On Regulatory Reform, Commercial & Antitrust 
Law of the H. Comm. on the Judiciary, 113th Cong. (2013) (testimony of 
Jeffery A. Rosen), https://judiciary.house.gov/wp-content/uploads/2016/
02/Rosen-Testimony.pdf.
    \11\ See, e.g., Office of Information and Regulatory Affairs, 2015 
Report to Congress on the Benefits and Costs of Federal Regulations and 
Unfunded Mandates on State, Local, and Tribal Entities (Mar. 10, 2016), 
https://obamawhitehouse.archives.gov/sites/default/files/omb/inforeg/
2015_cb/2015-cost-benefit-report.pdf.
---------------------------------------------------------------------------
    At the Office of Management and Budget, Rosen advocated a George W. 
Bush executive order that placed a political appointee in each agency 
to serve as a gatekeeper for new rules and guidance documents.\12\ And 
he has publicly supported two pieces of legislation, the Regulations 
from the Executive in Need of Scrutiny (REINS) Act and the Regulatory 
Accountability Act,\13\ which would virtually shut down the regulatory 
process.
---------------------------------------------------------------------------
    \12\ Robert Pear, Bush Directive Increases Sway on Regulation, N.Y. 
Times, Jan. 30, 2007, http://www.nytimes.com/2007/01/30/washington/
30rules.html.
    \13\ Jeff Rosen & Susan Dudley, Let Congress Vote on Major Rules, 
Baltimore Sun, Aug. 9, 2010, http://articles.baltimoresun.com/2010-08-
09/news/bs-ed-congress-rules-20100809_1_regu
lations-rules-federal-agencies; Hearing on H.R. 2122, the Regulatory 
Accountability Act of 2013 Before the Subcomm. On Regulatory Reform, 
Commercial & Antitrust Law of the H. Comm. on the Judiciary, 113th 
Cong. (2013) (testimony of Jeffery A. Rosen), https://
judiciary.house.gov/wp-content/uploads/2016/02/Rosen-Testimony.pdf.
---------------------------------------------------------------------------
    Placing Jeffrey A. Rosen in charge of day-to-day operations at the 
Department of Transportation would be disastrous for American families, 
who under his regime would face higher risks on the road and in the 
air, more limits on their access to the courts, and irrevocable harm to 
their natural environment.
    We urge you to oppose his nomination vigorously.
            Sincerely,

Alaska Wilderness League
Americans for Transit
Center for Auto Safety
Center for Progressive Reform
Citizens for Reliable and Safe Highways (CRASH)
Coalition for Clean Air
Consumer Action
Consumer Watchdog
Consumers for Auto Reliability and Safety
Earth Action, Inc.
Ecology Center
Essential Information
Food & Water Watch
Friends of the Earth
Iowa Environmental Council
League of Conservation Voters
Mile High Connects
National Center for Lesbian Rights
Natural Resources Defense Council
Nuclear Information and Resource Service
PolicyLink
Public Advocates Inc.
Public Citizen
Renew Missouri
Safe Climate Campaign
Sierra Club
Southern Oregon Climate Action Now
The Center for Energy Efficiency and Renewable Technologies
The Clean Power Campaign
Trauma Foundation
Union of Concerned Scientists
Voces Verdes
Cosa Bullock
Lori Cameron
Lisa Daniel
Susan Nedell

    Senator Blumenthal. Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator Blumenthal.
    Senator Sullivan.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman.
    And, Mr. Rosen, good to see you again. Thanks for your time 
yesterday. I think you have a very strong background for this 
position.
    So the first commitment I want to get from you is, you 
know, we all represent different states, that's one of the 
great things about our amazing great country, is that all the 
states are very different. My state of Alaska has significant 
challenges with infrastructure. We're an infrastructure-poor 
state in many ways. Dozens and dozens of communities in my 
state have no roads whatsoever. Most states can't even imagine 
that. We're a big state, very big actually, 551 times the size 
of Rhode Island, but Rhode Island has about 6,000 miles of 
roads, and we have 10,000, so not very comparable--right?--
given the size.
    So I would like to get a commitment to you to come to 
Alaska, if confirmed, to actually see firsthand some of the 
significant challenges when you represent a state with American 
citizens in it who occupy a land mass that's one-third the size 
of the continental United States. Can I get that commitment 
from you?
    Mr. Rosen. So one of the things that my wife and I enjoy 
doing for vacations is to go to national parks and see 
different parts of the country. And you're now asking me to 
make the painful commitment to visit a place we've always 
wanted to go.
    Senator Sullivan. Trust me, this won't be a vacation, but--
--
    Mr. Rosen. I know, I know, I----
    Senator Sullivan.--if you can make that commitment, that 
would be great.
    Mr. Rosen. Yes, I was making light of it, Senator, but the 
reality is I think the points you make are significant, and 
it's not--I was being light. But it's not for vacation, it 
would be to understand the transportation challenges of your 
state, which I did understand both from our conversation and 
from other background that I have, that Alaska presents some 
very unique transportation challenges, and I would welcome the 
chance to get a firsthand opportunity to see that in person.
    Senator Sullivan. Great. Thank you.
    Senator Wicker. I'm sure we can all agree, though, that it 
would be an altogether pleasant experience.
    Senator Sullivan. Of course.
    [Laughter.]
    Senator Sullivan. I've got to get Senator Booker up there 
again on a more appropriate mission this time.
    Let me ask, related to that, Senator Hassan, I think you've 
heard about it from a number of Senators, have talked about the 
Essential Air Service. And I think the title of that, 
particularly for my state, is very accurate, meaning it is 
essential, particularly, as I mentioned, in places where dozens 
of communities have no roads, literally no roads to them.
    So you were asked a question by Senator Hassan recently. 
I'm not going to ask a follow-up question. I'm going to give 
you what I think would be a very definitive answer to that 
question for the record. So it is an essential service for many 
states. There is strong bipartisan support for that program, as 
I'm sure you saw in this hearing. And if confirmed, we look 
forward to working with you and the Department of 
Transportation to do what Secretary Chao committed to in her 
confirmation hearing, which was, quote, continuing the EAS 
program and finding ways in which to improve it. So that's not 
a question, that's a statement, and I think it might help 
answer the question you got there previously.
    Let me turn to another issue. We talked about this 
yesterday, and I just want to get on the record a commitment 
from you. As I mentioned, Alaska doesn't have adequate aviation 
monitoring and weather reporting capabilities due to a lack of 
infrastructure at a number of our airports. The FAA has not 
funded a new automated weather observing system location 
program in Alaska since the 1990s. This lack of data had 
previously justified the local FAA to allow carriers to use a 
combination of inputs to satisfy the requirements, which 
allowed communities to be served.
    As we talked about yesterday, the FAA is now changing that 
standard, enforcing a national standard for weather reporting 
and weather forecasting, which is having a dramatic impact on 
aviation operations in my state. Mr. Chairman, I would like to 
submit for the record some letters from the Alaskan Carriers 
Association, Everts Air Cargo, that lay this problem out in 
detail.
    Senator Wicker. Without objection.
    [The information referred to follows:]

                            Alaska Air Carriers Association
                                      Anchorage, AK, March 23, 2017

Michael Huerta, FAA Administrator,
FAA National Headquarters,
Washington DC.

RE: Alaska's Need for Aviation Weather

Sent via e-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7b361218131a1e1755330e1e090f1a3b1d1a1a551c140d">[email&#160;protected]</a>; Leathard, Scott (Sullivan)
<Scott_Leathard@sullivan.senate.gov>;
Milotte, Paul <paul.milotte@mail.house.gov>;
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="195a717c756a7c78467176756d59746c6b72766e6a7270376a7c77786d7c377e766f">[email&#160;protected]</a>; Fleagle, Mike (Sullivan)
<Mike_Fleagle@sullivan.senate.gov>;
Padgett, Chad <Chad.Padgett@mail.house.gov>

Dear Administrator Huerta:

    The Alaska Air Carriers Association (AACA) is a membership 
organization whose mission is to support and advocate for the 
commercial aviation community. Our members include Part 121, 135, 125, 
and commercial Part 91 Alaskan air carrier operators and associate 
members that support them.
    The most current economic data representing the Alaskan aviation 
industry estimates there is about $3.5B worth of economic activity, 
generated through 47,000 jobs and comprising 8 percent of Alaska's 
gross state product. 82 percent of the communities in Alaska are 
dependent on commercial air carrier transportation for routine 
transportation.
    AACA is writing to you today regarding a serious situation that 
impacts the people of the State of Alaska, their safety and associated 
commerce. It regards certified weather availability and public law that 
allows the Administrator to take into account the unique needs of 
Alaska.
    Aviation weather information is limited in Alaska! It's been 
estimated (by others) that over 200 new Automated Weather Observation 
Stations (AWOS) are needed in Alaska to meet the density of aviation 
weather currently available in the contiguous 48 states where alternate 
means of access via roads is readily available. In Alaska, 82 percent 
of the communities are not accessible by roads.
    In locations where weather is available and despite consistent 
attention from FAA Tech Ops and NWS staff, AWOS, and ASOS outages in 
Alaska are frequent (See attached Examples of weather issues). Outages 
are often attributed to ``telco'' or old and unreliable 
telecommunication line infrastructure, normal wear and tear or issues 
related to the recent ``tech refresh''.
    FAA regulations currently prohibit Part 121 air carriers from 
operations without an approved weather report at the destination and 
alternate airport. In general, to release a flight under part 121, the 
operator must have a forecast, terminal area forecast (TAF), and a 
METAR certified weather report. At issue is the recent enforcement 
application of required certified weather when visual conditions (VFR) 
prevail.
    In Alaska more than any other area in the national air space (NAS), 
there are vast areas where the only approved source of weather is a 
EWINS TAF purchased from a private vendor based in Florida. To use 
EWINS TAF data, a modification to the carrier's Operation Specification 
must be issued by the FAA. However, this only speaks to the forecast 
requirement and not the weather report at the destination or alternate 
airport.
    Additionally, there are destination airports where a TAF is not 
available, but there is an approved local METAR certified weather 
report. Thus, the Part 121 air carrier cannot release the flight to the 
airport unless they are authorized to use and willing to purchase the 
EWINS weather product.
    Going a step beyond, there are destination airports where an 
approved forecast is available or EWINS forecast is available, but 
lacking a local approved weather report or when a component of the 
report is missing or NOTAMd as unreliable, the part 121 air carrier 
cannot land, even when VFR (visual flight rules) conditions exist.
    The net result is that a 121 air carrier, complying with the 
regulations (see attached Guidelines), recently became excluded from 
landing at many airports in rural Alaska. Part 121 air carriers are 
mandated to operate at the highest possible level of safety and year 
over year they prove to be achieving that mark.
    Prior to FAA's latest enforcement philosophy change affecting Part 
121 air carriers on the need for VFR certified weather, Alaskan air 
carriers used alternate sources of weather to establish VFR conditions, 
planned and filed for an alternate landing location and carried 
additional fuel for the alternate destination. AACA requests you 
consider exercising your authority to take into account unique 
conditions in Alaska and exempt Alaskan Part 121 air carriers from the 
requirement for certified weather at VFR destinations until such time 
certified and back up weather is available to support the requirement.
    AACA also asks FAA to fully support and fund additional certified 
and backup weather systems in Alaska. AACA has participated in the 
Weather Work Group where aviation weather needs are being prioritized. 
AACA would welcome the opportunity to manage grant funds made available 
through the FAA to expedite site selection and installation of new 
certified and back up weather systems in Alaska.
    Since the 1990s when Alaska served as the test site for FAA's 
Capstone Project, FAA has not funded any new AWOS locations in Alaska 
despite approving a business case for 13 new AWOS in 2010. NWS has 
installed three Modular Automated Weather Systems (MAWS) in Alaska and 
proposes to install 2-3 new weather stations this summer but MAWS is 
not certified weather. These additional weather units offer additional 
weather data that would help to improve NWS forecasting in Alaska but 
MAWS cannot support Part 121 or 135 IFR or Part 121 VFR flights.
    Ultimately, additional AWOS and additional back up certified 
weather facilities are needed to ensure public forecasts are reliable 
and air carrier transportation in rural Alaska under Visual and 
Instrument Flight Rules (VFR and IFR) is available.
    AACA appreciates FAA's continued support on this issue. However, 
without adding new certified and back up weather facilities to the 
Alaskan aviation system, exempting Part 121 operators from VFR 
certified weather requirements is necessary.
    Alaskan air carriers would welcome any new weather available to 
support all aviators operating VFR or IFR in Alaska. To facilitate 
construction of new weather facilities in Alaska, AACA urges FAA to 
consider offering AACA an annual grant for certified and backup weather 
site selection and construction. AACA expects an annual grant would 
expedite new weather development in Alaska. AACA would be unable to 
offer payment for ongoing maintenance and testing requirements of new 
weather systems unless the costs were made grant eligible.
    Thank you again for your attention to this matter.
            Best regards,
Matt Atkinson, Board Chair
Alaska Air Carriers Association
Jane Dale, Director
Alaska Air Carriers Association

Cc: Congressman Don Young
Senator Dan Sullivan
Senator Lisa Murkowski
Alaskan FAA Administrator Kerry Long
Alaska Legislature
                                 ______
                                 
Guidance
    The FAA does not allow the use of the EWINS at any airport in the 
United States for the purpose of the weather report. This becomes most 
significant under the guidance of:
Order 8900.1, Volume 3, Chapter 24, Section 4
    3-2116 GENERAL. Title 14 of the Code of Federal Regulations (14 
CFR) parts 91, 121, and 135 require certificate holders to use weather 
reports and forecasts from specified sources. Pilots and other persons 
responsible for operational control must have enough weather 
information to determine whether a flight can be accomplished in 
compliance with 14 CFR. Weather information systems must provide all 
weather information required by 14 CFR.
3-2117 REGULATORY REQUIREMENTS REGARDING SOURCES OF WEATHER REPORTS.
A.  Weather Reports. For all operations conducted under parts 121 and 
        135, weather reports either must be prepared by the National 
        Weather Service (NWS) or by sources approved by the NWS or 
        Federal Aviation Administration (FAA). The term ``weather 
        report'' is as used in 14 CFR and as described in Advisory 
        Circular (AC) 00-45, Aviation Weather Services, section 3.1, 
        Aviation Routine Weather Reports (METAR) and Selected Special 
        Weather Reports (SPECI) (current edition). Forecasters use 
        surface aviation weather observations as the basis for 
        predicting future weather conditions. Any forecast used to 
        control flight movement must be prepared from (based on) 
        weather reports prepared by the NWS or other approved sources.

    Previously, the guidance read as follows. There has been a change 
        eliminating language which may have been beneficial to Alaska's 
        part 121 air carriers.

C.  Part 121. Part 121 requires operators conducting operations within 
        the 48 contiguous States to use weather reports prepared by the 
        U.S. NWS or sources approved by the NWS. Although part 121 does 
        not specify that weather reports prepared or approved by the 
        NWS must be used in Alaska, Hawaii, and U.S. territories, it is 
        FAA policy that weather reports prepared or approved by the NWS 
        must be used by all part 121 operators in areas where NWS 
        services are available. When operating outside the 48 
        contiguous States where NWS services are not available, part 
        121 domestic and flag operations must use weather reports 
        prepared by sources approved by the FAA. Additionally, under 
        part 121, Sec. 121.101(c), certificate holders are permitted to 
        use forecasts prepared from weather reports made by any source 
        approved under an Adverse Weather Phenomena Reporting and 
        Forecasting Subsystem established in compliance with part 121, 
        Sec. 121.101(d). Supplemental operations outside the United 
        States require the use of weather reports produced by sources 
        found satisfactory by the FAA in accordance with Sec. 121.119. 
        Any part 121 visual flight rules (VFR) operation must be based 
        on weather reports prepared by the NWS, sources approved by the 
        NWS, or sources approved by the FAA.
Order 8900.1 Volume 3, Chapter 26, Section 4
3-2120
    C. EWINS for Certificate Holders Conducting Part 121 Supplemental 
Operations. POIs of certificate holders who conduct part 121 
supplemental operations may grant approval to use an EWINS to satisfy 
specific requirements as follows:
    1) Operations Inside the United States--Weather Forecasts. In 
accordance with Sec. Sec. 121.119(a) and 121.119(b), a POI may approve 
a certificate holder conducting operations inside the United States to 
use a forecast prepared by an EWINS if that forecast is prepared from 
weather reports issued by the NWS or a source approved by the Weather 
Bureau. (The Weather Bureau is the NWS. See Volume 3, Chapter 26, 
Section 1, paragraph 3-2048.)
    2) Operations Outside the United States and at U.S. Military 
Airports Where No NWS Reports are Available.
    a) Weather Reports. In accordance with Sec. 121.119(a), A POI may 
approve a certificate holder conducting operations outside the United 
States or at U.S. Military airports to use a weather report prepared by 
an EWINS under the following circumstances:

  <bullet> Where no NWS weather report is available;

  <bullet> Where no U.S. and NATO Military observing sources are 
        available;

  <bullet> When no weather report issued by an ICAO Member State-
        authorized weather source is available;

  <bullet> When no weather report issued by an ICAO Member State, 
        authorized meteorological station, or automated observation is 
        available; and

  <bullet> When no weather report issued by a member of the WMO is 
        available.

    b) Weather Forecasts. In accordance with Sec. 121.119(b), a POI may 
approve a certificate holder conducting operations outside the United 
States and at U.S. Military airports to use a weather forecast prepared 
by an EWINS if that forecast is prepared from weather reports issued by 
a source approved by the Administrator. See Volume 3, Chapter 26, 
Section 2, for approved sources of weather reports.
    Note: that there is NO provision for weather reports that are not 
available. Weather reports are unavailable either when the airport is 
not staffed with qualified personnel to make weather observations, 
equipped with robots for this purpose, or when the equipment fails (not 
uncommon).

* as defined in 14 CFR part 1, the United States includes Alaska, 
Hawaii and Territories.

Examples of weather issues:
    Golovin. An Alaskan air carrier was recently contracted to fly 
groceries and other supplies to a small village in northwest Alaska, 
Golovin. Goods and services are typically transported to Golovin by 
air, especially during winter months when barge service is unavailable. 
On March 12, the Airport automated observation weather system (AWOS) 
wasn't reporting altimeter and even though the weather was clear with 
10 miles visibility, the Part 121 air carrier was unable to dispatch 
the VFR flight.
    Emmonak. AWOS facilities at both Emmonak and Unalakleet were part 
of the recent FAA technical refresh project and are often inoperable. 
The Emmonak AWOS was abruptly NOTAMd out of service on Monday, 3/12/
2017 with a projected repair on 3/17/2017. On Monday, weather was clear 
with 10 miles visibility and the Part 121 operator was unable to depart 
for this destination.
    Parts needed for repairs were ordered by Tech Ops staff however, 
the parts warehouse is located in Oklahoma City which serves parts 
needs nationwide. Delays related to parts availability is common. When 
AACA members inquired about the status of the Emmonak AWOS or the 
availability of parts, FAA Tech Ops staff offered that `knowledge 
related to the repair status is a security issue and that the only 
source of status information is thru the FSS NOTAM system'.
    Drift River. The Drift River Terminal Facility, also known as the 
Drift River Oil Terminal, is a tank farm which holds crude oil before 
it is loaded onto oil tankers and transported to refineries. It is 
located in Alaska along Cook Inlet, at the terminus of the Drift River. 
Recently, a Part 121 Alaskan air carrier was asked to transport 
materials from the facility to Anchorage. While on a clear day you can 
see Drift River from Kenai and perhaps from Anchorage, the Part 121 air 
carrier remains unable to offer transportation services because 
certified weather is not available at the Driver River Terminal 
Facility.
                                 ______
                                 
                                           Everts Air Cargo
                                                     March 10, 2017

Dear Representative Bishop,

    The Federal Aviation Administration has recently reiterated the 
``national requirement'' for weather forecasting and reporting during 
operations by 14 CFR part 121 air carriers. As I am certain you know, 
there are not many part 121 air carriers headquartered in the State of 
Alaska. In fact, only two of these operate large cargo airplanes and 
provide unique services to the outlying communities and villages in the 
state. Several weeks ago, representatives of several carriers met in 
Anchorage with the FAA. The carriers left the meeting with the belief 
that we had participated in a productive discourse with FAA personnel 
including John Duncan, FAA's Director of Flight Standards Services.
    I am not alone in my belief that Mr. Duncan asserted that there 
would be a non-enforcement stance from the Administrator until a 
solution could be found. The issue is complex, or at least as complex 
as they wish it to be. At the root is the infrastructure in Alaska. 
There are literally dozens of airports without National Weather Service 
approved data collection devices from which approved (appropriate in 
the parlance of certain rules) can be derived. In other cases, the 
equipment exists but due to equipment failures, equipment age and 
'copper wire' communications failures, reports meeting the standard are 
not available.
    As of two weeks ago, I believe that John Duncan has back pedaled on 
his commitment of ``non enforcement'' as he did not specifically 
exclude reported weather and now, claims it applied only to forecasts. 
We (the air carriers) who know and are impacted by this issue 
understand that this modified position is rather meaningless as we can 
replace forecasts with a EWINS product (we pay a fee to a vendor to 
repackage NWS weather and derive a forecast). The greater problem is 
the large number of Alaskan airports with no weather reporting (or 
failed weather reporting systems). On this issue, he is now asserting 
that he gave no such non enforcement assurances. Recently, it was made 
quite clear that if we operate where there is no report, we will be 
considered in willful violation. Clearly Mr. Duncan is disputing not 
only my recollection of his statements during the meeting, but Mr. 
Fleagle's (Senator Sullivan's office) and Ms. Dale's (Alaska Air 
Carrier's Association) as well.
    We (Robert Everts, EAC CEO; Sammy Wiglesworth, EAC Director of 
Safety and I) met with the FAA in Fairbanks this past week to seek 
clarification and work toward finding an amicable solution. They 
remained, despite focused discussion on their rule and guidance, firm 
in their position that the requirement for the report had no leeway. We 
discussed the language of the rule for operations in Visual 
Metrological Conditions (VMC) under Visual Flight Rules (VFR) with 
reference to 14 CFR 121.611.

        Sec. 121.611 Dispatch or flight release under VFR.

        No person may dispatch or release an aircraft for VFR operation 
        unless the ceiling and visibility en route, as indicated by 
        available weather reports or forecasts, or any combination 
        thereof, are and will remain at or above applicable VFR 
        minimums until the aircraft arrives at the airport or airports 
        specified in the dispatch or flight release.

I have used bold type for emphasis on the word ``or'' in the 
regulation.

    The FAA also have elected to eschew the intent of the related 
language in the Order 8900.1 Guidance. This 8,000 page document is used 
selectively by the FAA. By that I mean, they will direct us to use this 
guidance for clarification and meaning on one day, but when we 
reference it for discussion, we are told this is their guidance.

        VOLUME 3 General Technical Administration
        CHAPTER 26 AVIATION WEATHER INFORMATION SYSTEMS for air 
        carriers
        Section 4 Sources of Weather Information
        Paragraph 2117 C.

        C. Part 121. Part 121 requires operators conducting operations 
        within the 48 contiguous States to use weather reports prepared 
        by the US. NWS or sources approved by the NWS. Although part 
        121 does not specify that weather reports prepared or approved 
        by the NWS must be used in Alaska, Hawaii, and US. territories, 
        it is FAA policy that weather reports prepared or approved by 
        the NWS must be used by all part 121 operators in areas where 
        NWS services are available. When operating outside the 48 
        contiguous States where NWS services are not available, part 
        121 domestic and .flag operations must use weather reports 
        prepared by sources approved by the FAA. Additionally, under 
        part 121, Sec. 121.101(c), certificate holders are permitted to 
        use forecasts prepared from weather reports made by any source 
        approved under an Adverse Weather Phenomena Reporting and 
        Forecasting Subsystem established in compliance with part 121, 
        Sec. 121.101(d). Supplemental operations outside the United 
        States require the use of weather reports produced by sources 
        found satisfactory by the FAA in accordance withSec. 121.119. 
        Any part 121 visual flight rules (VFR) operation must be based 
        on weather reports prepared by the NWS, sources approved by the 
        NWS, or sources approved by the FAA.

The applicable statement for operations in Alaska is highlighted.

    We have recently sought an exemption from certain requirements for 
reported weather, but thus far have no response from FAA Headquarters 
in Washington, D.C. on this matter. Typically, this is a lengthy 
process. More interestingly, the FAA has indicated familiarity with 
this request, and cited this application as a basis to infer that we 
know what the rule requires, therefore any infringement would be seen 
as willful. It was suggested by the FAA, in our meeting, that we seek 
an exemption. We reiterated that we have, and after the better part of 
the month, have not received a response. It is not likely that any 
productive result will be seen in the near term. In fact, the last 
operational exemption we were granted took well in excess of a year. It 
was also suggested that we seek legal interpretation from FAA legal. 
This is also a lengthy process and we have one request out that has 
lingered for months.
    It is worth mentioning that there are distinctly different 
standards of safety in aviation. The most basic and least regulated is 
14 CFR part 91. This level of ``general aviation'' is also the most 
prone to accidents and incidents due to minimal training and 
airworthiness requirements. Somewhat more regulated is 14 CFR part 135, 
which allows the operator to hold out to the public offering air 
transportation. This part restricts the size and seating capacity and 
while mandated to maintain a higher standard than part 91, the 
standards, in particular, operational control, flight crew member 
training and maintenance, are still not those of 14 CFR part 121.
    Please understand that, when a part 121 air carrier is restricted 
from offering/providing service with the highest possible degree of 
safety (14 CFR part 121), the customer is forced to seek services at a 
lesser standard. While at first look this would seem to be primarily an 
economic concern for the part 121 airline, it is inherently 
discriminatory to the customer, now denied access to the service at the 
highest possible degree of safety. There is also an element of 
discrimination against the outlying communities and villages. When the 
day comes that a village needs a generator in the midst of a flood, or 
construction materials to build a school or homes for families, or even 
to carry quantities sufficient to stock the local markets, they must 
rely on air transport. Operators of small (non 121) aircraft may be 
challenged by weather conditions or elements of flight which should 
restrict them from flying the mission. Occasionally they try, and the 
results are tragic.
    The attached is a listing of destinations in Alaska with no weather 
reporting available as of 2/28/2017. This could become more critical in 
some areas with the recent avalanche at Atigun Pass closing the Dalton. 
Communities north of that closure are effectively isolated from 
delivery of food, some fuels, and any other essential life sustaining 
supplies reliant on large aircraft.
    I believe it would be appropriate for the Senators' offices to work 
closely with Congressman Young's office and demand the FAA act 
expeditiously to draft an exemption, applicable only to Alaska's air 
carriers operating under 14 CFR part 121 enabling operations where 
reports are not available.
    Most of the regulatory language addresses ``reports or forecasts or 
any combination thereof.'' Several high ranking individuals in the FAA, 
apparently including Mr. Duncan, do not wish to differentiate between 
the word ``or'' and the word ``and''.
    There are only two operators using large cargo aircraft serving the 
airports with limited capability. Neither has any history of weather 
related events prior to this new enforcement initiative. Bottom Line, 
after the February 22 meeting which was attended by operators as well 
as staff representatives of our U.S. House and Senate, Mr. Duncan has 
not addressed the industry concern, and the unintended consequences of 
the actions by the FAA. Communities will suffer, commerce will suffer, 
safety will suffer and Air Transport in Alaska will suffer. The FAA and 
NWS have failed to work together to provide forecasts (TAFs) and 
reports (METARS). The operators obtain EWINS weather products, 
essentially paying for repackaged NWS data. This only addresses the 
lack of forecasts. The relief that was implied, and the relief needed 
relates to the weather reporting at the airport. Earlier last week FAA 
reaffirmed their stance that if we operate without approved reports, 
they will take the position that we are intentionally non compliant and 
in violation.
    Thank you for your consideration of this critical issue. Obviously 
it is complicated and has ramifications that cannot be overstated. We 
are available to assist with any questions and invite you to contact us 
at the numbers noted below.
            Best regards,
                                          Zachary M. Adams,
                                           Directory of Operations,
                                                      Everts Air Cargo.

Enclosure

Cc: Robert Everts
Sammy Wiglesworth
                                 ______
                                 
           List of Alaska airports without weather reporting

Akulik
Alakanuk
Allakaket
Anvik
Arctic Village
Atmautluak
Beaver
Beluga
Big Mountain
Birch Creek
Buckland
Bullen Point
Candle
Chalkyitsik
Chandalar Lake
Chenega Bay
Chisana
Chuathbaluk
Coal Creek
Colorado Creek
Dahl Creek
Donlin Creek
Drift River
Dune Lake
Eek
Ekwok
Farewell
Flat
Galbraith Lake
Gane Creek
Gold King Creek Mine
Golden Creek Mine
Goodnews Bay
Granite Creek
Grayling
Hughes
Illinois Creek
Independence Creek
Inigok
Ivotuk
Kasigluk
Katmai Lodge
Kavik
Keyes Point
Kobuk
Kokhanok
Kongiganak
Kotlik
Koyukuk
As of 2/28/2017
Levelock
Little Squaw Lake
Medfra
Moses Point
Napaskiak
Nightmute
Nikolai Creek [Tyonek]
Nikolski
Nixon Fark Mine
Nondalton
Noorvik
Nulato
Nyak
Oliktok
Osprey Lodge
Point Lonely
Poorman
Port Clarence
Prospect Creek
Ptarmigan Lake
Quinhagak
Rampart
Red Devil
Sheldon Point
Selby Lake
Skwentna
Stebbins
Stevens Village
Tanacross
Telaquana
Trading Bay
Tuluksuk
Tuntutuliak
Twin Lakes [East and West]
Tyonek
Ugashik
Umiat
Umnak Island
Venetie
WienLake
      
                                 ______
                                 
                                           Everts Air Cargo
                                      Fairbanks, AK, March 28, 2017
Senator Dan Sullivan,
Washington, DC.

Dear Senator Sullivan,

    I understand that you may have recently received correspondence 
from Jane Dale, the Executive Director of the Alaska Air Carrier's 
Association, regarding the numerous weather issues affecting 121 Air 
Carriers in the state of Alaska. I am requesting your immediate 
attention to a specific issue, which is the new interpretation of 
``national requirement'' for weather reporting at all 121 Air Carrier 
destination airports (including remote strips used for mining and 
oilfield development, and other special strips such as ice runways). 
121 Air Carriers MUST have certified weather provided by the National 
Weather Service AT THE DESTINATION. This is a significant change from 
how 121 Air Carriers in Alaska have been operating (for over 30 years).
    Unfortunately, there are numerous locations (runways) in Alaska 
where there is no National Weather Service reporting. Under the new 
interpretation, Everts Air Cargo cannot fly into these destinations. An 
example is Drift River, located just across the inlet from Anchorage. 
Two weeks ago, Hilcorp Energy requested that Everts Air Cargo transport 
an ``oil pig'' to assist with their operation (as has been done many 
times before). However, because of the new interpretation and the fact 
that there is no certified weather provided by the National Weather 
Service at Drift River, we had to decline the business. The weather was 
VFR, not a cloud in the sky.
    In addition to there being locations without weather reporting, 
there are numerous occasions where the AWOS (Automated Weather 
Observation Station) reporting systems fail. That is what we are 
currently experiencing with the village of Emmonak, one of Alaska's 
mainline hubs. The weather robot went down in Emmonak on March 24 and 
is scheduled to be out of service until April 7.
    Below is a picture of what the weather is in Emmonak today, but 
even though it's 10 and clear, because of the new interpretation, we 
are prohibited from flying there. Currently, we have over 50,000 lbs of 
mail and freight for Emmonak, but these food items and basic goods will 
not be flown until the weather robot is repaired by the FAA.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    I have included a copy of a letter recently sent to Alaska Senate 
Representative, ``Click'' Bishop to request the State's support. It 
provides further information regarding the critical weather issues 
facing 121 Air Carriers in the State, but specifically focuses on the 
recent initiative by the FAA to enforce certain elements of the 
regulations. The decisions and actions of the FAA in this area are 
misguided. Clearly, there are unintended consequences that will 
continue to negatively impact the flow of U.S. Mail and other essential 
commodities regularly transported to the villages by 121 Air Carriers. 
Your support and intervention is respectfully requested.
    Please feel free to contact me via e-mail or at the number listed 
below.
    Thanking you in advance for your assistance,
                                             Zachary Adams,
                                            Director of Operations,
                                                      Everts Air Cargo.
Cc: Robert Everts

    Senator Sullivan. And, Mr. Rosen, if confirmed, I would 
like to get your commitment to work with me and my staff to 
address this problem, which is a significant one, and we talked 
about it in my office yesterday. Can I just get that 
commitment?
    Mr. Rosen. Yes, Senator, I would be happy to work with you 
and your staff to at least get the right people in the room 
talking about what the issues are and whether there is a 
satisfactory solution.
    Senator Sullivan. Great. And this just goes to the broader 
issue, which I think many states view, certainly my state, that 
the one-size-fits-all approach on policy emanating from 
Washington almost never works in certain states. It certainly 
doesn't work in my state, and this is one example.
    Let me, if I may, Mr. Chairman, one final question. I know 
I'm short of time, but there has been a lot of talk on an 
infrastructure initiative, a package, coming from the 
administration. I think you're starting to see a lot of broad 
bipartisan support for this idea. But as we talked about 
yesterday, and I've talked to Secretary Chao and even the 
President about this, an infrastructure initiative without 
corresponding permitting reform at the Federal level in many 
ways is going to be a lot of money wasted.
    Right now, you know the stories. There are examples where 
Federal permitting takes years and years and years to build a 
road or to build a bridge. We had the head of the Seattle-
Tacoma Airport in front of this committee last year. Fifteen 
years to get the permits to build a new runway. Fifteen years.
    So we're going to be introducing a bill, the Rebuild 
America Now Act soon. I'm going to try and get a lot of 
bipartisan support for this, but it looks at major permitting 
reform to build infrastructure projects, not cut corners, but 
to actually be able to deploy the money. I've already gotten a 
commitment from Secretary Chao to work with us on that.
    Can I get your commitment to work with us on the details of 
that so if there is an infrastructure package through the 
Congress, we can make sure that the Federal monies actually get 
deployed and don't get caught up in years and years of 
litigation and red tape? Can we get your commitment on that?
    Mr. Rosen. I think you've raised a very important issue. I 
think this committee has actually had some leadership and shown 
leadership in trying to find ways to improve the permitting 
process initially in MAP-21 and the FAST Act, but there is more 
to be done.
    Senator Sullivan. Much more to be done.
    Mr. Rosen. And so I think you raise a very important issue 
and one that is personally interesting to me as something that 
could improve our infrastructure needs in that some of the 
information I've seen suggested that the single largest time 
component of infrastructure projects is actually the permitting 
phase. And----
    Senator Sullivan. Not the design phase, not the building 
phase, the permitting phase.
    Mr. Rosen. So if we can improve that, we make a lot of 
progress. And so I would welcome the chance to work with you on 
that if I'm confirmed.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman. And we'll have additional records 
that we're going to submit for the record.
    Thank you, Mr. Rosen.
    Senator Wicker. Thank you, Senator Sullivan. And I would 
only observe that Senator Ted Stevens would have been very 
pleased with that exchange with regard to the permitting 
process.
    Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chair.
    Welcome, Mr. Rosen. It's good to see you again. Thank you 
so much for taking the time to visit with me. And I will be in 
and out. I'm juggling two meetings at a time, so I apologize 
for the tardiness.
    Mr. Rosen. No problem.
    Senator Cortez Masto. But let me start with the 
conversation that we had in my office. As you know, Nevada has 
a number of emerging and exciting innovative sectors happening 
right now. Two of them include unmanned aerial systems and the 
next generation of vehicle technologies. To better understand 
how you will approach the regulatory and future funding 
decisions, could you share with me and all of us your 
perspective on innovation and transportation?
    Mr. Rosen. Sure. Thank you for that question, Senator. I 
think we're in one of the most interesting phases in a long, 
long time. There was this wonderful burst of transportation 
innovation 100 years ago with the Wright brothers and the 
automobile and so forth, and then, while there have been 
incremental improvements, we're suddenly seeing the application 
of digital technologies to the transportation sector, as you 
alluded to, with the unmanned aerial vehicles and automated 
vehicles, and both cars and trucks.
    And so we have to start thinking very creatively about how 
we accomplish some of the fantastic opportunities that exist 
for serving all Americans, but some obvious ones with regard to 
automated vehicles, for example, are people with disabilities 
or elderly or children who need to get places. And yet we know 
that there are a number of challenges involved with that, of 
which the first and foremost is safety, because you're not 
going to have consumer acceptance of these technologies without 
safety, but all these things that people have to think hard 
about, the privacy concerns, cybersecurity concerns.
    And I think the challenge for governments generally is to 
both--how to foster the innovation of the private sector, how 
to enable that, while ensuring that the public is protected on 
these other concerns, especially first and foremost safety, 
which I see as job one for the Department of Transportation.
    Senator Cortez Masto. I appreciate that. And I don't 
disagree that when we're looking at moving in the path of 
innovation, we always want to have guardrails and protections 
in place for consumer safety.
    But that brings me to my next question, which my colleague, 
Senator Blumenthal, I think was also talking to you a little 
bit about, is that cost-benefit analysis that goes into the 
regulations that you will be looking at when it comes to the 
safety of consumers and the riding public. And I'm curious how 
you weigh that. When you're making that cost-benefit analysis, 
in your perspective, how is that undertaken, and how much 
weight does that carry when we are looking at this type of 
analysis?
    Mr. Rosen. So I'll offer two thoughts about that. One is 
it's really important in the regulatory process to have the 
best available data and to be using the best information you 
have. And one of the great things about the Department of 
Transportation actually is that among government agencies, it 
has access to some really excellent data.
    Some members of this Committee are undoubtedly familiar 
with NHTSA and auto safety. It has these tremendous databases 
of all the unfortunate tragic fatalities we have in auto 
accidents. It has databases from police reports. We have 
wonderful data on aviation in the Bureau of Transportation 
Statistics. And part of what we have to do is use the data to 
ensure we have accurate outcomes.
    But I will say, as much as I am a supporter of cost-benefit 
analysis, I don't think it's an algorithm. I don't think you 
just plug it in, and if it's positive, you're done, and if it's 
negative, you're not.
    I do think that as much as we strive for the use of good 
data, there is a need for some judgment and discretion. There 
are things that can't always be perfectly quantified. And so 
there is a need for judgment, and part of that is judgment of 
where things fit in the larger scheme of priorities because 
unfortunately it's a real fact of life in all realms that we 
don't have infinite resources, so the resources we have, we 
have to use wisely.
    Senator Cortez Masto. Thank you. I appreciate those 
comments. And then, finally, we had talked about this. As you 
well know, I-11, we are looking to have an Interstate 11 
through Arizona into Nevada, and it's an important project for 
the state of Nevada to open doors and improve our economy on 
commerce.
    And I've heard the current administration talk about 
investing in our infrastructure needs. But the comment that I 
heard from the President was that we need to fix it first. And 
as you well know, investing in Interstate 11 is not fixing it 
first, it is investing in new projects that we need in 
infrastructure across the country.
    So I'm just curious, your thoughts on fix it first. Is that 
how you feel about that? Is that the mandate that you're 
hearing? Or is it more of a broader infrastructure plan that 
includes new projects?
    Mr. Rosen. So I'm not yet a member of the administration, 
so I haven't been privy to conversations that would flesh out 
that. My own sense of that is, while the President is defining 
his priorities, I did not interpret that, unless I hear 
otherwise, as being a preclusion of taking into account the 
realities that there are parts of the country where growth is 
the driving consideration in infrastructure, and there are 
other parts of the country where refurbishment is the priority.
    In the big picture, there certainly is a lot of repair 
that's needed, but I don't construe that as a citizen who is 
listening to the conversation, let's say, as saying that we're 
going to ignore the needs of places that are growing.
    Senator Cortez Masto. Thank you. And I see my time is up. I 
appreciate the comments today. And as I said in the office when 
we spoke, you're welcome to Nevada. We look forward to having 
you come out there as well. Thank you.
    Mr. Rosen. Thank you, Senator.
    The Chairman [presiding]. Thank you, Senator Cortez Masto.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. And 
congratulations to the nominee.
    Mr. Rosen, I wanted to ask you about oil train volatility. 
In the last administration, we worked very hard to try to 
address both through the Department of Transportation and FMCSA 
the necessary safety in making sure our communities don't have 
a Lac-Megantic type situation. One of the issues is making sure 
that we understand the volatility of the product being shipped 
on our rail lines, and the Department of Energy and Highway 
Safety Administration is investigating the properties of crude 
oil that affect combustion, including volatility. We expect 
this study to be completed later this year. So we want to know 
how you will work with that information and protect our 
communities on a transportation issue?
    Mr. Rosen. Well, I think you raise an important question, 
that we all want to have safety in the transport of materials 
that are potentially hazardous. I am aware there were some 
regulations issued in recent years on tank car safety and the 
like, and I know that there are studies out there.
    As I've mentioned, I'm not yet at the Department, so I'm 
not yet as current as I need to be, and I think the issue you 
raise suggests to me that that's another item that if I'm 
confirmed, would be something I would want to get with the 
Federal Rail Administration and have myself brought current on 
the issues so that I could participate in helping to assess, 
what are the next steps that are needed?
    I assume that that's an ongoing issue that they're working 
in light of the report and the analysis, and I would need to, 
as I've said to some of the other Senators, take advantage of 
the fact that there are a large number of experts at the 
Department that are more knowledgeable on the specifics of that 
than I am and try to get in a position to help things move 
forward.
    Senator Cantwell. Well, I appreciate that. I hope you will. 
Our frustration has been both the DOT and FMCSA thought they 
didn't have the ability to regulate this product, so one of the 
reasons why we're doing the analysis is to show this level of 
volatility and its combustion does need to be regulated, but I 
would believe the DOT could do a more aggressive job today even 
without the study. But that aside, you should look it up and 
get more up to speed on that. I'm going to look forward to 
hearing more from you on that.
    My colleague from Nebraska mentioned freight, and the 
investment that freight delivers to our economy. What are your 
views in continuing to make investments in this area of 
transportation and evaluating projects under the Nationally 
Significant Freight and Highway grant program?
    Mr. Rosen. So I really have, I guess, two sets of thoughts. 
Some are that we should implement the statute, that there are 
criteria and there are things in the statute, and we should 
follow them, but at a more general policy level, I think we're 
very fortunate in this country that some of our freight 
infrastructure is really privately held, and we see investment, 
and we have to try to facilitate it, and I'm thinking 
particularly of rail and pipelines as examples of that.
    But then, of course, trucking is a huge part of freight 
movement, as is aviation, and so on, and I think that's part of 
the bigger picture we're talking about, of, what does an 
overall infrastructure proposal look like? And while I think I 
look forward to getting into that conversation if I'm 
confirmed, I don't yet know where that stands, and I would look 
forward to receiving input and trying to be a good contributor 
to the process, including taking that concern into account.
    Senator Cantwell. Well, I hope you would work to ensure 
that new infrastructure packages kept with that robust 
investment in freight infrastructure. It's really where a lot 
of congestion is. And I think the study and analysis was that 
you could have freight travel all the way from the West Coast 
to Chicago, but it would take the same or more amount of time 
to just travel through Chicago. So clearly freight can't wait 
when it comes to the competitiveness of, say, our Canadian 
ports, so----
    Mr. Rosen. Right. Right. We know there are bottlenecks that 
occur. We've had the experience of that at ports on occasion. 
And I think you raise an important issue to be taken into 
account.
    Senator Cantwell. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman.
    Mr. Rosen, you have a long history both in government and 
on the private sector of defending private industry against 
regulations designed to protect consumers. In fact, when you 
first worked for the Department of Transportation, you touted 
the fact that you were involved in ending or withdrawing 180 
potential DOT rulemakings.
    And you've also demonstrated hostility to environmental 
regulations design to protect our air, our water, opposing 
greenhouse gas emissions regulations in your role at OMB, and 
representing the U.S. Chamber of Commerce in attempting to 
undermine climate change science in order to fend off potential 
regulations.
    I know that Senator Blumenthal asked you to voluntarily 
recuse yourself from matters involving former clients and 
issues you worked on. I understand you would not agree to that. 
Is that true?
    Mr. Rosen. I think what I told Senator Blumenthal was that 
I would adhere to the ethics agreement that I had entered into 
that identifies where I have former clients, and that I would 
be recused, and that I would intend to bring, as I try to do in 
everything I do, the highest standards of integrity and 
professional responsibility, and I stand by that.
    Senator Markey. OK. I guess my recommendation to you, sir, 
would be that you should recuse yourself in all cases where 
your independence is in question, which it is on matters where 
you've had prior clients and matters that you have previously 
worked on.
    Let me now turn to climate science if I may. According to 
media reports, during the Monday evening briefing on the 
President's dirty energy executive order, the White House 
briefer said he was not familiar with the economic consequences 
of climate change impacts like rising sea levels and extreme 
storms.
    Those impacts pose numerous risks to America's 
infrastructure in Massachusetts and throughout the country. For 
instance, roads, rail lines, and ports can be shut due to 
flooding. Extreme heat can degrade asphalt and weaken metal 
rail lines and bridges.
    Mr. Rosen, are you familiar with the risk climate change 
poses to transportation infrastructure?
    Mr. Rosen. Well, Senator, I think what I would say is, much 
like many of the transportation issues that we've talked about 
at this hearing, I think that I'm in favor of protecting the 
environment, and I think that that's a common sentiment that 
many people have. I have shared in the opening statement, as an 
example, that I do drive a hybrid vehicle and have for many 
years.
    So when you get into the specifics of the lists you were 
giving, I was trying to think the connections to transportation 
because my mind is a little bit fixed on that today, and I 
think you and I had some conversation about fuel economy as 
being the key area in which DOT has some responsibilities on 
that. And I think I mentioned to you that when I was General 
Counsel, DOT issued three cafe fuel economy rules back at that 
time.
    Senator Markey. Well, let me just go back. Let me go back 
to Massachusetts v. EPA. That was the decision at the Supreme 
Court in 2007 where the Supreme Court ruled that the EPA had to 
make a determination as to whether or not there was an 
endangerment to Massachusetts, to our coastline, to our 
infrastructure, that was posed by CO<INF>2</INF> going up into 
the atmosphere. So that decision came down 5 to 4 saying that 
they had to make that determination.
    So if that's the law, which it is, and EPA then made that 
endangerment finding, then the question becomes, should the 
Department of Transportation build climate change into 
decisions made at the Department of Transportation in terms of 
the impact on infrastructure? We can begin with Massachusetts, 
but it was a ruling for the whole country.
    Mr. Rosen. Well, I'm familiar with the case you're 
referencing, and my recollection is the Supreme Court expressly 
talked about the fact that there would need, in light of the 
decision, to be coordination between NHTSA and the fuel economy 
rules and EPA and the greenhouse gas rules. And the Court 
contemplated that there would be coordination. And my 
understanding is that that has been part of the process in the 
years subsequent to that.
    Senator Markey. Well, back in 2008 in March while you were 
still at OMB, the Department of Transportation released a 
report entitled, ``Impacts of Climate Variability and Change on 
Transportation Systems and Infrastructure Gulf Coast Study.'' 
The report found that the expected impacts of climate change on 
transportation in just this one region of the country are 
striking.
    The significant position of the Gulf Coast region's road, 
rail, and port network is at risk of permanent flooding if sea 
levels rise by 4 feet, and that includes more than 2,400 miles 
of major roads and 9 percent of rail lines.
    So nine years after that, my hope is that the Department of 
Transportation leadership, no matter what their party 
affiliation, would recognize the importance of taking the 
consequences of climate change into account when making 
decisions about transportation policies and infrastructure. And 
I'm referring back to a Bush era study of what the impacts 
could be.
    Mr. Rosen. I'm not familiar with the actual study you're 
referencing, but I would, if I'm confirmed, look forward to 
looking into that and be happy to have further conversation 
with you.
    Senator Markey. From my perspective, this is--you know, 
Hurricane Sandy is a good example of where if it was just off 
by a couple of degrees and hit Boston, hit Cape Cod, we would 
still be digging out. The costs were massive. The 
infrastructure damage was massive. And, again, that was at the 
heart of Massachusetts v. EPA, what would be the impact on our 
state? And we lose hundreds of miles of beach, you know, on an 
ongoing basis, and that's pretty much the challenge that we're 
going to have going forward.
    The Department of Transportation understands that, 
especially when it comes to the issue of the fuel economy 
standards. You know, the less CO<INF>2</INF> that goes up into 
the atmosphere is the less danger there is going to be to any 
of this infrastructure. My fear is that the auto industry, 
notwithstanding having 700,000 new jobs since we bailed them 
out in 2010, and having a much higher fuel economy standard, 
it's just going to try to walk away from that commitment.
    But it's not just a commitment to the jobs that were 
created, it's also going to be the commitment that they were 
making to making sure we protect all of this infrastructure in 
our country, and I'm just really afraid that that's going to be 
a consequence unless the Department of Transportation is able 
to make that determination that the auto industry can meet 
these standards. It's just a National Academy of Sciences study 
that makes it quite clear that they can do so. So I just throw 
that out. I think it's critical. I think it's central to the 
long-term responsibility the Department of Transportation is 
going to have to our country.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey.
    Senator Booker.
    Senator Booker. I'm grateful, Senator Markey.
    And, again, thank you very much for being here. It means a 
lot that you would be willing to serve your country. It's so 
wonderful to see Dr. Rosen here. This goes to what I always 
say, behind--in front of every accomplished man is a more 
accomplished woman looking over her shoulder saying, ``Keep up, 
please.''
    You said during your opening remarks, which was music to my 
ears, that you think good communications between the Committee 
and the Department of Transportation is--I don't remember the 
exact superlative you used, but something you thought was 
important.
    Mr. Rosen. Absolutely.
    Senator Booker. Well, I say that is music to my ears is 
because since the administration came into the office, a number 
of committee members have sent letters to the Department of 
Transportation on a variety of issues, some of them not 
seemingly controversial, but have yet to receive a response. 
And this is very problematic to me. This Committee I think 
functions well when we have a direct line of communications.
    Would you commit to me right now on the record that you 
will be communicative and responsive to this committee and our 
letters?
    Mr. Rosen. Yes.
    Senator Booker. Thank you. Positive Train Control, 
something that I think is really urgent, as someone who rides 
Amtrak myself, but also understands how critical it is up and 
down the Northeast Corridor. You have probably witnessed 
through the news some of the crashes we've had, some of them 
that might have been affected by Positive Train Control. It is 
important that the DOT continue to push this?
    Mr. Rosen. I think it's an important issue, that, like you, 
I have ridden Amtrak many, many times to New York and other 
places actually. And I have a daughter who lives in New York, 
so that's a train I like to take from time to time, even for 
pleasure.
    But the short answer is Positive Train Control, you know, 
has been in the works for at least a decade. I think when I was 
at the Department as General Counsel, I went to a demonstration 
of the technology. My recollection is it was in Illinois. And, 
you know, I hate to think about how many years that's been. So 
I think it's an important issue. I would be very interested, if 
I'm confirmed, in working on the observation monitoring of 
where that stands, and would be interested in your input. If 
you think there are issues or concerns, I would look forward to 
working with you on that.
    Senator Booker. Mr. Rosen, I bring it up for two reasons. 
One, because of the urgency I feel on this, and also because--
and I'll submit this for the record if the Chairman is OK--is 
something you wrote about sort of the cost of regulations and 
that they shouldn't be articulated by agencies, they should be 
articulated by Congress. In this case--and you mentioned 
Positive Train Control as an example of that and the cost of 
the regulation, but the reality is, is that Congress requires 
the Department of Transportation, we have spoken on this issue, 
to move forward with Positive Train Control.
    [The information referred to follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    

    Mr. Rosen. Right.
    Senator Booker. This is to me a life-or-death issue that 
I'm hoping that your commitment--and I ask it given the letter 
you wrote--is this is not an agency-driven initiative, this is 
something Congress has told the Department of Transportation to 
do, and something that this Congress, in a bipartisan fashion, 
has allocated resources to get done. I'm hoping that I can get 
your commitment that the Department of Transportation will do 
what Congress has indicated it should do.
    Mr. Rosen. I have said many times I have a somewhat simple 
view that if Congress has written a law, then administrative 
agencies should implement the law.
    Senator Booker. All right. Can I just talk to you really 
quickly about the Gateway Program? This is something that is, 
as I said in my introductory remarks, profoundly important. The 
tunnels going between the Hudson River and through the Portal 
Bridge, we've got 107-year-old tunnels across the busiest river 
crossing in all of North America. It's not just important to 
New Jersey commuters, it's important to the region. The 
infrastructure is severely damaged.
    And this is the challenge, is we have about three quarters 
of a million people that go across those tunnels or that river 
crossing every day. It moves a workforce that contributes $50 
billion to the gross domestic product.
    But this is the critical issue, is that if we don't replace 
those tunnels before the end of their lifespan--which some 
folks are thinking about 15 years because of the damage that 
Superstorm Sandy was, and I've gone through those tunnels and 
reviewed them--if we don't do it proactively and end up doing 
it reactively, in other words, we have to shut down a tunnel to 
repair it, it will cause a traffic ``Armageddon'' in the region 
and hurt the American economy to the tune of about $100 million 
a day in lost productivity.
    Do you understand the urgency of a project like this?
    Mr. Rosen. With regard to the need and the problem center, 
yes. I think that we're talking about a crucial part of our 
overall mobility in this country. And so the need to do 
something I think is clear. I'm very interested, and I'm glad 
you raised it, I've only recently started to learn more about 
the proposals itself for how the project would be done, and I'm 
very interested to learn more about what the ideas are. I know 
it's multimodal. I'm not as well-versed as I need to be to 
understand what the proposed fix is. But on the question of, is 
there a need? You're talking about, as you said, 100-year-old 
tunnels.
    Senator Booker. So I would love to have the opportunity to 
sit with you, Mr. Rosen, and talk to you about this project----
    Mr. Rosen. Agreed.
    Senator Booker. That's all I need. And now I am treading in 
very--basically treading upon the Chairman over here's good 
graces to ask one more line of questioning. He is perhaps the 
fittest Senator in all of Washington, and so he intimidates me 
in multiple factors, not just his seniority, but also the fact 
that he might be able to take--a former tight end like myself. 
So if that's OK with you, can I go to one----
    The Chairman. Absolutely.
    Senator Booker. Thank you, sir.
    The Chairman. With that introduction.
    Senator Booker. Yes. So truck safety is a serious concern 
of mine because of what's happening right now on our highways, 
which we're seeing actually, especially with the technology we 
have at our behest, especially with the ways we have to control 
it. Unfortunately, we're seeing about a 57 percent increase in 
people injured by crashes since 2009. This problem is growing 
worse and worse and worse. And I've met with a lot of these 
families. I met with one person just yesterday who have seen 
sort of the devastating impact of what a truck crash on our 
highways can mean. We're talking to the tune of thousands of 
people.
    In 2015 alone, 4,067 people were killed in crashes 
involving large trucks. Again, I'm not pointing blame to the 
truckers, to the cars, it's just happening on our highways. 
It's a problem that's getting worse. Do you have in your mind a 
plan to try to address this serious issue of mass carnage in 
the United States of America happening on our highways 
involving trucks?
    Mr. Rosen. Well, I appreciate your concern, and I think 
it's a valid one. I've wondered myself. In addition to trucks, 
we've just seen an upturn in the last 2 years of auto 
fatalities generally, of motor vehicle fatalities, and I've 
wondered after, you know, we had about a decade of continuous 
decline. And I think it's a great concern why that has turned 
in the other direction, that we're having an increase, and 
trucks are a part of it. I know you are right.
    So I think, if I'm confirmed, one of the things I would 
like to do is take advantage of the tremendous data resources 
that DOT has and begin some exploration as to, what are the 
reasons? Because if we're going to solve the problem, we have 
to understand what's causing the increases, and I think that 
needs some very timely exploration because, you're right, we 
don't want that trend line to continue.
    Senator Booker. So four yes-or-no questions, and I'm done. 
And, again, perhaps when we meet and talk about Gateway, you 
and I can have a conversation a little bit more on this.
    Mr. Rosen. Sure.
    Senator Booker. Just yes-or-no questions. Do you support 
efforts to target enforcement at the high-risk companies; in 
other words, those companies that are showing demonstratably 
that they're involved in significantly more crashes, and some 
of the great companies we've had testify before us? Do you 
support efforts to target enforcement on those higher risk 
companies with existing congressionally mandated rules?
    Mr. Rosen. So what I would say about that, Senator, is I 
think enforcement can be an important tool in trying to address 
these issues. What's the right tool, I need to get better 
educated, and, as I've said in response to some other 
questions, take advantage of the Department's expertise because 
right now I'm not there. And so I wouldn't want to pretend that 
I have all the answers without having the benefit of the 
expertise of people at the Department.
    Senator Booker. I appreciate that.
    Mr. Rosen. But I think as a philosophical matter, let's 
say, what I know from experience is that enforcement can be an 
important piece of the puzzle.
    Senator Booker. I appreciate that. And, again, your value 
of congressionally mandated rules and the importance of the 
intention of Congress in your deference in your testimony and 
words to me earlier, I hope that that would spill over to the 
rules.
    Do you support the entry-level driver training rule for new 
drivers that exists right now?
    Mr. Rosen. I have to say something of the same thing, in 
that I'm aware that there was a rule finalized late at the last 
administration, but it's a pretty lengthy rule. And although 
it's on my to-do list, I have not read it. So I think it would 
be premature for me to offer a bottom-line view, but I think 
it's another one of these issues that's important, and if I'm 
confirmed, I would intend to get in a position to know what I 
think of it.
    Senator Booker. So I think you've taken away my ability to 
ask these last two questions, but things you might want to 
familiarize yourself with. But I'll say them both at once and 
then run quickly just in case Senator Thune is not indulging 
me.
    Do you support the electronic logging devices rule, which 
switches from paper logs to electronic logs, something I know 
you have managed, I've managed, seeing you've managed multiple 
organizations? Having access to data, objective data, that's 
not kept on paper logs, you've got to believe that that's 
important.
    Mr. Rosen. I do have to give sort of the same answer with 
the one additional thing, in that trying to get better educated 
on that issue, I did see that one of the courts, I think the 
Seventh Circuit, recently affirmed a challenge to that rule. So 
I'm interested in the topic, but I am not well briefed enough 
yet to give you a bottom-line set of observations.
    Senator Booker. And the last is, do you support moving 
forward with congressionally mandated rules in general, or is 
the position you're presenting to me that you want to read the 
rules and evaluate them to see if they should be enforced or 
not?
    Mr. Rosen. No, I wouldn't put it that way. I think that if 
Congress has said to do something, it should be done. I think 
the part I was reserving judgment on, let's say, is, is it the 
most effective and efficient way to do what Congress said to 
do? If you can achieve your objective in a better, more 
effective, quicker, less costly way than what's done, then you 
should try to do that. And I'm saying I don't have my arms 
around, what do I think about have they implemented what 
Congress said to do in the best way? But on the question you 
asked, which is, ``If Congress says to do something, should you 
do it?'' the answer is yes.
    Senator Booker. Sir, just in closing, you are a wise man. I 
say that simply because of who you married. I suspect you will 
be confirmed. And the best thing I've heard right now is should 
you be confirmed, you and I will sit down and have two 
reasonable men having a conversation about how to best move 
this country forward.
    Mr. Rosen. I would very much look forward to that, Senator.
    Senator Booker. Thank you very much.
    And I want to say for the record how grateful I am to 
Senator Thune.
    [Laughter.]
    The Chairman. Thank you, Senator Booker. You are eminently 
reasonable.
    [Laughter.]
    The Chairman. So thank you.
    Next up is Senator Duckworth.

              STATEMENT OF HON. TAMMY DUCKWORTH, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Duckworth. Thank you, Mr. Chairman.
    Mr. Rosen, as you know, Illinois is one of the most 
important states in the Nation when it comes to transportation 
infrastructure. We have one of the world's busiest airports, we 
are at the center of the Nation's freight rail network, and we 
also are home to one of the country's most important transit 
systems. That's why I was very alarmed by the President's 
budget blueprint for 2018, where he seeks to cut the Department 
of Transportation's budget by about 13 percent.
    My Illinois stakeholders are deeply concerned with the 
administration's proposal, and they are very concerned with the 
plans to eliminate critical DOT programs. What they want to 
know, and as their Senator, I need to know, whether, if 
confirmed, you will make a strong commitment to stopping these 
harmful cuts that threaten job creation and urgently needed 
infrastructure projects?
    Mr. Rosen. So, Senator, I'm going to maybe elaborate on 
something I've said earlier, which is I think in these issues, 
it's sometimes important to separate the ends and the means. I 
think you've expressed, and I've heard other Senators express, 
concern about there are important issues you care about, 
freight mobility, or some of the other issues that are 
addressed in the President's budget. And I think that I would 
like to say that I would look forward to trying to work on ways 
of addressing the policy outcomes we want, which is separate 
than the means of whether the particular budget programs that 
are addressed need to be changed, reformed, improved upon, and 
so on.
    And so as a nominee of President Trump, I support the 
President's budget, but that's not to say that there aren't 
other ways to address some of the concerns you and other 
Senators may have. And, of course, all budgets, all 
appropriations I should say, come before the Congress, and the 
Congress has to approve them.
    So I think it's inherently a collaborative process, and I 
would hope we could work together, notwithstanding that you 
differ with the President's budget, and I'm a nominee of 
President Trump.
    Senator Duckworth. So my understanding is you support the 
13 percent cuts in the President's budget to DOT, but you think 
that there are other ways to improve the transportation 
infrastructure system in this country outside of the budget, 
what's listed in the budget? Is that----
    Mr. Rosen. Well, I should take a half step back because 
I've said this before, and I may have said it earlier, I'm not 
currently at DOT, so I wasn't a participant in the budget 
process, but, of course, as the President's nominee, I am going 
to support the President's budget. I think that's what you 
would expect. And I'm saying I don't think that means, however, 
that you should think that's closing the door on being able to 
discuss how we achieve policy outcomes that we may all want in 
a consensus way, or least in a majority way at least.
    Senator Duckworth. Well, I find your support for this 
budget with the significant cuts deeply concerning. And as 
members have discussed all afternoon, we are very concerned 
that creating new jobs, supporting small businesses, and 
generating economic growth, if you support those things, 
cutting the DOT budget is absolutely the last thing we should 
do.
    I am also concerned about the administration's proposal to 
eliminate the successful TIGER grant program that has proven 
incredibly popular with state and local governments across this 
country and in Illinois. Every year, the demand for TIGER grant 
funding greatly exceeds the amount of funding available.
    In 2016 alone, DOT received 585 applications from all 50 
states requesting $9.3 billion in total funding for the 
program. This was almost 20 times more than the actual amount 
of TIGER funding available that year, which was $500 million. 
TIGER is a great deal for the American taxpayers. It's cost 
effective and competitive. Projects are selected based on 
performance, and TIGER promotes matching funds.
    Mr. Rosen, yes or no, if confirmed, will you support the 
administration's proposal to eliminate the TIGER grant program 
in 2018?
    Mr. Rosen. Well, Senator, as I've tried to say throughout 
this hearing, I think, if I'm confirmed, I would look forward 
to participating in the process of helping develop the 
President's overall infrastructure proposal, and I see 
infrastructure as an area both where there is wide agreement on 
our national needs and an area that has an opportunity for 
bipartisan joining together to get something done. So----
    Senator Duckworth. Well, I don't want to go to that point.
    Mr. Rosen. No, no, I--OK.
    Senator Duckworth. Just answer yes or no, do you support 
the proposal to cut, to basically eliminate the TIGER grant 
program? You said you supported the 17 percent--the budget with 
the 17 percent cut. So do you support the elimination of the 
TIGER program because that's what the White House has put 
forward?
    Mr. Rosen. Well, perhaps I'm not communicating well because 
what I'm trying to say to you is that I think in the 
infrastructure proposal there can be multiple ways of 
addressing the concerns you have, the policy outcomes you 
have----
    Senator Duckworth. I'm not asking about the policy 
outcomes. I'm asking specifically about the President's 
proposal to eliminate the TIGER grant program.
    Mr. Rosen. OK. So let me address the TIGER grants. Those 
are discretionary grants that DOT makes, but it's not----
    Senator Duckworth. Do you support his proposal to eliminate 
them, yes or no?
    Mr. Rosen. No, no, but----
    Senator Duckworth. It's simple. You're his nominee. You 
just said that you're willing--that you support his 17 percent 
cut to DOT in his budget. Do you support his proposal to 
eliminate TIGER, yes or no? It's simple.
    Mr. Rosen. Senator, what I----
    Senator Duckworth. If you're going to put that money back 
somewhere else, that's a different discussion, but do you 
support his proposal to eliminate TIGER grants?
    Mr. Rosen. What I'm trying to tell you, Senator, is that I 
think that the discretionary grants to achieve the kinds of 
projects that I think we're all interested in, there are 
multiple ways to get at that. I mentioned earlier there is the 
FASTLANE grants program that was authorized in the FAST Act a 
year and a half ago. There are ongoing----
    Senator Duckworth. His proposal cuts those as well.
    Mr. Rosen. I'm sorry?
    Senator Duckworth. His proposal cuts those as well.
    Mr. Rosen. I would need to check that. I don't remember 
that.
    Senator Duckworth. OK. Well, I would recommend that you 
take a look. But I'm deeply concerned that you have said that 
you will--that you support the President's 17 percent cut to 
DOT, and now you won't answer the question of whether or not 
you support his proposal to eliminate the TIGER grant program. 
I'm overtime.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you, Senator Duckworth.
    My understanding is the FASTLANE is not part of that. Yes.
    Mr. Rosen, I want to thank you for being here.
    And I want to thank Senator Wicker for serving as Chair.
    I apologize for getting here late, but I was actually with 
Secretary Chao, and the Department had their 50th anniversary 
celebration today, so it was a great opportunity to reflect on 
the DOT's accomplishment of the past 50 years, and some of 
which you've had a role in and been a part of, and to look 
toward the new challenges ahead, but the event also served as a 
warm welcome back to the Department for Secretary Chao.
    As was highlighted at the event, Mr. Rosen, if confirmed, 
you're going to have the opportunity to help lead the 
Department at a critical time as we continue to facilitate and 
promote the safe and efficient movement of goods and people 
throughout the country and around the world.
    Decisions you make are going to help affect our Nation's 
economy and the individual lives of Americans on an almost 
daily basis, be it in the agricultural producers from my home 
state of South Dakota, who need to move their products to the 
marketplace, or the commuters, who count on a safe and reliable 
passenger rail to get them to and from work each day, or 
families who are taking yearly vacations who rely on affordable 
and safe flight options. Those are all things that are under 
the Department's very vast jurisdiction.
    And in addition to tackling some of these more traditional 
responsibilities at the Department, you're also going to be 
faced with helping to usher in new ways to move goods and 
people, like UAVs and autonomous vehicles, in a manner that is 
not only safe, but also fosters innovation and economic 
development.
    So needless to say, the Deputy Secretary of Transportation 
is going to be very busy. Mr. Rosen, are you ready for the 
challenge?
    Mr. Rosen. Yes, Senator. I would like to think I am. I 
appreciate your comments, and I appreciate your multitasking to 
be over at the Department and here on the same day.
    I felt when I was asked if I would take on this challenge 
that it was almost the opportunity of a lifetime in that it 
brings together so much of what my experience and background 
had been in. The Department is a regulatory agency, it's an 
infrastructure agency, it runs the air traffic control, I've 
worked there before, and I've worked at OMB before, and I see 
it as a chance to just bring together a lot of things, and I 
said in my opening remarks, for me a chance to try to 
contribute back for something that I just think is hugely 
important for every single American.
    The Chairman. All right. Last month, I announced that 
Senator Peters and I had been working together to promote 
innovation, ensure safety, and identify ways to foster 
regulatory flexibility for the testing and development of self-
driving vehicles. As the Department reviews the self-driving 
vehicle guidance issued last year, what challenges do you 
anticipate with this technology? And if confirmed, how would 
you address them?
    Mr. Rosen. So I think this technology presents just 
tremendous opportunities, and if it's successful, would be a 
hugely exciting development, at least in some circumstances 
that ultimately the markets will decide which it's most 
successful in.
    But as you point out, there are several challenges to be 
dealt with, and the biggest among them is safety because if 
people have given up control of the wheel, consumer acceptance 
is going to depend on people being satisfied that the vehicles 
they're in are safe. And I think that there are other factors, 
of course, that are important as well. Some of them are product 
concerns and others are actually governance concerns.
    But as you know, there was a NHTSA guidance published late 
last year, and it's only a guidance, so it's not actually a 
binding regulation, and it's certainly not a law. And I think 
that one of the things we need to do is bring together some of 
the expertise and make sure we're creating a regulatory 
framework that facilitates innovation for the private sector to 
sort out winners and losers as to which technologies prevail 
and are the most successful, but in a way that ensures the 
public is protected on both safety and other measures.
    And so when I learned that you and Senator Peters were 
working on that, I applaud that you're getting it underway, and 
I would look forward to conferring with you about that.
    The Chairman. During the previous administration, we've 
seen the Department take some short cuts and use outdated, 
incomplete, or inaccurate data to push forward seemingly 
predetermined regulations. And I know the depth of your 
regulatory background, you've responded to some questions 
already about that, but could you elaborate on how you plan to 
help manage the regulatory development process at the 
Department to ensure it uses the best available data in robust 
analysis to help inform the regulatory decisions that come out 
of the Department?
    Mr. Rosen. Yes. Thank you for that question. I've got to 
think hard on how I keep that under 5 hours or so.
    The Chairman. Yes.
    [Laughter.]
    Mr. Rosen. I think in a nutshell, you know, President Trump 
has issued a couple of executive orders to set a framework that 
will cause prioritization of what's important in regulation. 
And then it's up to the agencies, including the one that, if I 
am confirmed, I would go to, to in the process focus on where 
the needs are, I mentioned this earlier, use the regulatory 
agenda as a tool, not just for transparency of the public, 
which I see is hugely important, but as a management tool so 
that costs, if there need to be costs, they are prioritized, 
they consider whether there are old rules that should be taken 
out, and they are spread out so that a particular industry 
doesn't get a large cost burden in a short amount of time.
    And to do that, you need both management, but you then, as 
I think you alluded to, Senator, you need really good data. And 
the data comes from two places. The Department has its own 
actually wonderful datasets that are available, and they have 
to be used and accessed and used properly. But the other is 
stakeholders bring tremendous amounts of knowledge from their 
industries or sometimes as critics of the industries, but from 
a variety of sources. And part of what has to happen in the 
process there is a process that allows enough time and 
engagement opportunity for people.
    And when Senator Fischer was here, I was mentioning she was 
a proponent of some provisions in legislation that provided 
earlier opportunities, particularly I think it was in the truck 
safety area, to participate in the rulemaking process so that 
the best data is available, and I think that's how you get to 
good outcomes and robust analysis and rules that are more 
likely to command consensus.
    The Chairman. I want to associate myself with some, I 
think, questions and comments that have already been made by 
some of my colleagues prior to my arrival here dealing with 
connectivity for rural communities. And, of course, in a state 
like South Dakota, it's vital for our economic well-being.
    The President's budget did propose eliminating the 
Essential Air Service program, just like it did when you were 
at DOT and OMB the last time. And I agree that EAS could 
benefit from reform, but it does make a huge difference in some 
of our communities, including our state capitol of Pierre.
    And so I want to put on your radar screen the interest, 
high level of interest, and concern that many of us on this 
committee and across the entire United States Senate have with 
that proposal in particular, but others as well, which you've 
heard discussed at some length I think during the course of 
this hearing. But those are programs, and this Committee, in 
terms of its representation, represents a lot of rural 
communities, small areas that are connected and that do depend 
heavily upon the EAS program. So I just want to make sure that 
I echo what's already been said by some of my colleagues who 
preceded me.
    I want to just say that we want to, as quickly as we can, 
get your nomination on our hearing--or on our markup next week, 
and so I'm hoping that we can get responses, questions for the 
record responded to as quickly as possible. Members of the 
Committee, if they can, and I'll say this to the members of 
their staffs who are here, that if we will keep the hearing 
record open until March 31, which will be this Friday, and 
encourage Senators to get their questions in, and then if you 
could get the responses back as quickly as possible, we'll try 
and proceed in a way that enables us to process your nomination 
at our markup next week, and hopefully get you across the floor 
and into that position as quickly as possible.
    So thank you for being here. Thanks for your willingness to 
serve. And we look forward to working with you on a whole range 
of issues that are critical to not only public safety, but also 
to the economy of this country and making sure that we have a 
vibrant, robust economy that, of course, depends upon solid 
infrastructure and good decisionmaking and policymaking by 
people in your Department.
    So thank you. And with that, this hearing is adjourned.
    Mr. Rosen. Thank you very much, Senator. I look forward to 
working with you if I am confirmed.
    The Chairman. Thank you.
    [Whereupon, at 4:22 p.m., the hearing was adjourned.]

                            A P P E N D I X

    Response to Written Question Submitted by Hon. Dan Sullivan to 
                            Jeffrey A. Rosen
    Question. The public transportation needs of Alaska, like 
everywhere else, far exceed resources. Federal Transit Administration 
urbanized area formula funds for Anchorage for this year and last year 
are held up, creating strains that increase by the day. The Alaska 
Railroad has asked FTA for an administrative solution that will allow 
these funds to flow again. Under this solution, the funds would flow to 
Anchorage's two FTA recipients, the Alaska Railroad and the 
Municipality of Anchorage, the way they always have, and this would 
change only if the Alaska Railroad and the Municipality of Anchorage 
agree to a change.
    It is my understanding that FTA made a prior determination that it 
lacked the authority to direct the allocation of the funds, absent 
agreement of the two parties. I have written to the Secretary 
requesting that DOT review the authority to allocate funds between the 
parties. Otherwise, this may become a matter of who blinks first and 
Congress certainly did not intend that brinksmanship would drive how 
these funds are split. A fair default method may be exactly what is 
needed for the parties to ultimately have a true meeting of the minds 
over a better long-term approach.
    If confirmed, will you please review the authority of FTA to 
determine an allocation between the parties and consider the suggested 
solution presented by the Railroad as a way to get FTA formula funds 
flowing again for public transportation in Alaska?
    Answer. Yes. I have been told that the suballocation of FTA 
urbanized area formula funds between recipients that are within the 
same urbanized area, such as Anchorage and the Alaska Railroad, is a 
local decision based on a determination of local need. If I am 
confirmed, I will review the Department's past activities related to 
this issue and whether the Department has authority that may help 
resolve the apparent impasse.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            Jeffrey A. Rosen
    Infrastructure Funding. President Trump has talked about investing 
$1 trillion in our infrastructure. The President's recent budget 
proposal, however, would slash infrastructure funding. These cuts will 
hurt many projects in Florida.
    Question 1. If confirmed, what would your recommendation be to the 
President on how to invest in infrastructure?
    Answer. In addition to my responses in the pre-hearing questions 
and my remarks and responses at the nomination hearing last week, I 
would add that I agree that the current state of transportation 
infrastructure needs to be addressed to keep our Nation's economy 
strong. If I am confirmed, I would expect to play a role in the 
development of the Administrations's new infrastructure proposal that 
would direct substantial amounts of money from several sources to 
leverage public and private investment in infrastructure.

    Question 2. Do you support funding for Amtrak and transit grants?
    Answer. Intercity passenger rail has an important role to play in 
our national transportation system, as do transit systems. As I have 
previously stated in responses to the Committee, however, it would be 
premature of me to respond to specific funding questions as a nominee 
who is not fully current on recent developments at Amtrak and in the 
transit sector. I do understand that both passenger rail and transit 
systems are important issues, and I believe they deserve attention as 
the Department shapes its transportation policies.

    While the Administration's budget recommends cutting funds for 
several programs, involving Amtrak long-distance routes and programs 
within the Federal Transit Administration, the President will also be 
proposing what I understand to be a comprehensive infrastructure 
initiative. If confirmed, I would hope to be involved in the 
development of the new initiative.

    Question 3. At the hearing, in response to questions about the 
President's budget cuts, you indicated that the upcoming infrastructure 
proposal would address larger infrastructure funding issues. If 
confirmed, will you provide details on how the infrastructure proposal 
will address these programs?
    Answer. If I am confirmed, I would expect that I would participate 
in the development and implementation of the President's infrastructure 
proposal. If confirmed, it would be my intention to work 
collaboratively with Congress on this important initiative.

    Safety. I appreciate your comments at the hearing about working in 
a bipartisan manner. However, I am concerned that the Department has 
slowed and in some cases rescinded important safety rules without first 
having a discussion with the Committee of jurisdiction on these issues. 
For example, the effective date of the Entry Level Driver Training rule 
was recently delayed until March, despite this safety rule being a 
product of an extended negotiation between the Department, industry, 
safety, labor, and others. Additionally, the Department recently 
rescinded the Safety Fitness Determination rule that would help the 
Department focus enforcement on carriers with a higher crash risk.
    Question 4. If confirmed, do you commit to brief the Committee in a 
bipartisan manner in advance of delaying, rescinding, or repealing any 
safety rule?
    Answer. If I am confirmed, I would strive to work with the 
Committee, as well as all stakeholders and the public, on safety 
issues, including discussions about proposed regulatory actions.

    Wildlife Crossings. In 2016, a record 32 panthers were killed by 
cars in Florida. We are working very hard to bring this endangered 
species back from the brink of extinction, but that could be wasted 
effort if we are not able to protect panthers from being hit by 
vehicles. That's why wildlife crossings are such an important 
conservation tool for panthers, black bears, and other animals.
    Question 5. Do you support funding or resources for wildlife 
crossings, especially along roads like Alligator Alley (I-75) that 
would otherwise create habitat fragmentation?
    Answer. It is my understanding that State DOTs can use Federal 
funds to implement measures (primarily driven by safety concerns) to 
reduce wildlife collisions. However, this is an issue I would want to 
learn more about before responding more fully to your question about 
Federal funding for wildlife crossings that create habitat 
fragmentation, and if I am confirmed, I will plan to do so.

    Air Traffic Control. In its recent budget proposal, the 
administration expressed support for shifting Air Traffic Control 
services away from the Federal Aviation Administration. I have long 
expressed my concerns with such proposals.
    During last year's debate on this issue, the Department of Defense 
also expressed concerns about how a private air traffic control entity 
would ensure that national security remained a top priority.
    Question 6. Despite the administration's proposal, do you share my 
concerns about privatizing Air Traffic Control services?
    Answer. As Secretary Chao indicated in her responses to Committee 
members following her nomination hearing, there will be a thorough 
Administration review of these issues, including any impact on the 
Department of Defense. If confirmed, I would hope to assist the 
Secretary in the extensive evaluation of the details any reform 
proposal would entail. I share your view that national security will be 
a critical consideration.

    Aviation Consumer Protection. We have to protect the flying public, 
particularly when it comes to requiring clear disclosure of ancillary 
fees on activities like checking a bag or picking a seat. It is also 
important that the Department complete its rules on refunds for delayed 
baggage and family seating, which are required by the Federal Aviation 
Administration extension.
    Question 7. Do you believe airlines should do a better job of 
disclosing fees? Do you believe current airline ancillary fees are fair 
to consumers?

    Question 8. If confirmed, will you ensure that DOT remains 
committed to vigorously protecting consumers through enforcement and 
regulatory action?

    Question 9. In January 2017, the Department of Transportation 
issued a Supplemental Notice of Proposed Rulemaking (SNPRM) that would 
require airlines and ticket agents to disclose fees for a first checked 
bag, a second checked bag, and a carry-on item when providing airfare 
information. On March 2, 2017, the Department indefinitely suspended 
the comment period in this proceeding. Do you believe that consumers 
and other stakeholders should have an opportunity to comment on this 
proposal?
    Answer. If confirmed, I will work to ensure that DOT remains 
committed to vigorously protecting consumers through enforcement and 
regulatory action. I believe we had a strong record on this when I was 
previously at DOT as General Counsel. My understanding with regard to 
the suspension of the comment period on the Department's SNPRM on 
``Transparency of Airline Ancillary Fees'' was that it was to allow the 
new Administration the opportunity to review and consider this action. 
I am not yet aware of what next steps are planned by DOT, but will look 
into that if I am confirmed. If I am confirmed, I would look forward to 
working with this Committee to ensure a healthy and competitive airline 
industry where consumers have access to timely and accurate information 
on which to base their purchasing decisions.

    Takata. The National Highway Traffic Safety Administration (NHTSA) 
has faced the challenging task of coordinating the Takata airbag 
recalls.
    Question 10. How will you prioritize the driving public's safety in 
your handling of the Takata airbag recalls?
    Answer. As I have said before, the public's safety is and ought to 
be DOT's top priority. After my nomination hearing, I have been told 
that NHTSA has set up a prioritization schedule for Takata, under a 
consent order, to declare the inflators defective with respect to age 
of the inflator and geographic location of the affected vehicles. 
Likewise, that affected auto manufacturers must comply with an inflator 
replacement schedule under a coordinated remedy plan that removes and 
replaces the oldest and most dangerous inflators first and then 
completes the entire recall in an accelerated fashion by 2019. If 
confirmed, I would expect NHTSA to continue to address this issue with 
a priority focus on safety.

    Question 11. Do you think NHTSA needs more resources to effectively 
carry out its statutory safety mission?
    Answer. If confirmed, I intend to receive detailed briefings from 
NHTSA regarding all aspects of its safety mission, and what resources 
it has or needs. I can assure the Committee that safety is a top 
priority.

    Conflict of Interests. Mr. Rosen, you have had a long and 
distinguished career. With that career comes certain conflicts that may 
require recusal from some actions you may be asked to handle if 
confirmed as Deputy Secretary, such as your past work challenging both 
the chemistry and the law regarding greenhouse gas emissions from 
vehicles. This is an issue that the Department will work on.
    Question 12. Do you plan to recuse yourself from any direct 
involvement in the NHTSA mid-term review process? If not, why?
    Answer. Because I was not yet at DOT, I am not current on the 
status of the NHTSA mid-term review process. Moreover, in my previous 
professional work as a lawyer, no client had retained me to participate 
in NHTSA's mid-term review process. If I am confirmed, I will comply 
with my agency Ethics Agreement, which was submitted to the Committee, 
along with other disclosure documents, and which addresses when I will 
and will not be recused.

    Federal Preemption. In 2005, you were quoted in The Washington Post 
as supporting efforts to add preemption clauses to Department of 
Transportation regulations that could stop states from enforcing their 
own safety standards, as well as potentially overrule state tort laws 
and remedies.
    Question 13. What is your current position on the use of preemption 
clauses in safety regulations promulgated by the Department?
    Answer. Ultimately the courts make the determination of whether 
Federal law preempts a particular State law. The goal is to have the 
laws enacted by Congress properly interpreted and effectively 
implemented. There are times national uniformity is important or 
necessary, and other times when states play a vital role. There may be 
instances in which statements by the agency about the preemptive effect 
of a Federal regulation may aid the courts in making such 
determinations. However, in my view, it is often most helpful to make a 
case-by-case determination about this issue, or sometimes a category-
by-category determination.

    Climate Change. Mr. Rosen, climate change is already having an 
impact on a number of costal states, including Florida. In Miami Beach, 
for example, we are seeing increased flooding due to sea level rise.
    The vast majorities of scientists agree that man-made greenhouse 
gas emissions from a variety of sources are causing climate change and 
that emissions from motor vehicles represent nearly one fifth of all 
U.S. emissions.
    Question 14. What are your thoughts on this issue?
    Answer. As I said at my nomination hearing, I believe that we 
should try to be protective of our environment. Please refer to my 
remarks and responses at the nomination hearing of March 29, 2017. I 
would add that I think that this area should be informed by empirical 
data and sound science.

    Question 15. What role do you believe the Department of 
Transportation should play in mitigating the threats posed by climate 
change?
    Answer. With regard to motor vehicles, Congress enacted the Energy 
Security Act of 2007 and the Energy Policy Conservation Act of 1975 
that established fuel economy rules. It is my view that DOT should 
implement those laws (unless Congress changes them).

    Responding to Senators' Requests. As referenced during your 
confirmation hearing, there are a number of outstanding requests to the 
Department of Transportation from members of the Commerce Committee, 
including the following:

        1/30/2017 Letter from Senator Nelson to Secretary Chao

        2/15/2017 Letter from Senator Schatz to DOT's General Counsel

        2/6/2017 Letter from Senators Baldwin et al., to Secretary Chao

        2/14/2017 Letter from Senator Baldwin to Secretary Chao

        2/27/2017 Letter from Senator Markey to Secretary Chao

        3/30/2017 Letter from Senator Nelson to Secretary Chao

    Question 16. Will you commit to promptly responding to all letters 
from members of this Committee?
    Answer. One of the things I came to appreciate from my prior public 
service was the importance of DOT officials having good communication 
and working relationships with the members of Congress, and I would 
certainly regard that as an important part of my job if I am confirmed 
to serve again at DOT.

    GM Product Liability. In response to Question 8 of my prehearing 
questions, you noted that you represented General Motors ``In numerous 
cases, but not in recent years.'' One of these cases was Bishop v. 
General Motors Corporation (E.D. Ok. 1994). In that case, it appears 
that you argued for a protective order that would have enjoined the 
taking of a videotaped deposition of a former GM employee, Ronald 
Ewell, based on his employment agreement in a case involving the 
failure of seatbelts and door latches used in GM vehicles.
    Question 17. Do you believe that these types of employment 
agreements should remain valid and enforceable in cases where 
government regulators, such as NHTSA, are investigating defects and in 
civil lawsuits alleging defects?
    Answer. My recollection is that Mr. Elwell, a disgruntled former 
employee of GM who had previously expressed support for GM's product 
design, was permitted to testify in some cases, and his inconsistent 
testimony was impeached. It is also my recollection that NHTSA had 
previously had an opportunity to interview Mr. Elwell. I do not recall 
all the specifics of the Bishop litigation, which was more than twenty 
years ago. In terms of whose testimony should be permitted and under 
what circumstances in legal proceedings, my view then and now has been 
that judges should make those decisions in accordance with the 
applicable law.

    Question 18. In addition to that case, please list any other 
product liability cases in which you have served as counsel to General 
Motors (please include caption, venue, date, and summary of case and 
disposition).
    Answer. Please see my response to question 8 of Senator Nelson's 
Pre-Hearing Questions. Because it has been more than a decade--before 
2004--since I last appeared in court as counsel for General Motors, I 
do not remember all such cases. One example would be: Khan v. General 
Motors Corp., No. 30509 97 (Sup. Ct. N.Y. 1990), where the defendant GM 
won a defense jury verdict against allegations of design defects in 
seats and seat belts of all Oldsmobile Cutlass Cieras.

    Congressional Review of High-Impact Regulations. In a September 2, 
2010, opinion article in the Atlanta Journal-Constitution titled, 
``Costly Federal Regulations Escape Congressional Review,'' you stated 
that a ``procedural change where Congress would have to vote to approve 
high-impact regulations could restore a system of checks and balances 
to Federal regulation.''
    Question 19. Is it your current position that the Department of 
Transportation should not issue any ``high-impact'' safety regulations 
without express Congressional approval?
    Answer. No. My point in the article was that Congress should have a 
role in major Federal regulation that impacts the economy, not that 
Federal agencies should not regulate where needed.

    Prepared Remarks. On your Commerce Committee Questionnaire, you 
were asked to list speeches that you have given on topics relevant to 
the position for which you have been nominated.
    Question 20. Please provide a copy of prepared remarks or a 
transcript, video, or audio of delivered remarks for the following 
events:

  a.  Heritage Foundation's Regulatory Working Group on ``OMB's 
        Regulatory Review Process'' (April 19, 2007)

  b.  Heritage Foundation Program on ``Helping or Hurting Consumers? 
        Destroying Federal Preemption One Industry at a Time'' (Aug. 5, 
        2009)

  c.  U.S. Chamber of Commerce program on ``Restoring Balance to the 
        Regulatory Process'' (March 22, 2011)

  d.  George Mason University program ``Regulatory Boot Camp for Policy 
        Advisors'' on ``Reform--The Path Forward'' (April 1, 2015)

  e.  U.S. Chamber of Commerce's Joint Fall Meeting on ``Regulation: 
        Who Decides?'' (Dec. 9, 2015)

    Answer. Some of these were informal remarks for which I have not 
located a transcript or video, such as items a and e. The Heritage 
Foundation program from August 5, 2009 was available online at http://
origin.heritage.org/multimedia/video/2009/08/hurting-or-helping-
consumers--destroying-federal-preemption; the George Mason program from 
April 1, 2015 was available online at https://www.merca
tus.org/video/regulatory-bootcamp-panel-iii-reform-path-forward-1; and 
my slides from the March 22, 2011 U.S. Chamber program will be 
provided.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                            Jeffrey A. Rosen
    Question 1. Aviation safety must remain a priority for the 
Department. The first item on the National Transportation Safety 
Board's list of ``most wanted'' safety improvements this year is 
reducing fatigue related crashes. In the coming weeks I plan to 
reintroduce the Safe Skies Act, which I worked on with Senator Boxer 
for many years. This commonsense bill would take the rest requirements 
put into place for passenger pilots after the tragic crash of Colgan 
Flight 3407 and apply them to cargo pilots who--despite using the same 
runways and airspace as passenger pilots--currently have looser rest 
requirements. Do you believe that Department of Transportation 
regulations can be an effective means of reducing fatigue-related 
crashes?
    Answer. Safety is and will remain a top priority for the Federal 
Aviation Administration (FAA) and the Department. DOT has several 
regulations in place that address the hours worked by pilots, truck 
drivers, and locomotive engineers, for example. If I am confirmed, I 
will look to receive updates from DOT's operating administrations about 
the effectiveness of those rules.

    Question 2. For the last five-decades, traffic fatalities on our 
roads had been declining. However, data recently released by the 
National Highway Traffic Safety Administration (NHTSA) show that from 
2014 to 2015 there was a seven percent increase in traffic fatalities. 
We know that distractions behind the wheel played a part in this rise. 
I included a provision in the FAST Act to help more states qualify for 
Federal grants to fight distracted driving. Do you agree that the 
Department of Transportation has an important role in educating drivers 
about the dangers of distracted driving?
    Answer. Yes. My understanding is that driver distraction remains a 
serious safety problem. I have seen some of the campaign materials 
being used by NHTSA to educate drivers about the dangers of using 
electronic devices while driving. If confirmed, I would support 
dissemination of such materials and look for other opportunities to 
raise awareness of the risks of distracted driving.

    Question 3. One of FAA's most successful government-industry 
partnership programs is the Contract Tower Program, which provides 
proven, cost-effective and critical air traffic control safety benefits 
to 253 smaller airports across the country, including two in Minnesota. 
This program, is a good deal for taxpayers, helps rural communities and 
supports military readiness and national security operations. Will you 
work with me to support small airports through initiatives like the 
Contract Tower Program?
    Answer. I think that trying to ensure access to small airports in 
rural communities and elsewhere is an important topic, and, if 
confirmed, I would look forward to working with you in this regard.

    Question 4. As I travel around my state, I hear concerns from 
communities that say they do not have the capacity to prepare for and 
respond to an event like a derailment and hazardous material spill. I 
pushed to include provisions in the FAST Act to help local governments 
plan for and respond to rail incidents. Are you committed to working 
with state and local governments to help them prepare for derailments?
    Answer. Yes. My understanding is that the Department works closely 
with state and local governments on any major accident or train 
derailment. The Pipeline and Hazardous Materials Safety Administration 
(PHMSA) provides relevant training to local responders and grants to 
state governments. If confirmed, I would look forward to working with 
DOT's modal administrations and others with regard to these programs.

    Question 5. Blocked rail crossings not only inconvenience drivers, 
they delay emergency vehicles and threaten public safety. I have heard 
firsthand from local leaders and emergency responders across Minnesota 
about the inconvenience and dangerous delays blocked rail crossing can 
cause. A provision I fought to include in the FAST Act helps improve 
safety at rail-highway crossings by ensuring that states have access to 
tools and best practices to mitigate the safety risks posed by blocked 
rail crossings. Will you ensure the Department of Transportation 
continues to assist states as they develop and update highway-rail 
grade crossing action plans?
    Answer. Yes, if confirmed I will ensure that DOT continues to 
assist states as they develop and update their highway-rail grade 
crossing action plans. I am told that DOT has already provided states 
with guidance and models to assist them in this endeavor, and if 
confirmed I would look forward to receiving further updates about this 
topic.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                            Jeffrey A. Rosen
    Question 1. The President has discussed a one-trillion dollar 
infrastructure program to rebuild the country's roads and 
transportation network. Details, however, are faint, with little more 
offered so far but proposals for corporate tax breaks and giveaways 
that somehow foster private-sector investment. Even these proposals, 
however, would only focus on revenue-generating projects--not 
necessarily ones that really need attention. Tax breaks are an 
insufficient way to rebuild roads, highways, and rail.

  <bullet> Do you agree that tax breaks are an insufficient way to 
        rebuild our transportation network?

  <bullet> Can you provide more details on the President's plan?

  <bullet> When will it release more details?

  <bullet> Where will passenger rail fit among the administration's 
        priorities?

    Answer. I believe that all modes of transportation will need to be 
considered in the Administration's infrastructure program. I have not 
yet been a participant in the Administration's discussions about 
prospective infrastructure legislation. My understanding is that the 
details of the Administration's infrastructure plan are still being 
developed and that more details will emerge in the coming months. If I 
am confirmed, I hope to participate in the development of the 
President's proposal, and would look forward to working with the 
Committee on the transportation elements of it.

    Question 2. The Department of Transportation is involved in the 
life of nearly every American, as we all depend on safe roads, rails, 
pipelines and air--and the safe movement of goods. Do you agree the 
Department of Transportation must be strong and proactive in putting 
forward rules and regulations to protect us all?
    Answer. I agree that the Department of Transportation plays an 
essential role in ensuring the safety of our Nation's transportation 
system. Indeed, as Secretary Chao has emphasized, safety is the number 
one priority for the Department. If confirmed, I will work with 
Secretary Chao to ensure that the Department uses sound, data-driven 
approaches to developing and implementing regulations that protect our 
people and support, rather than stifle, continuing technological 
innovations that enhance transportation safety.

    Question 3. Perhaps the biggest aviation issue that Congress will 
address this year is whether to spin off our air-traffic control 
services and transfer their control from the FAA to a private entity 
that would have outsized influence from airlines. I have many concerns 
about privatizing our country's air traffic control system, especially 
the negative impact it could have on consumers. During your testimony, 
you mentioned that you have yet to form a conclusion on this.

  <bullet> What is your time-frame for developing a position on this 
        issue?

  <bullet> To what extent will you value consumer protection in your 
        analysis?

    Answer. As Secretary Chao indicated in her responses to Committee 
members following her nomination hearing, there will be a thorough 
Administration review of issues regarding air traffic control 
modernization, including the impact on consumers. If confirmed, I would 
hope to assist the Secretary in the extensive evaluation the details of 
this proposal would entail, and I would ensure that the concerns you 
raise are thoughtfully considered.

    Question 4. We've seen many disasters on our rail network in recent 
years. A significant number of these disasters have happened on Metro-
North Railroad, affecting my constituents.

  <bullet> What lessons have you learned from these disasters?

  <bullet> What's the first thing you'll do to improve rail safety?

  <bullet> Do you believe this is an example where the Federal 
        Government should require action?

    Answer. First and foremost, safety is the highest priority. But 
before coming to any conclusion about individual accidents, if I am 
confirmed I would first request to be informed of the post-accident 
findings of the NTSB or state accident investigations. Depending on the 
results, I would consult with safety experts within DOT to determine if 
Federal action was warranted and could be effective.

    Question 5. There's one function that's uniquely housed within the 
Secretary's office--the Office of Aviation Enforcement and Proceedings, 
including its Aviation Consumer Protection Division, which focuses on 
consumer issues. Under current law, consumers and states lack a private 
right of action regarding unfair, deceptive, and anti-competitive 
practices against airlines. Consumers' only recourse is to file a 
complaint with DOT, hope DOT pursues the matter through administrative 
remedies and civil fines. These remedies--like cease and desist 
orders--can be weak, and fines (which are negotiated) can be weak as 
well. For example, in 2015 DOT levied $2.7 million in fines against an 
industry with nearly $169 billion in annual revenue. And that's just 
for unfair consumer practices. The situation is worse for persons with 
disabilities trying to assert their rights to be accommodated when 
flying. Only DOT can assert their claims and receive damages.
    In 2014, passengers filed 772 disability-related complaints with 
DOT about airlines. But the U.S. Department of Transportation does 
little with these individual complaints, taking real action only when 
there are ``a number of complaints'' against one airline, as DOT wrote 
one disabled passenger. Even then enforcement is rare. For example, in 
2015, there were no enforcement orders against any airlines. In 2014, 
there was just one.

  <bullet> Would you agree the current framework is a giveaway to the 
        airlines with a long-running, unintended effect that protects 
        airlines from regulation and vigorous oversight?

  <bullet> Wouldn't allowing a private right of action--in addition to 
        continuing to allow DOT enforcement efforts--make real, 
        structural changes to how airlines operate and interact with 
        the public?

    Answer. I worked with this Office when I was General Counsel at 
DOT, and I believe it had a strong and effective track record at that 
time. I have been told that more recently, in 2016, this Office issued 
29 consent orders assessing almost $6.4 million in civil penalties 
against airlines and ticket agents for violations of Federal laws 
protecting the economic and civil rights of air travelers. Five of 
these orders, assessing approximately $2.8 million in penalties, were 
for violations of the rule protecting the rights of passengers with a 
disability. I recognize that this overall topic is an important issue 
and would be pleased to work with the Committee on any proposal that 
might better protect air travel consumers, particularly passengers with 
disabilities.

    Question 6. Nearly 4,000 people are killed in truck accidents each 
year, and 97 percent of those are drivers or passengers in a passenger 
car. What will be your approach toward ending the scourge of deaths 
from trucks on our highways?
    Answer. Every fatality on our Nation's roadways is a tragedy, and I 
share your concern with recent increases in crashes of large trucks. As 
Secretary Chao has emphasized, safety is the number one priority for 
the Department of Transportation. If confirmed, I would expect to 
coordinate with the Federal Motor Carrier Safety Administration (FMCSA) 
and review our data resources to identify safety concerns, leverage 
technology, advance programs that address non-compliant motor carriers 
and drivers, and work towards reducing unsafe driving behaviors in all 
driving populations. This would involve working closely with States and 
other stakeholders to develop strategies to reduce crashes.

    Question 7. Surveys of truck drivers show many are fatigued and 
many often fall asleep at the wheel--endangering us all. They need 
rest. How will you address fatigue?
    Answer. As Secretary Chao has emphasized, safety is the number one 
priority for the Department of Transportation. If confirmed, I would 
work with the Federal Motor Carrier Safety Administration (FMCSA) and 
the truck and bus industries to develop effective strategies to address 
fatigue. As I understand it, FMCSA has regulations that address this 
issue. But in addition to those, there may be strategies that would 
involve a combination of using technology where it makes sense and 
promoting best practices, such as working with the industry to 
implement non-regulatory fatigue management programs.

    Question 8. Will you fight to ensure that trucks are not allowed to 
get longer and heavier?
    Answer. My understanding is that Congressional action would be 
required to change the Federal truck size and weight limits. Federal 
weight limits currently apply only to the Interstate System, and size 
limits apply to the National Network. There are States, however, that 
legally permit higher vehicle weights off their Interstates. Given the 
impact of higher weights on roadway infrastructure, this is an issue 
that appears to have attracted the interest of several Members of the 
Committee, and if confirmed, I will plan to receive additional 
information about it. If confirmed, I will work to ensure that DOT 
faithfully executes the law and works collaboratively with States with 
the goal of having trucks operate legally and safely on the Nation's 
highway system

    Question 9. Ten years ago, national safety advocates first urged 
DOT to mandate the installation of speed-limiting devices on large 
truck to prevent them from traveling at dangerous speeds on U.S. roads 
and highways. Trucking industry representatives joined this call, 
recognizing the dramatic savings in lives and dollars that would come 
from such a mandate. In August, after years of analysis, DOT put 
forward a proposed rule that would carry out this vision, mandating 
speed limiters on any vehicle heavier than 26,000 pounds, including 
commercial trucks, intercity passenger buses, and school buses. The 
faster large vehicles travel, the deadlier they can become. Large 
vehicles already take longer to stop than smaller passenger vehicles. 
And just a small increase in speed leads to an exponentially large 
increase in kinetic energy, which can cause far greater damage and 
destruction in a crash--especially to those traveling nearby in much 
smaller, lighter passenger vehicles. Crashes involving large vehicles 
kill around 4,000 people each year and injure more than 100,000. 
Speeding has been identified as a possible factor in as many as 23 
percent of these crashes. A vehicle with a functioning speed limiter is 
only half as likely to be involved in a crash as a vehicle without an 
operating device. DOT put forward a proposed rule in August will save 
hundreds of lives and prevent thousands of injuries. A strong, sensible 
rule will save millions of dollars and will respond to strong public 
sentiment that wants speeding trucks to simply slow down. It will 
ensure that no trucking company creates an uneven playing field, 
tolerating speeding while competitors comply with the law. It will 
ensure that large vehicles are going no faster than their tires and 
other parts were designed to handle. Do I have your commitment to 
completing this rule?
    Answer. If confirmed, I will work with the FMCSA and others within 
DOT to assess the status of the proposed rule and review the best 
available data, including public comments and information, to inform 
the appropriate next steps.

    Question 10. Last month, Congress passed the Water Infrastructure 
Improvements for the Nation (WIIN) Act, a $10 billion bill that makes 
major investments in the country's water infrastructure. The bill 
largely focused on the Army Corps of Engineers--outside the purview of 
DOT. But DOT has tremendous oversight of our country's maritime 
economy, freight, and ports and the WIIN Act shows that bipartisan 
action and investment is possible. What is your plan to improve the 
economic viability of our country's ports, especially the three ports 
that we have in Connecticut?
    Answer. If confirmed, I would expect to work with Secretary Chao to 
ensure that our country's ports, inland, Great Lakes, and coastal, and 
their unique concerns and capabilities, are considered in discussions 
of infrastructure development, such as the National Multimodal Freight 
Network. I also expect that, with Secretary's Chao's direction, the 
Department would work with the Connecticut Port Authority to ensure 
that the State's ports work together on issues like marketing and 
economic development, and potential access to capital.

    Question 11. In 2012, Congress passed the Motorcoach Enhanced 
Safety Act of 2012 as part of MAP-21, a major surface transportation 
reauthorization bill. The law requires a number of efforts to improve 
motorcoach safety. These efforts were mandated in the aftermath of 
several horrific incidents. One provision requires improvements in the 
roof strength and crush resistance of large, intercity buses--aka 
motorcoaches. Another requires improvements to prevent passengers from 
being ejected through windows. These mandates were all due by October 
2014, but they still remain unmet. Will you ensure that the basic 
motorcoach safety regulations required by MAP-21 that are still 
outstanding are issued promptly without any further delay?
    Answer. If confirmed, I will work with others in the Department to 
implement the requirements of MAP-21. If there are difficulties with 
doing so, I would expect DOT to communicate with Congress about that, 
if I am confirmed.

    Question 12. The use of smart phones has proliferated in recent 
years and led to an alarming increase in incidents of distracted 
driving. What steps will you take to prevent distracted driving and the 
dangers it can cause on our roads?
    Answer. I am aware that NHTSA is pursuing educational, law 
enforcement and technology-based strategies to address the problem of 
distracted driving. If I am confirmed, I will work with NHTSA to ensure 
that the agency is exploring all options to reduce this problem.

    Question 13. Thousands of pedestrians are killed every year and 
tens of thousands of pedestrians are injured.

  <bullet> What steps will you take to end pedestrian deaths and 
        injuries?

  <bullet> Will you support safety standards for the hood and bumper 
        areas of motor vehicles in order to reduce the severity of 
        injuries suffered by pedestrians and bicyclists that frequently 
        result in death and lifelong disabilities?

    Answer. If confirmed, I will work with the DOT modal 
administrations, stakeholders, and the public to explore options to 
advance the safety of pedestrians and vulnerable road users.

    Question 14. The North American Free Trade Agreement (NAFTA) opened 
opportunities for trucking companies domiciled in Mexico to operate 
within the United States. The Department of Transportation undertook a 
pilot program allowing certain Mexico-domiciled carriers to operate in 
the U.S. and concluded such carriers could operate safely in this 
country. The DOT Inspector General, however, found that the pilot 
program was flawed and produced unreliable results. How will you 
address the concerns raised by the Inspector General?
    Answer. If confirmed, I would work with FMCSA to ensure continued 
monitoring of the safety of these carriers and ensure that appropriate 
action is taken should safety concerns arise. If I am confirmed, I will 
plan to review the IG Report and consult further as warranted.

    Question 15. Will you oppose allowing Mexico-domiciled trucks to 
operate in the U.S.?
    Answer. The North American Free Trade Agreement (NAFTA) requires 
that the U.S. allow the operation of Mexico-domiciled trucks into the 
U.S. under some conditions, unless those provisions are changed during 
future discussions about NAFTA. If confirmed, I would expect to work 
with the Federal Motor Carrier Safety Administration to ensure 
compliance with all applicable laws, and to avoid any transportation by 
carriers not in compliance with U.S. safety requirements.

    Question 16. Many states--including Connecticut--provide workers 
with mandatory meal and rest breaks. These laws have existed for nearly 
a century in some states and are critical for all kinds of workers, 
protecting them from workplace fatigue and related accidents, injury 
and death. These laws also apply to commercial truck drivers, with some 
exemptions. Federal courts have ruled these laws are not pre-empted by 
Federal law. Some seek to pre-empt these meal and rest break laws so as 
to maximize the workday of truck drivers. If this happens, there would 
be fewer opportunities and incentives for truck drivers to rest. Are 
you concerned about these efforts?
    Answer. I have been told that the preemptive effect of Federal law 
in this area has been the subject of litigation in recent years. From 
DOT's perspective, it has been important for commercial drivers to be 
able to take appropriate breaks during the course of their work in the 
interest of safety. I am sensitive to the concerns that have been 
raised about the preemption of State law in this area and look forward 
to engaging with the States, members of industry, and other 
stakeholders to examine their viewpoints on this issue and work toward 
a solution.

    Question 17. Will you defend these important safety laws?
    Answer. Although it is not the role of the Department of 
Transportation to defend these State laws, if I am confirmed, I am 
amenable to an open-minded review of the arguments for and against 
them.

    Question 18. About 10,000 people die each year because of alcohol-
impaired driving. This annual figure has remained steady for two 
decades. As we consider ways to eliminate preventable deaths, we must 
examine changes to the laws around alcohol impaired driving. Do you 
support efforts to highlight the message that driving under the 
influence of alcohol at any level is impairing?
    Answer. Yes.

    Question 19. Do you agree that all NHTSA recalls are safety 
recalls, address an unreasonable risk to safety, and should be promptly 
repaired?
    Answer. My understanding is that NHTSA has recall authority over 
safety-related defects and non-compliances with Federal safety 
standards. The Motor Vehicle Safety Act of 1966, as amended, provides 
specifics as to what is or is not required. It is important that any 
safety issues are addressed.

    Question 20. One pressing safety issue for children involved in 
crashes is that even when properly secured in a child restraint, 
failure of a front seatback in a crash may put back seat passengers--
especially infants and children--at serious risk of injury or even 
death. According to a child rear impact study commissioned by the 
Center for Auto Safety, approximately 50 children placed behind 
occupied seats die annually in rear impact incidents. If confirmed, 
will you upgrade the safety standard for seatback performance to better 
protect back seat passengers?
    Answer. If I am confirmed, I will work with NHTSA, stakeholders, 
and the public to review current safety standards and assess their 
effectiveness or suggested changes.

    Question 21. Nearly 1 in 5 vehicles on our Nation's roads have 
unrepaired safety defects. In 2015, nearly 900 million vehicle recalls 
involving 51 million vehicles were issued, eclipsing the previous 
record set in 2014. Accordingly, millions of vehicles on our Nation's 
roads and highways have critical safety defects that have not been 
repaired. If confirmed, what specific actions will you direct NHTSA to 
take to increase the recall completion rate and reduce the number of 
cars with open safety recalls from our Nation's roads?
    Answer. Safety should be the top priority. If confirmed, I would 
confer with NHTSA about ways to engage the automobile industry and the 
public to find new ways to increase recall completion rates.

    Question 22. While new car dealers are required to repair safety 
recalls before selling vehicles with open recalls, there is no 
requirement that used car dealers fix any outstanding safety defects 
before selling a used car. Do you agree that used car dealers should 
not be allowed to sell used vehicles with unrepaired safety defects?
    Answer. If I am confirmed, I would expect to work with NHTSA to 
help ensure the Department is doing those things within its authority 
to ensure that recalls are addressed as required.

    Question 23. The Department of Justice recently charged six VW 
executives in its emissions-cheating scandal, and announced that the 
company has pled guilty to three criminal felony counts and agreed to 
pay a total of $4.3 billion in criminal and civil penalties. In 
contrast, GM was not charged and was only ordered to pay a mere $900 
million in penalties for an ignition switch defect that has been tied 
to at least 124 deaths. Neither GM nor any of its executives faced any 
criminal charges despite accusations of misleading safety regulators 
and delaying potentially lifesaving decisions. Families who lost loved 
ones as a result of the GM ignition switch defect deserve an explicit 
acknowledgment of criminal wrongdoing, individual criminal 
accountability, as well as a larger monetary penalty. Do you agree that 
automakers and their executives that conceal a dangerous product for 
over a decade and that kills 124 people should face criminal penalties?
    Answer. GM was represented in that litigation by Kirkland & Ellis 
LLP, my former employer. Paragraph 4 of my agency ethics agreement has 
restrictions with regard to certain matters in which I know my former 
employer represents a party. As a more general matter, the Department 
of Justice ultimately makes the determination of whether to pursue 
criminal penalties and when to settle a criminal case.

    Question 24. I am concerned about the unnecessary use of hazardous 
flame retardant chemicals, which have been linked to serious health 
effects and environmental harms. Children are especially vulnerable to 
the toxic effects of these chemicals since their brains and bodies are 
still developing. Most children's car seats contain these dangerous 
chemicals in order to comply with for flammability standards for 
vehicles and children's car seats set by NHTSA. NHTSA recently 
initiated a two-year research program on flammability standards, 
including those for children's car seats. If confirmed, will you 
support this research and work to update the Federal Motor Vehicle 
Safety Standards to eliminate the unnecessary exposure to toxic flame 
retardant chemicals from children's car seats?
    Answer. I am supportive of DOT's two-year research efforts on this 
topic. If confirmed, I would look to work with NHTSA, stakeholders, and 
the public to review the safety standards and ensure any appropriate 
amendments are supported by the latest data and research.

    Question 25. In September 2016, NHTSA issued the Federal Automated 
Vehicle Policy, updating its previously issued 2013 guidance on 
autonomous vehicles (AV). These guidelines are not mandatory. In May of 
2016, a Tesla Model S equipped with Tesla Autopilot crashed, raising 
questions as to the performance of the vehicle's technology and whether 
it caused or contributed to the crash.
    It's been reported that several auto manufacturers including Tesla, 
Ford, BMW, and Volvo are promising to have fully autonomous cars on the 
roads within five years. The next Deputy Secretary of Transportation 
will play a critical role as we enter a new period of advanced 
automated technologies in transportation.
    Do you have any concerns that voluntary guidelines may be 
insufficient to protect the American public from unreasonable risk of 
crashes involving AVs during the testing and deployment of this 
technology?
    Answer. Please see my remarks and responses at the nomination 
hearing on March 29, 2017. I think this is an important subject, and if 
confirmed, I will look forward to receiving briefings on this complex 
subject, in order to help assess and determine where Federal policy 
should go on this.

    Question 26. Should DOT require manufacturers of AVs to perform a 
minimum level of due diligence testing and analysis to ensure that AVs 
work safely and properly before they are tested on public roads or sold 
to consumers?
    Answer. See response above.

    Question 27. If confirmed, will you commit to instituting an 
effective regulatory framework for automated vehicle technology, 
including automatic emergency braking systems currently being sold 
without any performance guarantee for consumers that provides a level 
playing field for developers and manufacturers and insures public 
safety?
    Answer. See response above.

    Question 28. It has been reported that Takata, the airbag supplier 
responsible for the unprecedented recall affecting 42 million vehicles 
in the United States, is actively soliciting new investors and 
contemplating bankruptcy or similarly major restructuring in order to 
keep factories running and manufacturing replacement airbag. Do you 
agree that any restructuring of Takata should occur on terms that 
accelerate the availability of replacement parts, end the dangerous use 
of ammonium nitrate as an airbag propellant, and help the overall 
recall effort?
    Answer. Please see response to Nelson question 10 above.

    Question 29. The Jones Act prohibits any foreign-built or foreign-
flagged vessel from engaging in trade between two U.S. ports. Only U.S. 
ships can go from U.S. port to other U.S. ports. This law, which has 
been around for decades, is a critical measure that protects the U.S. 
domestic maritime industry. What can you say about the importance of 
the Jones Act and the need to have a strong U.S.-flagged fleet?
    Answer. The Jones Act is designed to provide our country with a 
strong U.S. Flag fleet that engages in trade between our U.S. Ports and 
is available to meet national security requirements. Like the 
Secretary, I support a strong U.S.-flagged fleet. If confirmed, I will 
look for ways to help increase opportunities to increase the number of 
American merchant mariners and ships to serve our country's economic 
needs and to meet our defense sealift requirements.

    Question 30. Will you commit to supporting an American maritime 
industry that provides American economic, military, and homeland 
security?
    Answer. If confirmed, I will look for ways to help strengthen the 
maritime industry, including ports and intermodal connectors, 
shipbuilding, and the number American merchant mariners and ships 
needed to serve our country's economic, national and homeland security 
needs.

    Question 31. The Department's current occupant crash protection 
standards require vehicles to include warning labels informing 
consumers stating: ``The BACK SEAT is the SAFEST place for children.'' 
However, we understand that the seat back failure risk can be mitigated 
by placing children behind unoccupied front seats, such as the empty 
middle seat, for which there is no front seat, or behind the lighter 
front seat occupant. Consumers are currently not advised that the 
middle seat may be the safest. In the meantime, ensuring consumers have 
this critical information could be a good and commonsense first step. 
Do you believe consumers should have the most accurate and up-to-date 
information regarding the safest seat and position for children?
    Answer. Providing information to consumers can be an important aid 
to safety. If I am confirmed, I would expect to work with NHTSA, 
stakeholders, and the public to continue efforts to better inform 
consumers regarding safety for children.

    Question 32. Major airlines have taken actions to prohibit third-
party travel websites from accessing published fare, schedule, and seat 
availability data. We believe consumers should be able to make apples-
to-apples comparisons among fares and flights and select the best price 
and itinerary for themselves.
    Promoting access to transparent pricing information is not only 
good for consumers, it is also good for competition in the airline 
industry.

  <bullet> Do you think it is important for airline consumers to have 
        access to information they need to make informed purchasing 
        decisions?

  <bullet> If confirmed, will you use take action to ensure that 
        airline consumers have access to comprehensive, transparent 
        flight information?

    Answer. The issue of airline restrictions on the distribution or 
display of airline flight information on third-party travel websites is 
an important and complex issue with far-reaching implications for 
consumers, airlines, ticket agents, and the various participants in the 
distribution chain. I am aware of arguments that transparency is not 
only good for consumers but also good for competition in the airline 
industry, and I am aware of arguments that airlines should be able to 
choose how and where they sell their products so long as they don't 
engage in an unfair or deceptive practice. This is an area about which, 
if confirmed, I would want the Department to consult with experts 
within and outside of the DOT to ensure the appropriate balance of 
conflicting interests in whatever decisions are made.

    Question 33. NHTSA plays a critical role in overseeing recalls and 
making sure they proceed expeditiously, and is responsible for 
overseeing the largest and most complex safety recall in U.S. history--
the Takata airbag recall. The Takata airbag defect has resulted in 11 
deaths and over 180 injuries in the United States, to date, and the 
largest civil penalty in NHTSA's history. Test data released by NHTSA 
reveal that certain vehicles with these defective Takata airbags show 
rupture rates as high as 50 percent in a crash. If confirmed, what will 
you do to accelerate the replacement of these dangerous defective 
devices?
    Answer. Please see response to Nelson question 10 above.

    Question 34. In 2005, while you were serving as General Counsel for 
the Department of Transportation, NHTSA proposed a rule aimed at 
strengthening the agency's safety standard on roof crush resistance, to 
better protect passengers in rollovers. Tucked in that proposal, as you 
know, was language stating that the proposal ``would preempt all 
conflicting State common law requirements, including rules of tort 
law.'' As DOT's General Counsel, you defended this language.
    Prior to becoming General Counsel, you were a senior partner at 
Kirkland & Ellis, where you defended GM in numerous product liability 
lawsuits and also represented the Alliance of Automobile Manufacturers.
    Are you able to affirm unequivocally that you were not at all 
influenced by your prior roles representing GM and the Alliance of 
Automobile Manufacturers, in your defense of this state preemption 
provision?
    Answer. The factual premises of this question are mistaken. Among 
other things, my recollection is that the determination to include the 
preemption language in that rule was made by NHTSA, and not by me.

    Question 35. More generally, while previously at DOT, my client was 
the United States, and I implemented the law faithfully and brought my 
entire energy and attention to serving what I regarded as the best 
interests of the American people. What was the purpose of including 
this language in a proposed update to the Federal Motor Vehicle Safety 
Standards?
    Answer. Please see response to previous question.

    Question 36. Do you believe there are areas of transportation-
related law in which states currently have too much authority and in 
which Federal law should preempt such state authority? If so, please 
list these areas of law.
    Answer. Federal preemption of state law is a complicated question, 
premised on the Supremacy Clause of the U.S. Constitution, and it often 
depends on the language used in Congressional enactments. Whole books 
have been written on this topic. Some of my views on this topic are 
included in an op-ed I published in the Washington Post in 2009, which 
was identified in my response to question 16 of the Commerce Committee 
questionnaire that I submitted on March 21, 2017.

    Question 37. The pre-emption language in the 2005 proposed rule on 
roof crush resistance greatly impinged on State court authority and 
State's rights. Do you believe that this was an appropriate position 
for a Federal agency to adopt and an appropriate legal action for 
Federal regulators rather than Federal courts to decide?
    Answer. The premises of the question appear to be mistaken. In all 
events, the question of Federal preemption continues to be one for 
courts to decide, as the Supreme Court has sometimes indicated that it 
finds agency views helpful, but it remains for the courts to determine 
what the law is and how it applies.

    Question 38. Do you intend to pursue this line of pre-emption 
analysis in future rules issued by NHTSA and other DOT modal 
administrations if you are confirmed as Deputy DOT Secretary?
    Answer. Please see response to Nelson question 13 above.

    Question 39. The final rule for roof crush resistance, issued under 
the Obama administration, stated: ``Implied Preemption. We have 
reconsidered the tentative position presented in the NPRM. We do not 
foresee any potential State tort requirements that might conflict with 
today's final rule. Without any conflict, there could not be any 
implied preemption.'' Do you agree with this reasoning presented in the 
roof crush resistance final rule? Please answer Yes or No.
    Answer. The language quoted in this question is conclusory, and 
does not set out a factual analysis of the circumstances at issue, so a 
yes or no response would be misleading and inappropriate. I am 
confident that such a response is not intended by the question.

    Question 40. In January, the President issued a government-wide 
hiring freeze. This hiring freeze allows agencies to exempt from the 
hiring freeze any positions that an agency deems necessary to meet 
national security or public safety responsibilities. NHTSA's explicit, 
core statutory mission is to ``reduce traffic accidents and deaths and 
injuries resulting from traffic accidents.'' As such, the agency 
clearly qualifies under the public safety exemption articulated in the 
memorandum. In fact, Congress explicitly authorized increased funds for 
NHTSA's public safety mission in the FAST Act. Do you agree? Please 
answer Yes or No.
    Answer. As I was not at DOT at that time and have not been involved 
in applying the Presidential Memorandum Regarding the Hiring Civilian 
Freeze, I am not able to speak directly to whether any particular DOT 
positions meet the exemptions for national security or public safety 
responsibilities. If confirmed, I will work with other DOT officials to 
apply the Presidential Memorandum and supplemental OMB and OPM Guidance 
to ensure that NHTSA and all of DOT is able to accomplish its vital 
safety mission.

    Question 41. Do you agree that it is critical that roles in this 
office should be filled? Please answer Yes or No.
    Answer. See response above.

    Question 42. Mr. Rosen, you have written extensively on your 
distaste for regulations. One article you wrote argued for a 
``regulatory budget'' for Federal agencies and you have previously 
testified in support of anti-regulatory legislation. NHTSA regulations, 
including the Federal Motor Vehicle Safety Standards, provide enormous 
lifesaving public benefits.
    Please list all NHTSA regulations that you would rescind.
    Answer. The premises of this question are mistaken. As I wrote in 
an article published last year, most will agree that ``there is a need 
for some regulation and that there can also be excessive regulation . . 
.'' The concept of a regulatory budget is one with bipartisan origins, 
and its earliest Senate sponsor was Senator Lloyd Bentsen, who became a 
Democratic nominee for Vice-President (and later served in President 
Clinton's Cabinet). With regard to recent legislation, I have testified 
in support of the bipartisan Regulatory Accountability Act of 2013; in 
the Senate, that was a bipartisan bill (S. 1029) sponsored by 
Republican Senators Portman, Collins, Ayotte, Johanns, and Cornyn, and 
Democratic Senators Nelson, Pryor, Manchin, and King. As General 
Counsel, I facilitated key regulations, and I have favored improvements 
to the process that will most effectively produce beneficial outcomes.

    Question 43. In a letter dated March 16, 2017, from you to Judith 
S. Kaleta at the U.S. Department of Transportation, you write the 
following: ``I understand that the interests of the following persons 
are imputed to me'' and you mention ``any spouse or minor child of 
mine.'' Are the interests of your adult children imputed to you?
    Answer. The letter referenced is my agency ethics agreement, 
developed in consultation with the Office of Government Ethics, which 
has been provided to the Committee. Its terms speak for themselves.

    Question 44. Are the interests of Donald Trump's adult children 
imputed to him?
    Answer. That was not a topic of my consultations with the Office of 
Government Ethics, and is not within the purview of the Department of 
Transportation.

    Question 45. The U.S. Department of Transportation disburses tens 
of billions of dollars every year for transportation-related 
construction and maintenance projects. Is it appropriate for President 
Trump, his immediate family, or business interests controlled by him or 
his immediate family to be the recipients of Federal funds?
    Answer. This question seems to assume a hypothetical question for 
which no actual facts or evidence have been presented, so there is no 
basis for a response.

    Question 46. What steps will you take to ensure that President 
Trump, his immediate family, and business interests controlled by him 
or his immediate family do not receive direct financial benefit from 
decisions you would make at the Department of Transportation?
    Answer. See response above.

    Question 47. In a letter dated March 16, 2017, from you to Judith 
S. Kaleta at the U.S. Department of Transportation, you write the 
following: ``I will not participate personally and substantially in any 
particular matter that to my knowledge has a direct and predictable 
effect on the financial interest of the entity until I have divested 
it'' unless given a waiver or you qualify for an exemption. Did you 
agree to divest certain assets in order to be considered and confirmed 
for the position for which you were nominated?
    Answer. The letter referenced is my agency ethics agreement, 
developed in consultation with the Office of Government Ethics, which 
has been provided to the Committee. Its terms speak for themselves.

    Question 48. Has President Trump made such a commitment in relation 
to the office he holds?
    Answer. This is not a question properly directed to the Department 
of Transportation. Indeed, it is my understanding that the laws 
applicable to agency officials are in many instances different than 
those applicable to the President, who along with the Vice-President, 
are the only members of the Executive Branch elected by the American 
people.

    Question 49. On March 17, 2017, President Trump released a document 
entitled ``Budget Blueprint to Make America Great Again.'' Are you 
familiar with this document?
    Answer. I was not a public employee on March 17, 2017, but I have 
become aware that the Office of Management and Budget has published 
that document.

    Question 50. Have you read it?
    Answer. With regard to each of these questions, please refer to my 
oral remarks and testimony at the Committee's hearing on March 29, 
2017, which addressed these topics.

    Question 51. In the document, President Trump writes the following: 
``One of the most important ways the Federal Government sets priorities 
is through the Budget of the United States.'' Do you agree with this 
statement?
    Answer. With regard to each of these questions, please refer to my 
oral remarks and testimony at the Committee's hearing on March 29, 
2017, which addressed these topics.

    Question 52. The budget document further states: ``The Budget 
request reflects a streamlined DOT that is focused on performing vital 
Federal safety oversight functions and investing in nationally and 
regionally significant transportation infrastructure projects.'' Do you 
agree with this statement?
    Answer. With regard to each of these questions, please refer to my 
oral remarks and testimony at the Committee's hearing on March 29, 
2017, which addressed these topics.

    Question 53. The budget document proposes the elimination of 
funding for the TIGER discretionary grant program, eliminating $499 
million in resources to rebuild our Nation's infrastructure. If 
confirmed, is this a priority you will support?
    Answer. With regard to each of these questions, please refer to my 
oral remarks and testimony at the Committee's hearing on March 29, 
2017, which addressed these topics.

    Question 54. If you oppose this priority, have you conveyed your 
concerns to the administration? If so, how?
    Answer. With regard to each of these questions, please refer to my 
oral remarks and testimony at the Committee's hearing on March 29, 
2017, which addressed these topics.

    Question 55. Do you support construction of a wall along the 
southern U.S. border with Mexico, as described by President Trump 
throughout the campaign and in subsequent documents, including proposed 
budget documents?
    Answer. This question appears to relate to matters that would fall 
within the responsibility of the Office of Management and Budget or the 
Department of Homeland Security, and not the Department of 
Transportation.

    Question 56. How much will this wall cost?
    Answer. This question appears to relate to matters that would fall 
within the responsibility of the Office of Management and Budget or the 
Department of Homeland Security, and not the Department of 
Transportation.

    Question 57. Which is more important, the construction of a border 
wall or rebuilding our country's infrastructure?
    Answer. This question appears to relate to matters that would fall 
within the responsibility of the Office of Management and Budget or the 
Department of Homeland Security. With regard to the President's 
priorities, I know of no reason why the President cannot have multiple 
priorities.

    Question 58. President Trump spoke often on the campaign trail 
regarding the need to upgrade America's transportation infrastructure, 
but we have heard little from the President since he entered office 
regarding his transportation priorities.

  <bullet> Have you had conversations with President Trump regarding 
        his transportation priorities?

  <bullet> Have you had conversations with any officials from the Trump 
        administration regarding President Trump's transportation 
        priorities?

  <bullet> Have you been asked directly by President Trump or any 
        member of the Trump administration about your level of support 
        for any policy matters? If so, what matters?

  <bullet> Have you been asked directly by President Trump or any 
        member of the Trump administration about your level of 
        opposition for any policy matters? If so, what matters?

    Answer. During the process that preceded my nomination, I had 
discussions with Administration officials about transportation and my 
transportation experience and credentials, as I have now done with 
several members of the Commerce Committee. When not yet in the 
Administration, I was not a participant in OMB's release of the so-
called ``skinny budget'', though I would hope to participate in future 
budget deliberations as they concern DOT.

    Question 59. Do you consider yourself knowledgeable of the Federal 
budget? Have you written articles on this subject in widely distributed 
publications, like The Washington Post, The Baltimore Sun and The Hill? 
In 2011, did you author an article in the newspaper The Hill entitled 
``Obama's spending ideas unbalanced''? In that article, did you voice 
support for the reduction in Federal spending by $6 trillion over a 
decade? A reduction in Federal spending at that amount is equal to $600 
billion per year over a decade. What programs do you believe should 
receive a reduction in spending or elimination to achieve such cuts?
    Answer. In the articles that you referenced, I set out my views on 
several budget topics. The articles set out the analyses that I did at 
the time, and I have not conducted additional analysis to augment them 
at this time.

    Question 60. In 2016, did you author an article in the publication 
National Affairs entitled ``Putting Regulators on a Budget''?

  <bullet> In that article, did you write the following: ``There is now 
        an extraordinary number of regulations on the books. Today the 
        Code of Federal Regulations is 175,268 pages in 236 volumes, up 
        from approximately 141,000 pages in 206 volumes back in 2001. 
        (In 1975, it was 71,224 pages in 133 volumes, so it has roughly 
        doubled in the last 40 years.) According to estimates prepared 
        at the Mercatus Center at George Mason University, just to read 
        today's 236 volumes of the Code of Federal Regulations would 
        take an individual person nearly three full years, if that is 
        the only thing he did full-time.''?

  <bullet> If there is an ``extraordinary number of regulations on the 
        books,'' what would an ``ordinary number'' of regulations be? 
        What regulations do you propose eliminating to achieve such 
        number?

  <bullet> Is page length an appropriate method of judging the value of 
        administrative policy?

  <bullet> Do many of the pages you mention concern mundane matters?

  <bullet> In the article referenced above, did you write the 
        following: ``By now, it is almost cliche to mention how much 
        new red tape is being issued each year. Each new round of major 
        Federal legislation, such as the Affordable Care Act of 2010, 
        the Dodd-Frank Wall Street Reform and Consumer Protection Act 
        of 2010, and the Food Safety Modernization Act of 2011, provide 
        agency regulators with new authority to issue more new 
        regulations, and the current administration has discerned novel 
        ways to issue once-unthinkable new rules under old laws like 
        the Clean Air Act of 1970.''?

  <bullet> Please list the ``once-unthinkable new rules'' that were 
        issued under the last administration.

  <bullet> In the article referenced above, did you write the 
        following: ``With regard to the setting of budget allocations 
        and caps, it is important that the budget caps apply to costs--
        not to benefits--just as with the fiscal budget. When Congress 
        appropriates fiscal expenditures, the budget puts a cap only on 
        the cost. One of the main considerations in budgeting is that 
        resources are finite and not unlimited, regardless of how many 
        good and legitimate potential uses might exist for the money. 
        Choices have to be made among them.''?

  <bullet> Does this quote concern the concept that regulations should 
        be prohibited if they impose a cost above a certain threshold--
        or ``cap''?

  <bullet> What should the value of the ``cap'' be, in your opinion?

  <bullet> In 2005, did you state the following in Congressional 
        testimony: ``As General Counsel, I have overall supervision of 
        the entire regulatory process, including reviewing and making 
        recommendations to the Secretary on all significant rules. In 
        addition, we have weekly regulatory review meetings with the 
        Deputy Secretary and the Secretary's Chief of Staff. Each week, 
        we meet with a different operating administration usually 
        including the agency Administrator. At those meetings, we 
        discuss every rulemaking action on the operating 
        administration's agenda. The discussions generally cover the 
        need for the rulemaking, our priorities, and our progress in 
        meeting schedules for each project; these meetings often 
        involve discussions among the senior DOT officials present on 
        important substantive issues. These regulatory review meetings 
        played an important role in the Department's decisions during 
        the last five years to terminate or withdraw almost 180 
        potential rulemakings that were deemed unnecessary or 
        unproductive, and a similarly important role in ensuring that 
        useful and necessary rules were issued in a timely way.''?

  <bullet> Please list the ``180 potential rulemakings that were deemed 
        unnecessary or unproductive.''

  <bullet> Please list the ``useful and necessary rules'' that moved 
        forward.

    Answer. In 2016, I authored an article in the publication National 
Affairs entitled ``Putting Regulators on a Budget''. It is available 
online at http://www.national
affairs.com/publications/detail/putting-regulators-on-a-budget, so its 
contents are ready available for reading. With regard to a regulatory 
cost ``cap'', it would function much like fiscal budget caps do. It 
would not preclude any individual regulation or regulations, but would 
require prioritization such that new costs fall within the ``cap'' or 
that offsets are located to reduce costs elsewhere. The reasons for 
doing that are set out in that article, and an earlier law review 
article that I published entitled ``The Regulatory Budget Revisited'', 
66 Admin.L.Rev. 835 (Fall 2014).
    With regard to DOT in 2005, I do not have the list of potential 
rulemakings that the Department deemed unproductive, though it may be 
contained in my testimony from that time period. However, with regard 
to rules that were deemed useful and necessary and were moved forward, 
those can be located in the Federal Register between December 2003 and 
June 2006. They include numerous significant safety rules, as well as 
significant rules addressing other matters as well. As I said at the 
nomination hearing on March 29, 2017, DOT issued numerous significant 
safety rules when I was the General Counsel there.

    Question 61. Is it appropriate for a senior administration official 
to work on policy matters that directly impact the official's former 
clients? Does it present an appearance of impropriety for a senior 
administration official to work on policy matters that directly impact 
the official's former clients? Do you agree to voluntarily recuse 
yourself from any matters involving former clients, beyond those that 
may be required by law, in order to avoid the appearance of 
impropriety?
    Please list all individuals, entities and concerns for whom you 
have provided legal services since returning to private practice in 
2009.
    Answer. Federal rules determine what is and what is not appropriate 
in this context. Please refer to my Commerce Committee questionnaire 
responses, my responses to the 57 Pre-Hearing Questions for the Record, 
and my remarks and responses at the nomination hearing on March 29, 
2017, which address this topic--including my responses to Senator 
Blumenthal at the hearing.
    With regard to my clients from private practice, the information 
required by the Office of Government Ethics is publicly available on my 
OGE 278 Financial Disclosure Form, and supplemental information was 
provided in my responses to the 57 Pre-Hearing Questions for the 
Record. Beyond that, where I have handled litigation it is a matter of 
public record, and other matters would involve client confidentiality.
    The Office of Government Ethics has completed its review of my 
nomination, along with DOT's Designated Agency Ethics Official. As I 
have said repeatedly, I will adhere to the terms set forth in my agency 
ethics agreement, which has been provided to the Committee, and which 
represents a very high standard of integrity for public officials.

    Question 62. In materials you provided to the Committee, a 
biography of you says that ``[s]ome illustrative clients for whom'' you 
``handled significant matters'' include General Motors, Hyundai and the 
U.S. Chamber of Commerce.

  <bullet> Is this statement correct?

  <bullet> Please list and describe the matters you handled for each of 
        these clients.

  <bullet> Beyond the ``illustrative clients'' mentioned above, what 
        other clients have you ``handled matters'' for since your 
        return to private practice in 2009?

    Answer. Please see my responses to questions 7-13 of the Pre-
Hearing Questions for the Record from Senator Nelson and my response to 
question 1 of the Pre-Hearing Questions for the Record from Senator 
Schatz.

    Question 63. In a letter dated March 16, 2017, from you to Judith 
S. Kaleta at the U.S. Department of Transportation, you write the 
following: ``I will not participate personally and substantially in any 
particular matter involving specific parties in which I know a former 
client of mine is a party or represents a party, for a period of one 
year after I last provided service to that client'' unless provided 
appropriate waiver.

  <bullet> Please list each party covered under this prohibition.

  <bullet> Please list the date you last provided legal services to 
        each client.

    Answer. This question refers to my agency ethics agreement, which 
has been provided to the Committee. However, because the quoted 
provision refers to future events that have not yet occurred, and 
instead states a principle to be applied if such events occur, at this 
point in time I have no idea whether such circumstances would ever 
occur.

    Question 64. In a letter dated March 16, 2017, from you to Judith 
S. Kaleta at the U.S. Department of Transportation, you write the 
following: ``I will not participate personally and substantially in any 
particular matter involving specific parties in which I know Kirkland & 
Ellis is a party or represents a party for a period of one year from 
the date of my resignation'' unless provided appropriate waiver.

  <bullet> Please list each party covered under this prohibition.

  <bullet> Please provide the date this prohibition ends.

    Answer. Please see previous response above.

    Question 65. In a letter dated March 16, 2017, from you to Judith 
S. Kaleta at the U.S. Department of Transportation, you write the 
following: ``I understand that as an appointee I will be required to 
sign the Ethics Pledge (Exec. Order no. 13770) and that I will be bound 
by the requirements and restrictions therein in addition to the 
commitments I have made in this ethics agreement.''

  <bullet> Please describe the obligation this executive order places 
        on any work you conduct as a department official.

  <bullet> Please list each party covered under the prohibitions in the 
        executive order pertinent to your service.

  <bullet> Please list each regulation and contract covered under this 
        prohibition, as mentioned in the executive order.

    Answer. President Trump's Executive Order 13770 regarding ``Ethics 
Commitments by Executive Branch Employees'' is available at 82 Fed.Reg. 
9333 (Jan.28, 2017). Its provisions describe what will be required.

    Question 66. Do you believe in climate change? Please answer yes or 
no. Do you believe that human activity is driving that change? Please 
answer yes or no.
    Answer. Please see response to Nelson question 14 above.

    Question 67. In your testimony before the Senate Commerce 
Committee, you indicated that you would provide great deference to the 
president's positions as a member of his administration. President 
Trump has called climate change a ``hoax'' and has taken steps to 
rollback climate change initiatives and slash funding for critical 
research.

  <bullet> Do reject the notion that climate change is a ``hoax''?

  <bullet> Do you support the president's proposal to eliminate funding 
        for climate change initiatives?

  <bullet> Do you support the president's decision to weaken greenhouse 
        gas emissions and fuel efficiency standards for cars and 
        trucks?

  <bullet> In a 2013 piece for The Hill, did you write that ``at a 
        minimum'' senators should ask ``the EPA nominee to commit the 
        agency to using sound science''?

  <bullet> If confirmed, will you commit to using sound science on 
        climate change to guide the Department's efforts?

    Answer. Please see response to Nelson question 14 above. As I have 
noted in numerous contexts, I am in favor of using empirical data and 
sound science.

    Question 68. A New York Times piece in 2008 provides an account an 
incident in which you, as General Counsel of the Office of Management 
and Budget, ``asked three times for separate memorandums describing why 
carbon dioxide molecules emitted from vehicles (already likely to be 
subject to regulation) could not be distinguished from CO<INF>2</INF> 
molecules emitted from power-plant smokestacks (whose regulation was 
opposed by powerful segment of the industry and administration.''

  <bullet> Is this account correct?

  <bullet> Do you believe there is a difference between carbon dioxide 
        molecules emitted from vehicles and carbon dioxide molecules 
        emitted from smoke stacks?

    Answer. Ordinarily, when I was General Counsel at OMB, much of the 
work I did and the advice I gave was privileged, and I generally 
refrain from discussing it in detail. Nor would I see it as 
inappropriate for a lawyer to ask questions to obtain information 
needed to advise policymakers about legal questions. However, with 
regard to the account in the media report you reference, I will say the 
following:

        Any such account was inaccurate, and no journalist asked me 
        about it at the time. It was a very considerable time after its 
        publication that I even learned of such a report in the media. 
        (I am unaware of it appearing in the NY Times.) However, this 
        mistaken account was apparently included in the letter that 
        Senator Blumenthal entered in the record on March 29, 2017.

        Carbon dioxide is a naturally occurring chemical compound made 
        up of a carbon atom covalently double bonded to two oxygen 
        atoms. I did not ask about such molecules being different nor 
        did I ask for three memoranda as to whether that is so.

    Question 69. In 2010, did you author an article in the Atlanta 
Journal-Constitution and The Baltimore Sun entitled, ``Costly Federal 
regulations escape Congressional approval''?

  <bullet> In this article, did you attribute a cost of $10 billion to 
        rail safety technology known as positive train control?

  <bullet> What is the source of the $10 billion figure?

  <bullet> Does positive train control provide benefits?

  <bullet> Is it true that the National Transportation Safety Board has 
        said this technology could have saved over 300 lives?

  <bullet> Did you handle any matters related to positive train control 
        during your previous work in the Federal Government? If so, 
        please describe.

  <bullet> Do you believe there should be regulations from FRA 
        implementing the Congressional mandate governing PTC?

  <bullet> What is the current PTC deadline?

  <bullet> What railroads does it apply to?

  <bullet> Will you enforce the PTC deadline?

  <bullet> Will railroads be penalized for failure to meet the 
        deadline?

  <bullet> What will those penalties be?

    Answer. My recollection is that DOT issued a rule on Positive Train 
Control when I was General Counsel in 2005. My view on PTC is that the 
law should be implemented, unless or until it is changed.

    Question 70. In both Republican and Democratic administrations 
we've seen the problem of ``regulatory capture.'' This happens when an 
industry ``captures'' its regulator, exercising undue influence on the 
regulator's efforts. It occurs when an agency becomes so familiar and 
chummy with the industry that it regulates that it begins to advocate 
for the industry's best interests and its bottom line--not the public's 
interest. This phenomenon has been demonstrated in various agencies at 
the U.S. Department of Transportation.

  <bullet> Have you represented auto manufacturers, railroads and 
        airlines?

  <bullet> Would your service present a problem of regulatory capture?

  <bullet> How can we be assured you're driven not by your past 
        clients' interests, but by the safety of the traveling public?

    Answer. No, my service would not represent regulatory capture. As 
Supreme Court Justice Rehnquist once wrote in another context about 
judges, ``Proof that a Justice's mind at the time he joined the Court 
was a complete tabula rasa in the area of constitutional adjudication 
would be evidence of lack of qualification, not lack of bias.'' Laird 
v. Tatum 409 U.S. 824 (1972) Having knowledge about the transportation 
sector is a qualification, regardless of whether a lawyer has in the 
past represented transportation companies or their critics. I have a 
record of integrity and professionalism. Moreover, in terms of 
regulatory expertise, I was elected the Chair of the American Bar 
Association Section of Administrative Law, which is a group with a 
strong interest in Federal agencies, and composed of lawyers from a 
wide variety of perspectives including agency lawyers as well as 
scholars, private practitioners, and judges, among others.

    Question 71. In 2009, did you write in the Boston Globe the 
following: ``Take, for example, the administration's recent actions to 
impose Davis-Bacon wage requirements on a wide range of stimulus 
projects, which will ensure higher-than-market wage rates for a few, 
and increase costs for all taxpayers.''?

  <bullet> Do you support the law known commonly as Davis-Bacon?

  <bullet> Should Davis-Bacon apply to new Federal infrastructure 
        projects?

    Answer. If confirmed, I expect to support the President's position 
with respect to the Davis-Bacon law.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                            Jeffrey A. Rosen
    Question 1. Your response to section B.6. of your Commerce 
Committee Questionnaire does not provide any clarity into your activity 
during the past 10 years in which you have engaged for the purpose of 
directly or indirectly influencing the passage, defeat, or modification 
of any legislation or regulation affecting the administration and 
execution of law or public policy. This includes providing legal, 
policy, or political services. Please provide a thorough answer. Please 
provide a thorough response.
    Answer. I am unclear in what sense my response to section B.6. does 
not provide clarity. I am not a lobbyist. My career as a lawyer has 
primarily been as a litigator, and also as a counselor.
    My questionnaire responses also identify occasions when, as a 
private citizen on my own behalf, I accepted Congressional requests to 
testify before committees of Congress about legislation in 2011 and 
2013.
    I assume the request is not meant to address when I served 
previously at DOT and OMB, during which time I of course worked in an 
Administration that administered the law and public policy. Likewise, 
as indicated in my questionnaire responses, in my personal capacity I 
have served as a Public Member of the Administrative Conference of the 
United States, where I have participated in plenary sessions devoted to 
ACUS recommendations on the improvements in public administration. And 
in my private capacity I have served as an officer of the American Bar 
Association Section of Administrative Law, which is an organization 
that sometimes suggests improvements to the law.
    In the same way, my questionnaire responses also indicate that I 
have provided advice or assistance to Congress on occasion in my 
personal capacity, not for clients, but I have no inventory of such 
occasions.

    Question 2. During Senator Fischer's questioning, she indicated 
that you have been in contact with her office on numerous regulatory 
issues across DOT agencies, including FMCSA while working at Kirkland & 
Ellis, LLP. What were you advising her on? Who was the client that you 
were representing?
    Answer. I was not representing any client. And I did not do so on 
behalf of Kirkland & Ellis LLP. I was contacted by Senator Fischer's 
staff as a well-known and recognized authority on regulatory topics, to 
provide insights from my experiences in government.

    Question 3. What is your relationship with the U.S. Chamber of 
Commerce? Will you recuse yourself from U.S. DOT matters involving the 
U.S. Chamber of Commerce?
    Answer. I currently have no business relationship with the U.S. 
Chamber of Commerce. My agency ethics agreement, which has been 
provided to the Committee, addresses the circumstances in which I will 
recuse myself.

    Question 4. In 2009, the U.S. Chamber of Commerce called for a 
trial on the science of climate change. What was your role in this 
trial? What arguments was the Chamber attempting to make, and do you 
believe they still stand today?
    Answer. I cannot speak for the U.S. Chamber on this topic. Nor am I 
aware of such a trial taking place.

    Question 5. What is your relationship with the National Federation 
of Independent Business? Will you recuse yourself from U.S. DOT matters 
involving the National Federation of Independent Business?
    Answer. I currently have no business relationship with the National 
Federation of Independent Business. My agency ethics agreement, which 
has been provided to the Committee, addresses the circumstances in 
which I will recuse myself.

    Question 6. In private practice, your clients have included 
Airlines for America, General Motors, and Hyundai. Will you recuse 
yourself from U.S. DOT matters involving Airlines for America, GM, 
Hyundai, and other previous clients?
    Answer. Please see my agency ethics agreement, which has been 
provided to the Committee, and which addresses the circumstances in 
which I will recuse myself. I have a consistent record of integrity and 
professionalism, and will continue to conduct myself accordingly. 
Please also see response to Blumenthal question 61 above. As indicated 
previously, to the best of my recollection and available records, I 
have not appeared as counsel for General Motors or Hyundai since before 
2004, and have not appeared for counsel for Airlines for America since 
2013.

    Question 7. Have you engaged in conversations with private 
companies about vehicle standards?
    Answer. I am unclear about what is being asked, but will assume 
that ``vehicle standards'' is meant to reference CAFE vehicle fuel 
economy standards. When I was at DOT during 2003-2006, my recollection 
is that DOT issued at least two CAFE regulations during that timeframe. 
My recollection is that we received information from companies (and 
others) about the CAFE fuel economy standards. I do not recall having 
such discussions in recent years.

    Question 8. Have you engaged in conversations with foreign 
companies about vehicle standards?
    Answer. Please see response above.

    Question 9. How quickly should an automaker address safety or 
emissions defects and what should the penalties be?
    Answer. In my view, automakers (and others) should comply with the 
law.

    Question 10. Do you believe the U.S. auto industry is competitive 
on an international scale?
    Answer. I have seen media accounts from this year reporting on 
automakers announcing plans to invest in the United States in the 
coming years.

    Question 11. How would you describe the health of the U.S. 
automotive industry?
    Answer. I understand that the industry has reported that U.S. auto 
sales totaled nearly 17.5 million new vehicles in 2016. However, I am 
not currently familiar with what the returns on investment have been 
for U.S. manufacturers.

    Question 12. Do you feel the government should regulate vehicle 
emissions?
    Answer. Yes.

    Question 13. Transportation uses over 70 percent of the oil we 
consume in the U.S. Therefore the key to reducing oil consumption is to 
reduce the amount of oil needed to drive our vehicles. What are your 
thoughts on the vehicle fuel efficiency standards that are currently in 
place?
    Answer. I am aware that Congress enacted the Energy Security Act in 
2007 and the Energy Policy Conservations Act of 1975. It is my view 
that unless Congress changes the law, it should be followed.

    Question 14. How important is it that consumers save money at the 
gas pump?
    Answer. In a free market, that is for the consumer to decide. But 
consumers often prefer to save money.

    Question 15. Is it the responsibility of government to support 
consumers' health or cost savings over the life of owning or leasing a 
vehicle?
    Answer. In developing public policy, government officials should 
consider all relevant factors applicable to a particular issue or 
problem.

    Question 16. In your view, does the Clean Air Act allow for 
regulation of greenhouse gases?
    Answer. The U.S. Supreme Court decided this question in 
Massachusetts v. EPA, 549 U.S. 497 (2007), and in UARG v. EPA, 573 U.S. 
(2014).

    Question 17. Does the U.S. DOT have the authority to regulate 
greenhouse gases?
    Answer. The U.S. DOT's statutory authority for regulating fuel 
consumption in vehicles is set forth in the Energy Conservation Policy 
Act of 1975 and the Energy Security Act of 2007, so DOT's authority is 
defined in those statutes. However, there is a direct correlation 
between fuel consumption and vehicle greenhouse gas emissions, and my 
understanding is that manufacturers reduce emissions by reducing fuel 
consumption. The U.S. Supreme Court has said: ``EPA has been charged 
with protecting the public's ``health'' and ``welfare,'' 42 U.S. C. 
Sec. 7521(a)(1), a statutory obligation wholly independent of DOT's 
mandate to promote energy efficiency. See Energy Policy and 
Conservation Act, Sec. 2(5), 89 Stat. 874, 42 U.S. C. Sec. 6201(5). The 
two obligations may overlap, but there is no reason to think the two 
agencies cannot both administer their obligations and yet avoid 
inconsistency.'' Massachusetts v. EPA, 549 U.S. 497 (2007).

    Question 18. Does FHWA have the authority to regulate greenhouse 
gases under Title 23 of the U.S. Code?
    Answer. Historically, the Federal Aid Highway Program has been a 
grant program, not a regulatory program. Under MAP-21, Congress 
directed FHWA to establish a performance management program to add that 
to the Federal Aid Highway Program, and provide a means to the most 
efficient investment of Federal transportation funds. I am not 
currently aware of the full extent of FHWA's authority in this regard, 
and if I am confirmed, will need to consult with FHWA and DOT's General 
Counsel as to such authority.

    Question 19. In your view, can the automotive industry self-
regulate in dealing with issues of consumer safety? Pollution?
    Answer. There are times when industry participants can take steps 
on their own to improve safety and/or reduce pollution. In other cases, 
government action may be warranted.

    Question 20. Do you support California's right to set emission 
standards that exceed the Federal Government's standards?
    Answer. That question is addressed in Federal statutes, and I am in 
favor of adhering to the law.

    Question 21. Do you think it is in the best interest of the 
automakers or the U.S. economy to have higher standards in California 
and a dozen other states, while having lower standards in the rest of 
the country?
    Answer. There would be obvious challenges and drawbacks to having 
varied standards in different states, with Federal rules some places 
and State rules others. But I would want to have more information 
before rendering any opinion on this topic.

    Question 22. Do you support EPA Administrator Pruitt's withdrawal 
of the Final Determination of the Mid-Term Evaluation of Greenhouse Gas 
Emissions Standards for Model Year 2022-2025 Light Duty Vehicles?
    Answer. I have not read EPA's announcement. If I am confirmed, and 
this were to fall within my responsibilities, I would plan to obtain 
additional briefing from NHTSA or others.

    Question 23. What would it take for you to agree to leave the 
existing fuel efficiency standards in place for model years 2022 to 
2025?
    Answer. As a nominee, it would not be appropriate for me to 
prejudge the Mid-Year Review. My general view is that the agencies 
should adhere to the law (unless it is changed by Congress) and apply 
it to the factual circumstances.

    Question 24. In an op-ed published on March 20, EPA Administrator 
Pruitt argued that fuel economy standards are pushing jobs out of the 
country. Do you agree?
    Answer. I have not read that op-ed, so have no comment on it.

    Question 25. What types of investments, if any, do you feel the 
U.S. DOT should be making to set and enforce vehicle emission 
standards?
    Answer. My understanding from my past service at DOT was that DOT, 
at both NHTSA and the Volpe Center, has had a sizable and experienced 
staff who have worked on CAFE fuel economy standards going as far back 
to the 1970s. I am not currently familiar with how DOT and EPA have 
coordinated in recent years, and if confirmed, would look to gain a 
better understanding of that.

    Question 26. More than 40,000 people died in car crashes last year. 
Many of these deaths are preventable. What are your plans to reverse 
the upward trend of roadway fatalities in the next two years?
    Answer. The upward trend in fatalities is troubling. I would like 
to see additional analysis of the available data from FARS and other 
statistical databases. If confirmed, I will plan to receive a briefing 
on this fundamental issue. Until I am fully briefed on the matter and 
have access to the considerable expertise at NHTSA and other DOT 
components, it would be premature to plan specific actions.

    Question 27. How do you believe vehicle standards should protect 
consumers?
    Answer. In the Motor Vehicle Safety Act of 1966, as amended, 
Congress has set forth statutory criteria for the protection of vehicle 
occupants from unreasonable risk.

    Question 28. The U.S. DOT has delayed the implementation of a 
safety performance measure rule that would improve the state of good 
repair for our roads and bridges (Pavement and Bridge Condition 
Performance Measures Final Rule). Do you feel it is in the best 
interest of the American public's safety and well-being for the Federal 
Government to restrict information on how many roads and bridges are in 
poor or even unsafe conditions? As a former general counsel for the 
U.S. DOT, what do you believe is holding up the implementation of this 
important performance measure rule?
    Answer. I do not know the answer to this question, but if confirmed 
would look to FHWA for information about it. I was recently told that 
the rules are being reviewed, and that FHWA is continuing to work with 
its partners to ensure that any bridges found to be unsafe are 
immediately closed to traffic or repaired, and that information on 
pavement and bridge conditions is not being restricted.

    Question 29. What regulations at the U.S. DOT do you support 
removing or amending?
    Answer. I have not made any determinations one way or another as 
this question. As you know, the Department has a large number of 
regulations across all modes of transportation, in multiple volumes of 
the Code of Federal Regulations. If confirmed, before removing or 
amending any of them, I would anticipate that DOT and its operating 
administration would work with interested stakeholders and the public, 
as well as relying on the expertise of the professional staff at the 
Department, to ensure that the consequences are understood and that it 
is prudent and appropriate to do so.

    Question 30. Do you believe any categories of regulations should be 
exempt from regulatory budgeting practices, such as President Trump's 
one-in-two-out executive order on rules?
    Answer. Yes. FAA airworthiness directives and airspace actions 
would be one such category.

    Question 31. In your view, is the American public better off with 
more or less government regulations? What kinds of regulations do you 
think are important to put in place in the context of the DOT?
    Answer. For DOT, safety is and ought to be the top priority. Some 
regulation is necessary and beneficial. It is also possible to have 
poor regulations or excessive levels of costs. These should be assessed 
in a factual, data-driven way with the use of sound science. With 
regard to DOT, it will be important to assess what regulatory framework 
should apply to new technologies, such as automated vehicles and UAVs.

    Question 32. Do you believe that President Trump's one-in-two-out 
executive order is legal? How would the U.S. DOT, an agency tasked with 
protecting safety, choose which regulations to eliminate?
    Answer. With regard to Executive Order 13771, ``Reducing Regulation 
and Controlling Regulatory Costs'', I am not aware of any legal reason 
that it cannot be implemented appropriately. It is a managerial tool 
for prioritizing new regulations, and it creates an incentive to 
identify existing regulations that no longer serve well. For DOT, 
safety will remain the top priority. In terms of regulations that are 
outdated, there are multiple tools to identify those, and if confirmed, 
I would look forward to trying to make that process successful at 
enhancing safety while doing so in the most cost-effective way.

    Question 33. As OMB General Counsel, you advocated for all agency 
regulations to go through political appointees. Do you still hold this 
view?
    Answer. This question is based on a mistaken premise. Executive 
Order 12866 as issued by President Clinton in 1993 had already provided 
for Regulatory Policy Officers in each agency, and those were non-
career appointees. When President Bush issued Executive Order 13422 in 
2007, the provision on Regulatory Policy Officers made more transparent 
what had already been in place since 1993. At that time, OMB published 
on its website a roster of who the Regulatory Policy Officers were, by 
name and department. I was disappointed that this transparency was not 
continued in the Obama Administration, even though the regulatory 
process continued to have non-career appointees responsible for the 
approval of regulations.

    Question 34. Should agencies be required to promulgate rules based 
on the idea of least costly rulemaking or should they focus on 
maximizing public health, safety, and environmental benefits?
    Answer. Agencies should promulgate rules based on the requirements 
set in the laws that delegate the authority to establish the 
regulations, using the criteria establish in the law, that takes 
account of both cost-effectiveness and obtaining maximum public health, 
safety, and environmental benefits.

    Question 35. How will you ensure that the U.S. DOT adequately 
considers the benefits of new regulations establishing science-based 
public health and safety protections, and not solely the costs?
    Answer. See response above.

    Question 36. Will you respect and uphold scientific integrity 
policies at the U.S. DOT?
    Answer. I support scientific integrity as a general principle, and 
I believe in intellectual honesty. I am told that DOT has posted 
several current policies on its website: DOT Scientific Integrity 
Policy, the DOT Public Access Plan for the Results of Federally Funded 
Scientific Research, and the DOT Implementation Plan for OMB 
Statistical Policy Directive No. 1 (the ``Trust Directive''). If I am 
confirmed, I will plan to review those in greater detail.

    Question 37. What will you do to increase transparency at the U.S. 
DOT?
    Answer. I am told that there are significant initiatives underway 
to make the DOT's programs and data much more accessible to the public 
than in the past. If confirmed, I would expect to learn more about 
these initiatives, to enable increased public access.

    Question 38. Should the Highway Trust Fund be eligible to reimburse 
construction or maintenance projects that do not pay directly into the 
fund (e.g., transit, biking or walking)?
    Answer. The Highway Trust Fund plays a critical role in funding a 
large portion of the Department's surface transportation programs. 
States often makes the point that they prefer flexibility. If 
confirmed, I would hope to work with Secretary Chao to examine all 
aspects of the Department's budget, including the Highway Trust Fund 
programs, to ensure that funding is appropriately allocated and 
supports our Nation's most pressing transportation and transportation 
safety needs. Please also see response to question 16 of Senator 
Booker's Pre-Hearing Questions for the Record.

    Question 39. TIGER and the FTA Capital Investment Grant (CIG) 
programs are two of the most cost effective programs at the DOT. Do you 
agree that these programs are effective? If so, should we be expanding 
them?
    Answer. If confirmed, I look forward to working on an 
infrastructure initiative that incorporates the best aspects of our 
current transportation programs, incorporates new and bold ideas, and 
ensures the most effective investment in our Nation's transportation 
systems. As a nominee, it is premature for me to say what the 
President's infrastructure proposal will include or not include. Please 
also see responses to Blumenthal question 53 and Booker question 8, and 
response to question 2 of Senator Klobuchar's Pre-Hearing Questions for 
the Record.

    Question 40. Do you support the proposed cuts to TIGER and public 
transit included in the FY 2018 budget blueprint?
    Answer. Please see my remarks and responses at the nomination 
hearing on March 29, 2017, and the response to the previous questions 
above.

    Question 41. In your opinion, taking into account your prior role 
as a general counsel for U.S. DOT, if a transit project currently 
receiving funding through the CIG program were to amend its FFGA with 
FTA, would this remove the project from receiving funds under the FY 
2018 budget blueprint's transit funding ban? In this instance, we are 
assuming that FTA would approve the FFGA amendment.
    Answer. If confirmed, I would ensure that any existing FFGA's are 
managed consistent with current law and regulations. The President's 
Budget Blueprint does propose not to execute new FFGA's during FY 2018, 
and I would expect that FTA would examine the specific circumstances 
regarding any proposed amendment for existing FFGAs.

    Question 42. If the FY2018 budget blueprint were enacted, how do 
you recommend that transit agencies cover the long-standing Federal 
investment in capital projects?
    Answer. Because I was not yet at DOT nor a participant in the OMB 
budget process, I am not yet in a position to address this question. If 
confirmed, I would hope to participate in the budget process going 
forward. If confirmed, I would also hope to be involved in the 
development of the President's new infrastructure proposal.

    Question 43. What are your views on reforming the air traffic 
control system?
    Answer. There seems to be wide agreement on the need to modernize 
the FAA's air traffic control technologies, often referenced as 
NextGen. There is not always agreement on how to accomplish that goal. 
As Secretary Chao indicated in her responses to Committee members 
following her nomination hearing, there will be a thorough 
Administration review of Federal Aviation Administration (FAA) reform 
proposals. If confirmed, I would hope to assist the Secretary in the 
extensive evaluation the details of any reform proposal.

    Question 44. Did you support Chairman Shuster's air traffic control 
proposal from the 114th Congress?
    Answer. I did not have occasion to take a position one way or 
another, and did not do so.

    Question 45. If the air traffic control system is spun off to a 
private organization, what stakeholders should be represented on the 
board?
    Answer. Your question addresses one of the significant issues 
involved in this concept. As Secretary Chao indicated in her responses 
to Committee members following her nomination hearing, there will be a 
thorough Administration review of these issues, including the 
composition of the board and mechanisms to ensure all stakeholders are 
represented.

    Question 46. In your view, how do you think the privatized air 
traffic control system should be paid for?
    Answer. This question also addresses one of the significant issues 
involved in this concept. As Secretary Chao indicated in her responses 
to Committee members following her nomination hearing, there will be a 
thorough Administration review of these issues, including funding for 
the new organization.

    Question 47. Should the Federal Government require recipients of 
U.S. DOT funding to coordinate local land use and transportation 
planning and decision-making?
    Answer. In general, authority to plan land use and zoning rests 
firmly with local governments, and they are responsible for determining 
how to efficiently coordinate transportation investments to serve 
developed and rural areas. Federal law requires States and Metropolitan 
Planning Organizations receiving Federal dollars to consider in their 
planning the consistency between planned transportation improvements 
and State and local planned growth and economic development. If 
confirmed, I will work to identify ways in which DOT can most 
effectively coordinate with local and State governments in the 
provision of infrastructure. Please also see response to question 18 of 
Senator Booker's Pre-Hearing Questions for the Record.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                            Jeffrey A. Rosen
    Fuel Economy Standards. The fuel economy emissions standards that 
President Obama put in place, after reaching agreement with the auto 
industry, and building upon the 2007 law that I helped author is the 
single biggest step the United States has taken to reduce our carbon 
pollution. But at a time when we still import more than three million 
barrels a day from OPEC, these fuel economy emissions standards are 
also critical to our national security. They will save consumers 
billions of dollars at the pump. But now the Trump Administration has 
decided to make a U-turn on these important standards by reopening the 
mid-term review at the Environmental Protection Agency.
    Question 1. You mentioned in our meeting that you want to rely on 
the best available data. Well, the EPA, the Department of 
Transportation and the California Air Resources Board worked together 
to compile roughly 1,000 pages of technical analysis as part of the 
Technical Assessment Report for the midterm review. Would you 
characterize that technical assessment report as the best available 
data?
    Answer. I stand by my interest in government using the best 
available data. In considering any decision, if I am confirmed, I would 
want DOT to have the best and most recently available data reasonably 
available. To date, I have not read the July 2016 Technical Assessment 
Report, but I assume it would be a useful source of data.

    Question 2. That technical report showed that the 2022-2025 
standards are both technically feasible and cost-effective. The 
scientific work that was done for this technical report was done by the 
agencies, based on data from the National Academies of Science, the 
auto industry, and technical NGOs. The technical work is the best 
available science. Do you plan to uphold this analysis if you are 
confirmed?
    Answer. If I am confirmed, I would expect that NHTSA would 
carefully review and consider the data included in the Technical 
Assessment Report.

    Question 3. Do you agree with the conclusion that was reached by 
the national academies, the DOT and the EPA in the 2012 rulemaking that 
tear down studies are the gold standard for evaluating the cost of 
different technologies?
    Answer. I am in favor of using the best available information and 
methodologies to inform all rulemaking processes when feasible and 
practical. Because I have not to date read the Technical Assessment 
Report, I am not yet in a position to comment on its specific 
conclusions.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                            Jeffrey A. Rosen
    Question 1. Do you believe that climate change is real and is not a 
hoax?
    Answer. Please see response to Nelson question 14 above.

    Question 2. Do you believe that man-made impacts such as more cars 
on the road contribute to climate change?
    Answer. Please see response to Nelson question 14 above.

    Question 3. Do you think successful Federal policies such as CAFE 
standards have a role in addressing the impacts of climate change?
    Answer. With regard to CAFE fuel economy standards, those have been 
required by Energy Security Act of 2007, and by the Energy Policy 
Conservation Act of 1975, and unless Congress changes the law, DOT is 
responsible for implementing it.

    Question 4. Media reports indicate that while you were serving as 
General Counsel at Office of Management and Budget, you asked the 
Environmental Protection Agency for memos detailing why carbon dioxide 
emitted from motor vehicles could not be distinguished from carbon 
dioxide emitted from power plants. Can you explain the circumstances 
behind this and why you requested these memos?
    Answer. Please see response to Blumenthal question 68 above.

    Question 5. Mr. Rosen, in your opinion, what are the benefits of 
transit and passenger rail projects?
    Answer. Transit and passenger rail are sometimes important 
transportation options for many citizens that rely on these services 
for their daily commuting needs, especially in many of our urban 
centers where highway and road capacity is inadequate to meet the 
demands of transportation and for citizens that do not have other 
transportation options.

    Question 6. Do you believe there are benefits from the TIGER grant 
program?
    Answer. Please see responses to Blumenthal question 53 and Schatz 
questions 39 and 40, and response to question 2 of Senator Klobuchar's 
Pre-Hearing Questions for the Record. There are benefits to having some 
discretionary grant programs, of which DOT currently has several. If 
confirmed, I would hope to participate in the planning of the 
President's infrastructure proposal.

    Question 7. If confirmed as Deputy Secretary, what role will you 
have in the President's infrastructure plan and the development of 
future budgets?
    Answer. If confirmed, I would hope to and expect to participate in 
the process that will be shaping the DOT aspects of the infrastructure 
plan, but that role is not yet defined at this time.

    Question 8. Will you commit to advocating for funding for TIGER, 
New Starts, and Amtrak?
    Answer. Please refer to my oral remarks and testimony at the 
Committee's hearing on March 29, 2017, which addressed these topics, 
and my response to question 6 and 14 of Senator Booker's Pre-Hearing 
Questions for the Record, and to Nelson question 13 above.

    Question 9. Mr. Rosen, I know you served on the board of Amtrak. 
What would the impacts be to our Nation's intercity passenger rail 
system if President Trump's proposed cuts to long-distance train 
services were realized? Will you support Amtrak's long-distance train 
services?
    Answer. Please see responses 22-26 to Senator Booker's Pre-Hearing 
Questions for the Record, and the response to Nelson question 15 above.

    Question 10. Mr. Rosen, FMCSA has promulgated a Final Rule on 
Entry-Level Driver Training (ELDT) standards for commercial motor 
vehicles published in the Federal Register on December 8, 2016, due to 
begin implementation on February 6 of this year and has a compliance 
date of February 7, 2020. The regulation was subject to a 60-day delay 
by FMCSA subsequent to the President's January 20 Memorandum that 
issued the regulatory freeze. While I understand it is not unusual for 
an incoming administration to require time to review the pending 
regulations, the Presidential Memo from January 20 explicitly stated 
that any regulation required by statute or that is necessary for public 
safety is exempted. Do you believe the Entry-Level Driver Training 
Final Rule, which is both necessary for public safety and required by 
law under MAP-21, should be exempted from the President's Memo?
    Answer. As I was not at DOT at that time, I am not in a position to 
address the specifics of this, but if I am confirmed, I will plan to 
receive an update on its status, the requirements of MAP-21 regarding 
this rule, and FMCSA's plans.

    Question 11. The Obama Administration went to great lengths to 
promote the use of technology in the transportation sector. From 
working to remove regulatory barriers for UAS, to creating a Federal 
automated vehicle policy, to implementing the Smart City Challenge, 
technology and innovation were at the forefront of solving our most 
pressing transportation and safety challenges. How do you plan to 
harness new technologies at the DOT once you are confirmed?
    Answer. Please see my response to question 11 of Senator Booker's 
Pre-Hearing Questions for the Record.

    Question 12. As you may know, the emergence of self-driving cars 
holds great promise for many people who have traditionally been 
disenfranchised. These autonomous vehicles can help provide greater 
independence to older Americans and persons with disabilities, 
providing them greater access to employment opportunities and health 
care. Under your leadership, will DOT further explore the benefits of 
autonomous cars for persons with disabilities?
    Answer. In my view, autonomous vehicles have a tremendous potential 
to provide benefits to a wide variety of Americans, including the 
elderly and persons with disabilities. If the technologies are 
successful, I would look forward, if confirmed, to working with 
Secretary Chao and Congress to pursue these benefits and ways to safely 
incorporate the technology into widespread use.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                            Jeffrey A. Rosen
    Question 1. More than 10,000 Americans are killed each year in 
alcohol-impaired driving crashes. Drunk driving accounts for roughly a 
third of all traffic fatalities. These deaths are preventable. That is 
why I support high visibility law enforcement, ignition interlocks for 
all offenders, and a promising R&D program to end drunk driving. The 
Driver Alcohol Detection System for Safety (DADSS) is a public private 
partnership that brings together automakers and the National Highway 
Traffic Safety Administration (NHTSA) to develop lifesaving drunk-
driving prevention technology. As transportation secretary, will you 
continue to support the DADSS initiative and other efforts to save 
lives from drunk driving?
    Answer. If confirmed, I would receive a full briefing from NHTSA 
regarding the timing, technology, and funding of 'the Driver Alcohol 
Detection System of Safety (DADSS). Any fatality or injury due to drunk 
driving is tragic, and NHTSA must continue to work with the States to 
educate drivers and enforce current laws.

    Question 2. Given that the Highway Trust Fund has solvency issues, 
what measures will this Administration take to ensure that adequate 
funding is maintained in order for the Federal Government to meet the 
continued need for infrastructure improvements?
    Answer. Maintaining the solvency of the Highway Trust Fund is a 
critical issue. If confirmed, I would expect to take a strong role in 
examining future options for transportation investment as we develop 
our Departmental budgets and the Administration's infrastructure 
initiative. If confirmed, I look forward to working with Congress on 
this issue.

    Question 3. I am concerned your Administration's reported plans for 
funding transportation infrastructure through tax credits for companies 
and privatizing roads could result in American taxpayers paying twice. 
Should states that turn existing public roads into private toll roads 
be allowed to continue to receive Federal support for those roads, at 
the expense of taxpayers in other states?
    Answer. As Secretary Chao indicated in her response to the 
Committee, tolling is but one tool in the toolbox for addressing 
certain financing needs of various infrastructure projects. If I am 
confirmed, I would intend to be briefed on all of the options available 
for financing of infrastructure projects. What works for one State or 
one project may not work for another, and so it would be inappropriate 
to speculate or engage in broad generalizations.

    Question 4. Under your Administration, will private companies be 
allowed to charge tolls for a road that has already been paid for with 
Federal money?
    Answer. Congress has set explicit restrictions on the allowance of 
tolling the existing federal-aid highway system. Should Congress decide 
to pursue an expansion of tolling on existing roads already paid for 
with Federal money, I would, if confirmed, look forward to 
participating in those discussions.

    Question 5. How will your Administration work to improve 
infrastructure projects that private investors may be reluctant to 
invest in, such as municipal water-systems or improvements to existing 
bridges and roads where it may not be possible to charge tolls to 
recover costs?
    Answer. As I understand it, there are potential tools and 
strategies that can encourage greater private sector investment in a 
wide range of different infrastructure assets. Federal credit and 
finance options can help make certain types of infrastructure 
investment more attractive to the private sector. Leveraging other 
sources of State and local funding, including the use of availability 
payments, may also be a potential option for critical transportation 
assets that do not generate direct revenue streams on their own. If 
confirmed, I will work to identify the challenges to investment in 
infrastructure and will seek effective options for advancing investment 
opportunities.

    Question 6. How will you approach the transportation needs for 
those Americans living in rural areas?
    Answer. Rural America is home to many of the Nation's most critical 
infrastructure assets including 444,000 bridges, 2.98 million miles of 
roadways, 30,500 miles of interstate highways. Local and regional 
highway connections are vital to support the movement of energy and 
agricultural products that rural economies depend upon. However, rural 
local bridges continue to have the highest percentage of structural 
deficiencies, 17.2 percent. Interstate bridges in rural areas had the 
highest share of functionally obsolete bridges at 11.6 percent. If 
confirmed, I will work with Secretary Chao to develop an approach that 
will meet the needs of rural Americans both for personal transportation 
and to bolster the rural economy.

    Question 7. How should new Internet and communications technologies 
be incorporated into our Nation's transportation infrastructure to 
improve safety and performance?
    Answer. Innovation holds much promise to improve the safety and 
operational efficiency of our transportation infrastructure. Many of 
these advances in intelligent transportation systems are the result of 
efforts by the private sector and research communities. DOT has a long 
history of partnering with these entities to explore how we can 
maximize their effectiveness in the transportation sector. If 
confirmed, I will work with Secretary Chao to promote an environment 
that encourages technological innovations in transportation and the 
ability to communicate operational conditions of our transportation 
network in real time to save lives and make more efficient use of our 
transportation infrastructure.

    Question 8. What role do you envision railroads playing in 
America's transportation infrastructure under your Administration?
    Answer. Railroads play a critical role in our Nation's 
transportation system and economy. If confirmed, I look forward to 
working with Congress and the railroads to build on current investment 
in rail infrastructure and identify options to most efficiently deliver 
projects.

    Question 9. Recent Federal and private investments at the Santa 
Teresa, NM Port of Entry and surrounding areas have helped expand and 
improve the efficiency of trade along the New Mexico-Chihuahua 
international border. New Mexico has also led all U.S. states in goods 
export percentage growth to Mexico. Will your Administration support 
transportation policies to promote efficient trade along the border?
    Answer. This is an important issue, and if I am confirmed, I would 
look forward to working with you and the Committee to address it.

    Question 10. President-elect Trump's infrastructure plan available 
at https://www.donaldjtrump.com/policies/an-americas-infrastructure-
first-plan calls for ``reforms that streamline permitting and 
approvals.'' What specific reforms will you pursue to the permitting 
and approval process for transportation infrastructure such as bridges, 
roads, pipelines, etc.?
    Answer. My understanding is that the Department established its 
Infrastructure Permitting Improvement Center (IPIC) as a central 
resource for accelerating project delivery. IPIC oversees 
implementation of permitting reforms including those from MAP-21 and 
the FAST Act. These include synchronizing environmental reviews and 
minimizing duplication, establishing programs to measure progress in 
accelerating project delivery, and integrating geospatial and other 
data tools with fiscal management systems to provide improved data and 
greater transparency. IPIC coordinates with the Department's Operating 
Administrations as well as with the Council on Environmental Quality, 
the Federal Permitting Improvement Steering Council (established 
through the FAST Act), and other Federal agencies through the 
Transportation Rapid Response Team, in completing implementation of 
many of these reform measures. The Department and Operating 
Administration websites include more information on the results of 
these actions. This is an ongoing effort, and if confirmed, I will look 
forward to continuing to find ways to improve the efficiency of 
permitting and approval processes in order to accelerate project 
delivery while concurrently achieving good outcomes for communities and 
the environment.

    Question 11. What is your Administration's plan for improving the 
aging and insufficient roads on tribal lands and how will DOT work with 
these communities to see that their infrastructure needs are addressed?
    Answer. As I understand it, the Administration is coordinating a 
process to evaluate all of the various financing tools and 
opportunities for a new infrastructure plan, including those projects 
on tribal lands. As a nominee, I am not yet aware of where that stands, 
but if I am confirmed I would hope to become a participant in the 
process.

    Question 12. President-elect Trump's infrastructure plan calls for 
approving ``private sector energy infrastructure projects--including 
pipelines and coal export facilities--to better connect American coal 
and shale energy production with markets and consumers.'' In recent 
years, a proposed coal export facility at Cherry Point, WA and pipeline 
near the Standing Rock Indian Reservation faced opposition from local 
Indian tribes. Will you assure me that the Department of Transportation 
will consult with tribes on a government to government basis and uphold 
the U.S. Government's treaty obligations?
    Answer. As I understand it, section 106 of the National Historic 
Preservation Act of 1966 (NHPA) generally requires that a Federal 
agency should consult with any Indian tribe that attaches religious and 
cultural significance to historic properties that may be affected by 
the agency's undertakings. It is my understanding that DOT regularly 
consults with American Indian tribes and incorporates their feedback in 
both the Section 106 and NEPA documents.

    Question 13. The DOT's Transportation and Climate Change 
Clearinghouse (available at https://climate.dot.gov/about/index.html) 
states that ``within the United States, transportation is the largest 
source of greenhouse gas (GHG) emissions after electricity generation. 
With scientific recognition that GHG emissions are contributing to a 
long-term warming trend of the earth, there is an increasing 
realization that transportation, as a significant contributor of GHGs, 
plays an important role in climate change policy and program 
decisions.'' How will DOT under your leadership work to address GHG 
emissions and climate change issues?
    Answer. Please see responses to Nelson question 15, Schatz question 
25, and Booker question 3.

    Question 14. Each major Federal agency has been graded at least 
three times on their implementation of the Federal Information 
Technology and Acquisition Reform Act of 2014 (FITARA, PL 113-291). The 
House Oversight and Government Reform Committee with assistance from 
the Government Accountability Office (GAO) issues a ``scorecard'' for 
FITARA implementation. What grades has DOT received? How do you plan to 
improve this grade?
    Answer. I am told that DOT strongly supports the goals of FITARA 
and has played a leading role among Government agencies in its 
implementation. From what I was told, however, DOT has received two D 
grades and an F+ on the FITARA scorecard. I am advised that the DOT CIO 
Council is actively working to improve these grades. If I am confirmed, 
it would be my intention to follow up on these activities to ensure 
that DOT was making the necessary improvements.

    Question 15. Describe the role of your department Chief Information 
Officer (CIO) in the development and oversight of the IT budget for 
your department. How is the CIO involved in the decision to make an IT 
investment, determine its scope, oversee its contract, and oversee 
continued operation and maintenance?
    Answer. I am told that the CIO's oversight of the IT budget has 
evolved and strengthened with the implementation of FITARA. In May 
2016, the CIO signed the ``DOT IT Spend under FITARA'' memorandum with 
the Assistant Secretary for Budget and Programs/Chief Financial Officer 
(CFO) and the Assistant Secretary for Administration. If I am 
confirmed, I would be pleased to arrange an update of this topic for 
you.

    Question 16. Describe the existing authorities, organizational 
structure, and reporting relationship of the Chief Information Officer. 
Note and explain any variance from that prescribed in the Federal 
Information Technology and Acquisition Reform Act of 2014 (FITARA, PL 
113-291) for the above.
    Answer. Please see response above.

    Question 17. What formal or informal mechanisms exist in your 
department to ensure coordination and alignment within the CXO 
community (i.e., the Chief Information Officer, the Chief Acquisition 
Officer, the Chief Finance Officer, the Chief Human Capital Officer, 
and so on)?
    Answer. Please see response above.

    Question 18. According to the Office of Personnel Management, 46 
percent of the more than 80,000 Federal IT workers are 50 years of age 
or older, and more than 10 percent are 60 or older. Just four percent 
of the Federal IT workforce is under 30 years of age. Does your 
department have such demographic imbalances? How is it addressing them?
    Answer. I am told that the average age of the DOT IT workforce is 
50.80 years. DOT's OCIO is working to develop OCIO IT professionals 
through the Staff Training, Education, and Professional Development 
(STEP) program. If I am confirmed, I would be pleased to arrange an 
update on this topic for you.

    Question 19. How much of the department's budget goes to 
Demonstration, Modernization, and Enhancement of IT systems as opposed 
to supporting existing and ongoing programs and infrastructure? How has 
this changed in the last five years?
    Answer. I have been told that over the past five years, DOT's 
Development, Modernization, and Enhancement (DME) has made-up about 51 
percent of the IT portfolio spending, or approximately $1.5B per year. 
This represents modernization efforts across the Department, and FAA 
projects make-up the largest percentage.

    Question 20. What are the 10 highest priority IT investment 
projects that are under development in your department? Of these, which 
ones are being developed using an ``agile'' or incremental approach, 
such as delivering working functionality in smaller increments and 
completing initial deployment to end-users in short, six-month time 
frames?
    Answer. I am told that FAA investments accounted for 87 percent of 
the DOT IT portfolio, and the requirements for developing and 
maintaining 24/7 operational mission essential and safety critical 
systems are very stringent and not necessarily candidates for agile 
development. I am also aware that GAO also concurred on this assessment 
as part of GAO 14-361 (3112890). As noted in the GAO Report, there are 
high priority DOT investments that do not lend themselves to agile 
development. Examples of safety critical investments, which require 
reliability, availability and maintainability standards at or above 
99.9999 percent, include:

        FAAXX255: Alaskan Satellite Telecommunication Infrastructure 
        (ASTI)

        FAAXX732: Common Support Services Weather (CSS-Wx)

        FAAXX807: NextGen Weather (Wx) Processor (NWP)

        FAAXX505: ERAM Enhancements & Tech Refresh

        FAAXX711: Data Communications NextGen Support (DataComm)

        FAAXX612: System Approach for Safety Oversight (SASO)

        FAAXX808: NextGen R&D Portfolio

        FMCSA100: Unified Registration System (URS)

        FAAXX102: Terminal Flight Data Manager (TFDM)

        FAAXX778: Next Generation Air/Ground Communications (NEXCOM) 
        Segment 2

    While these systems may not follow strict ``agile development'' 
guidelines, they do follow waterfall national deployment schedules that 
are built around minimizing deployment risks.

    Question 21. To ensure that steady state investments continue to 
meet agency needs, OMB has a longstanding policy for agencies to 
annually review, evaluate, and report on their legacy IT infrastructure 
through Operational Assessments. What Operational Assessments have you 
conducted and what were the results?
    Answer. Please see response to Udall question 15 above.

    Question 22. What are the 10 oldest IT systems or infrastructures 
in your department? How old are they? Would it be cost-effective to 
replace them with newer IT investments?
    Answer. Below is a summary that I was provided by the DOT CIO's 
office as a courtesy to assist me in responding to this request. Until 
I am confirmed and able to obtain more thorough briefing, I am unable 
to judge the cost effectiveness of replacing these items.

  i.                    As part of the Common Operating Environment
                         (COE), the DOT CIO's office currently provides
                         a telecommunication system for DOT employees.
                         The existing system was purchased in FY 2007
                         when DOT relocated into the Navy Yard
                         headquarters building. The legacy system does
                         not provide modern features and is not scalable
                         based on the changing telecommunications needs
                         of the DOT workforce. A COE Communications
                         Workgroup, consisting of representatives from
                         across the Department, has been formed to
                         examine current requirements and conduct market
                         research as part of a recommended approach to
                         modernize the legacy telephone system.
 
  ii.                   The NHTSA Artemis system was in initiated in
                         2002 and consists of complaints from vehicle
                         owners, early warning reporting data submitted
                         by manufacturers, and recall and investigation
                         information. Modernization of this system is
                         necessary to adjust a high volume analysis of
                         data. It is slated to end in 2024.
 
  iii.                  In the FAA National Airspace System (NAS), the
                         Airport Surveillance Radar-9 (ASR) in
                         Huntsville, AL is on track for approval by the
                         FAA's Final Investment Decision of funding in
                         Q4 CY2017.
 
  iv.                   In the FAA National Airspace System (NAS), the
                         Flight Data Input Output Center (FDIOC) in
                         Miami FL will undergo a planned tech refresh as
                         part of a contract awarded in 2016.
 
  v.                    In the FAA National Airspace System (NAS), the
                         Low Level Wind Shear Alert System (LLWAS) in
                         Dallas--Fort Worth TX is scheduled to be
                         modernized in the third quarter of calendar
                         year 2020.
 
  vi.                   In FAA Mission support, Cisco ethernet switches
                         have been identified as End of Life (EOL).
                         These EOL switches do not house critical
                         systems or personal identifiable information.
                         The FAA has a network infrastructure of
                         approximately 3,000 switches. The FAA follows a
                         replacement cycle for switches of 5 percent per
                         year. A break/fix approach is applied to
                         switches that fail before the replacement
                         schedule.
 
  vii.                  In FAA Mission support, Dell PowerEdge file and
                         print servers are EOL and out of warranty. Data
                         will be migrated and systems will be
                         decommissioned by July 2018. These EOL servers
                         do not house critical systems or personal
                         identifiable information.
 
  viii.                 In FAA Mission support, Dell servers supporting
                         the CRU-ART System are EOL and out of warranty.
                         CRU-ART servers were upgraded to Microsoft
                         Windows 2008 operating system but were not
                         decommissioned. CRU-ART is a critical system
                         and does not house personally identifiable
                         information. CRU-ART is being replaced with Air
                         Traffic Operations Management System (ATOMS).
                         Servers will be either replaced as they break
                         or migrated to the FAA Cloud.
 
  ix.                   In FAA Mission support, the AVS Flights
                         Standards, Registry Management System (RMS) for
                         Aircraft and Airman Infrastructure are EOL and
                         out of warranty. RMS is a critical system. A
                         project is underway to implement a technical
                         refresh strategy. The application
                         infrastructure and mainframe migration are a
                         part of that strategy.
 
  x.                    In FAA Mission support, the National Offload
                         Program (NOP) is a system of hardware and
                         applications that work together to retrieve,
                         store, and distribute NAS data from all ARTCCs,
                         STARS, and ARTS 2eAir Traffic Control Radar
                         facilities. It is not a critical system and
                         does not contain personal identifiable
                         information. The effort to upgrade the network
                         infrastructure and operating systems is
                         currently at 55 percent completion and expected
                         to be complete by September 2017.
 


    Question 23. How does your department's IT governance process allow 
for your department to terminate or ``off ramp'' IT investments that 
are critically over budget, over schedule, or failing to meet 
performance goals? Similarly, how does your department's IT governance 
process allow for your department to replace or ``on-ramp'' new 
solutions after terminating a failing IT investment?
    Answer. If I am confirmed, I would be please to arrange an update 
on this topic for you.

    Question 24. What IT projects has your department decommissioned in 
the last year? What are your department's plans to decommission IT 
projects this year?
    Answer. Please see response above.

    Question 25. The Federal Information Technology and Acquisition 
Reform Act of 2014 (FITARA, PL 113-291) directs CIOs to conduct annual 
reviews of their department/agency's IT portfolio. Please describe your 
department's efforts to identify and reduce wasteful, low-value or 
duplicative information technology (IT) investments as part of these 
portfolio reviews.
    Answer. Please see response to Udall question 15 above.

    Question 26. In 2011, the Office of Management and Budget (OMB) 
issued a ``Cloud First'' policy that required agency Chief Information 
Officers to implement a cloud-based service whenever there was a 
secure, reliable, and cost-effective option. How many of the 
department's IT investments are cloud-based services (Infrastructure as 
a Service, Platform as a Service, Software as a Service, etc.)? What 
percentage of the department's overall IT investments are cloud-based 
services? Does DOT have a Cloud strategy to encourage the use of Cloud 
computing solutions? If not, by when do you plan to have such a 
strategy in place?
    Answer. Please see response to Udall question 15 above.

    Question 27. Congress passed the MEGABYTE Act (PL 114-210) to 
encourage agencies to achieve significant savings in managing IT assets 
including software licenses. What policies or processes are in place at 
DOT to improve management of software licenses? What savings do you 
expect DOT to report by the end of FY 2017?
    Answer. I am told that DOT's OCIO is currently in the inventory 
stage of a software category management initiative. If I am confirmed, 
I would be pleased to arrange an update for you.

    Question 28. Provide short summaries of three recent IT program 
successes--projects that were delivered on time, within budget, and 
delivered the promised functionality and benefits to the end user. How 
does your department/agency define ``success'' in IT program 
management? What ``best practices'' have emerged and been adopted from 
these recent IT program successes? What have proven to be the most 
significant barriers encountered to more common or frequent IT program 
successes?
    Answer. These are important questions to ascertain the status of 
DOT's IT capability. And I share the view that modern IT capability 
increasingly affects how well an agency can perform it's mission. I 
look forward to learning more about this if I am confirmed. I would 
also offer to arrange an update for you and your staff.

    Question 29. Are you the beneficiary or trustee of any 
discretionary trust that has not been fully disclosed to the Committee 
or the Office of Government Ethics? If so, please provide detailed 
information about the trust(s).
    Answer. Not to my knowledge.

    Question 30. During a campaign speech in Ashburn, Virginia last 
August, President-elect Trump reportedly said that he would ``at least 
double'' Hillary Clinton's proposed $275 billion infrastructure plan. 
Yet he did not provide many details where the money to do this will 
come from. A campaign website describes ``leverag[ing] new revenues and 
work with financing authorities, public private partnerships, and other 
prudent funding opportunities.'' Can you shed more light on what the 
Trump infrastructure plan really is and how it will be funded?
    Answer. As I understand it, the Administration is currently 
evaluating all the various tools and opportunities for a new 
infrastructure plan. If confirmed, I would work within the 
Administration to ensure that a variety of strategies and options for 
all infrastructure investments are considered. Since I am not yet a 
part of these discussions, it would be premature for me to speculate on 
the details and effects of such a plan.

    Question 31. Some of my Congressional colleagues have reportedly 
expressed concerns about how to pay for a Trump infrastructure plan. 
There are news reports that estimate that a tax reform package could 
lead companies to repatriate up to $200 billion of overseas cash 
holdings. Such tax measures could be part of a broader agreement to 
help fund infrastructure upgrades with Federal investments. What level 
of direct Federal investment will be necessary to support a Trump 
infrastructure plan?
    Answer. Please see responses to question 20 of Senator Booker's 
Pre-Hearing Questions for the Record, and the response to Nelson 
question 1 above.

    Question 32. Would direct Federal investment to upgrade our 
Nation's infrastructure create jobs and promote economic growth?
    Answer. The Federal Government has invested hundreds of billions of 
dollars to preserve and improve our Nation's transportation 
infrastructure over the last several decades. However, the problems we 
face today in rebuilding and revitalizing our decaying transportation 
network are simply too great to rely on any one source alone. 
Addressing this challenge will require investment and commitment from 
all levels of government and the private sector to ensure that our 
transportation networks continue to play their vital role in supporting 
a thriving economy.

    Question 33. Your written statement notes that you want to work 
this committee on transportation needs in rural America. I am concerned 
that it may be easier to ``unleash private investment'' for 
transportation improvements in cities along the Interstate 95 corridor 
from New York to Washington than in smaller towns along I-40 from 
Gallup to Tucumcari. How will your Administration work to improve 
infrastructure projects that private investors may be reluctant to 
finance, especially where it may not be possible to recover costs 
through tolls and other user fees?
    Answer. As I understand it, there are a number of potential 
financing and funding options for encouraging greater private sector 
investment in infrastructure assets in a variety of geographic 
contexts, including rural infrastructure. Although I have not been 
employed at DOT during the last two months, I anticipate that the 
Administration will work to identify the unique challenges to 
attracting private investment in certain types of vital infrastructure 
and to develop innovative strategies to create incentives for 
investment.

    Question 34. Vehicle fuel efficiency has been a success story 
thanks to advances in technology that improve car mileage. Fuel 
efficiency save drivers money at the pump. Do you agree with the 
assessment of the Department of Transportation and the Environmental 
Protection Agency that there are more technologies to increase fuel 
efficiency available, and that they cost less than earlier projections 
believed would be the case? Will you work to further improve vehicle 
fleet fuel economy rather than rolling back standards?
    Answer. Please see responses to Nelson question 15, Schatz question 
25, and Booker question 3.

    Question 35. Senator Feinstein and I have worked for several years 
on the truck safety issue of so called ``twin 33s.'' Currently, thirty-
eight states including New Mexico do not allow these longer trucks to 
operate within their jurisdictions. One study estimates that twin 33s 
would put more wear and tear on our Nation's roads, adding $1.2 billion 
to $1.8 billion in maintenance costs per year. DOT has previously 
advised that there is currently not enough data to draw conclusions on 
the safety implications of double 33-foot trailers. DOT recommended 
that no changes to truck size be considered at this time. Given the 
cost and potential safety hazards, would you as Secretary require DOT 
to complete a comprehensive safety study before longer trucks are 
permitted on highways?
    Answer. Please see response to Blumenthal question 8.

    Question 36. Pipelines are a key component of our Nation's 
transportation infrastructure. Many Americans are probably not aware 
that they live, work, or pursue recreational activities near pipelines. 
Ensuring their safety is an issue I take very seriously. In 2000, a 
quiet summer morning was shattered when a gas pipeline ruptured and 
burst into flames near Carlsbad, New Mexico. The fireball could be seen 
twenty miles away. Tragically, twelve people who were camping along the 
Pecos River died. This was the worst pipeline accident in the 
continental United States. I wish I could say that it was the last. Yet 
tragedy struck again since then. I am concerned that PHMSA still has 
not done enough to prevent further pipeline catastrophes. What are your 
priorities for PHMSA's work related to pipeline safety?
    Answer. If confirmed, I would expect to work with the Pipeline and 
Hazardous Materials Safety Administration (PHMSA) to ensure that the 
Department is taking appropriate steps to promote the safe 
transportation of natural gas, petroleum, and other hazardous materials 
by pipeline.

    Question 37. Not far from the United State Senate, trains carry 
hazardous materials through the heart of Washington, D.C. In fact, all 
across the country, trucks and trains pass through communities carrying 
hazardous cargoes such as ammonia, chlorine, and highly flammable 
fuels. PHSMA has an important responsibility in ensuring the safe and 
secure shipment of these dangerous materials. What efforts should PHMSA 
undertake to improve safety and emergency preparedness? How can PHSMA 
better help local governments and communities with pipeline and 
hazardous materials safety and emergency preparedness?
    Answer. Please see response to Klobuchar question 4.

    Question 38. As in so many areas, U.S. military research helped 
develop and accelerate autonomous vehicle technology. Defense Advanced 
Research Projects Agency (DARPA), for example, successfully used 
challenge prizes for autonomous vehicles to reach beyond traditional 
partners and attract problem solvers from the wider research community. 
Prizes can also be a cost-effective way to spur innovation since one 
pays only for successful solutions rather than traditional research and 
development costs. Legislation I sponsored last year, the Science Prize 
Competitions Act (PL 114-329) encourages Federal agencies to use prize 
competitions as incentives for innovation. The Challenge.gov website 
notes that DOT has 13 active challenge prizes. Under your leadership, 
will DOT continue to use challenge prizes as one tool to help drive 
innovation?
    Answer. Challenge prizes have sometimes been effective in spurring 
innovation and addressing other technology problems, and in encouraging 
original uses of government data. If confirmed, I will work with 
Secretary Chao to consider all challenge prizes proposed by the 
Department to ensure that they are truly innovative challenges that 
will help address transportation needs.

    Question 39. Last year marked the National Park Service centennial. 
Will you commit to assisting the National Park Service in addressing 
the transportation infrastructure needs of America's national parks?
    Answer. If I am confirmed, I would anticipate that DOT would 
continue to assist its Federal land management agency partners, 
including the National Park Service, in the design and construction of 
appropriate highway and bridge projects.

    Question 40. As a member of the Senate Appropriations Committee, I 
supported a transportation funding bill that included $241 million for 
New Starts. Unfortunately, New Start projects cannot currently move 
forward due to the continuing resolution. Will you work in the 
Administration to support an appropriations bill for the remainder of 
Fiscal Year 2017 that allows New Starts projects to move forward?
    Answer. Please see responses to Nelson question 2, Schatz question 
39, and Booker questions 5 and 8, as well as response to question 5 
from Senator Nelson's Pre-Hearing Questions for the Record.

    Question 41. NHTSA is set to require that all light vehicles use 
dedicated short-range communications (DSRC) by 2023 but to date has not 
fully addressed critical vehicle security vulnerabilities in those 
vehicles. This could potentially result in NHTSA requiring drivers to 
use connected cars that have unreasonable cybersecurity risks. How will 
you ensure that NHTSA efforts to promote connected vehicle innovations 
will also adequately address cybersecurity risks?
    Answer. If confirmed, I would work to ensure that NHTSA is 
considering these and other risks as it looks to work with all 
stakeholders and the public to further improve the cybersecurity 
posture of vehicles.

    Question 42. My understanding is that NHTSA has not required 
automotive OEMs to develop and comply with a set of industry vehicle 
and DSRC security standards prior to selling those vehicles to the 
public. Do you believe this poses any potential cybersecurity or safety 
risk for consumers?
    Answer. See response above.

    Question 43. NHTSA's 5-Star Safety Ratings help consumers make 
informed decisions about safety when purchasing a vehicle. Should any 
compliance with industry vehicle and DSRC security standards be made 
transparent to consumers using ``star ratings'' or other ways to help 
consumers better understand the risks involved in their purchase?
    Answer. Consumer understanding and awareness is certainly one 
aspect of vehicle cybersecurity. Working with stakeholders and having a 
robust vehicle design are others. If confirmed, I will plan to confer 
with NHTSA about considering these and others as it looks to work with 
all stakeholders and the public to further improve the cybersecurity 
posture of vehicles.

    Question 44. A WalletHub study recently ranked my home state No. 4 
on a list of states that would be hardest-hit by a trade war with 
Mexico. In 2016, New Mexico exported over $1.5 billion in goods across 
our southern border. Significant transportation investments in Santa 
Teresa, for example, have helped facilitate trade and increase economic 
opportunity in southern New Mexico. But President Trump seems to be 
leading us to a trade war with Mexico. He has proposed a 35 percent 
tariff on goods coming from Mexico. Mexico's economy minister has 
reportedly indicated that a border tax on Mexican goods would lead to 
immediate retaliation by his country. Would a trade war with Mexico be 
good for the American transportation industry?
    Answer. Please see response to Udall question 9 above. If 
confirmed, I would look forward to working with the transportation 
community and the public to take all concerns and feedback into account 
as we move forward on key policy and planning initiatives.

    Question 45. The New Mexico Rail Runner Express is a state-owned 
commuter rail service operating from Belen to Albuquerque to Santa Fe. 
Rail Runner Commuter Service currently operates sixteen (16) on 
weekdays. My understanding is that Rail Runner has operated for over a 
decade with no PTC-preventable accidents. The state and the regional 
transit district that operates the Rail Runner face difficulty funding 
implementation and operations of PTC and will likely not meet the 
federally mandated PTC implementation deadline of December 31, 2018. 
Will you work with Rail Runner and the State of New Mexico to address 
the important safety requirements approved by Congress without risking 
a loss of service for the New Mexicans that depend on the Rail Runner?
    Answer. If confirmed, I would look forward to conferring with FRA 
to continue its efforts to provide necessary technical assistance and 
guidance to the New Mexico Rail Runner Express operation to ensure that 
it implements PTC in accordance with the existing Congressional 
mandates and existing regulations.

    Question 46. President Trump's budget proposal calls for 
transferring air traffic control from the FAA and to a non-governmental 
organization. My understanding is that the permissibility of Federal 
delegations of authority to private entities is relatively unsettled. 
However, delegations of regulatory and enforcement powers to private 
entities generally raise constitutional concerns. Can you share more 
specifics about President Trump's plan to shift the ATC function to a 
private entity and whether his approach will raise any issues involving 
an impermissible delegation of authority?
    Answer. As Secretary Chao indicated in her responses to Committee 
members following her nomination hearing, there will be a thorough 
Administration review of these issues, including constitutional issues. 
If confirmed, I would hope to assist the Secretary in the extensive 
evaluation the details of this proposal would entail, and I would 
ensure that the concerns you raise are thoughtfully considered.

    Question 47. In hearing testimony on the Regulatory Accountability 
Act of 2013 (available at http://judiciary.house.gov/_files/hearings/
113th/07092013/Rosen%
2007092013.pdf), you discussed regulation issues and ways to make the 
rulemaking process more efficient and consistent, including through 
greater use of cost-benefit analysis tools. When it comes to DOT 
safety-related regulations, how should cost-benefit analyses be used 
appropriately and how should DOT weigh the potential number of lives 
saved against the potential compliance costs for companies?
    Answer. Agencies should promulgate rules based on the requirements 
set in the laws that delegate the authority to establish the 
regulations, using the criteria establish in the law, that takes 
account of both cost-effectiveness and obtaining maximum public health, 
safety, and environmental benefits.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                          to Jeffrey A. Rosen
    Smart Cities. During 2015-2016, previous USDOT Secretary Anthony 
Foxx, led an interesting Smart Cities challenge that incorporated 
innovative transportation solutions for a single $40 million grant 
award.
    Question 1. Can you speak about your thoughts of that creative 
challenge and whether you envision projects that were applied for under 
that opportunity receiving Federal support under this administration?
    Answer. As I understand it, the Smart Cities Challenge provided an 
award to a single city, Columbus, Ohio, and also leveraged significant 
private sector capital to help cities implement their visions for 
innovation. It is my understanding that many of the cities that did not 
win an award have continued to pursue the visions they developed as a 
result of the Challenge. Secretary Chao has been clear that innovation 
will be a top priority and, if confirmed, I would look forward to 
working on new initiatives to spur innovation, both in the private 
sector and in State and local government. As to Federal support for 
other projects that submitted applications to the Smart Cities 
challenge, it is premature for me to address that, but if confirmed, I 
may plan to receive additional information about that award program.

    DBE Program. A priority I raised in our individual meeting was 
about having a strong Disadvantaged Business Enterprise (DBE) program.
    Question 2. Can I get your opinion on the effectiveness of that 
program at USDOT?
    Answer. As indicated by Secretary Chao in her responses to the 
Committee following her nomination hearing, current law provides the 
DBE programmatic requirements. If confirmed, I would join her in 
pursuing equal application of the law and fulfilling the Department's 
legal obligations.

    Question 3. And I get your commitment that during your time at the 
department that you'll work diligently to ensure the properly managed 
and administered program for contractors like those I have in Nevada?
    Answer. If confirmed, I would work with DOT staff to try to ensure 
that the DBE program is being properly and lawfully administered.

    Hiring Freeze. The President has signed White House executive 
orders to implement a hiring freeze for the majority of Federal 
agencies--including many who handle vital aspects of our daily life, 
such as cyber or IT security and public safety, like at USDOT As well 
as many areas where the Nation's economy could be stymied, all of which 
are places where the Federal Government's lack of staffing could be 
detrimental.
    Question 4. Do you have an understanding on how many vacancies you 
have at USDOT that will be going unfilled?

    Question 5. And how many are related to public safety, at FTA, FRA, 
FMCSA, PHMSA, NHTSA, for example?

    Question 6. I'm aware there is a waiver process for important 
safety positions. Do you know how many waivers that USDOT Secretary 
Chao has applied for so far to meet the need of staffing your vital 
department?
    Answer. I am told that Secretary Chao has exercised her authority 
as the head of an agency to approve certain exceptions to the hiring 
freeze because the positions approved were necessary to ensure the 
safety of the traveling public. . If I am confirmed, I would be pleased 
to request that additional information be provided to you and the 
Committee.

    Question 7. These are serious concerns that come from what I can 
only imagine even an accomplished public servant like you, who have 
handled countless Federal Government personal decisions, would consider 
ill-advised or cumbersome to you effectively doing the job for which 
you've been appointed. Would you agree?
    Answer. While my years in public service at DOT and elsewhere have 
shown me of the quality of various personnel and programs, more can 
always be done to bring effectiveness to government. President Trump 
has recently established an Office of American Innovation in the White 
House to focus on this on behalf of the American public.

    Regulatory EO. Another issue, that you as a former OMB staffer 
might have insight on, is the regulatory ``2 for 1'' Executive Order.
    Question 8. Can you please explain how you understand that action 
will be enforced in your capacity at USDOT?
    Answer. Executive Order 13771, ``Reducing Regulation and 
Controlling Regulatory Costs'', is a managerial tool for prioritizing 
new regulations, and it creates an incentive to identify existing 
regulations that no longer serve well. For DOT, safety will remain the 
top priority. In terms of regulations that are outdated, there are 
multiple tools to identify those, and if confirmed, I would look 
forward to trying to make that process successful at enhancing safety 
while doing so in the most cost-effective way.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maggie Hassan to 
                            Jeffrey A. Rosen
    Question 1. Transportation Investment Generating Economic Recovery 
Grants: In January of this year, Secretary Chao testified before our 
Committee and discussed the TIGER Grant program. She noted that these 
grants were ``one area of great agreement'' in Congress and also noted 
that the funding levels for this program were a ``modest sum.'' Yet the 
President's proposed budget eviscerates this program. Do you agree with 
the proposed elimination of TIGER grants? If confirmed, how do you plan 
to ensure critical projects like the Memorial Bridge and the Sarah 
Mildred Long Bridge in New Hampshire receive the funding and support 
they need?
    Answer. Please see responses to Blumenthal question 53 and Booker 
question 8, and response to question 2 of Senator Klobuchar's Pre-
Hearing Questions for the Record.

    Question 2. Essential Air Service: The President's budget proposal 
also eliminates the EAS program, which rural communities depend on for 
commercial air service. Lebanon Airport in New Hampshire relies on the 
EAS program as do rural communities across the country in states like 
Texas, Nevada, Nebraska, Alaska, and so many others. If the President's 
proposed budget becomes a reality, what is your plan to keep rural 
communities connected to broader transportation services?
    Answer. Please see response to Udall question 6, as well as my 
remarks and responses at the nomination hearing on March 29, 2017. If 
confirmed, I will work with the Committee and Congress to explore ways 
to keep small or rural communities connected to the national 
transportation system.

    Question 3. Safety: The number one job of government is protecting 
public safety, If confirmed, how will you prioritize safety across all 
transportation modes?
    Answer. As Secretary Chao has emphasized, safety is the number one 
priority for the Department of Transportation. If confirmed, I would 
expect to participate with her and the rest of the Departmental 
leadership in ensuring that this priority is fulfilled across all 
transportation modes.

    Question 4. Commuter Rail: I have long supported efforts to bring 
commuter rail up from Boston to New Hampshire, which would improve 
access to jobs and economic opportunities for our entire region, and 
would have the net benefit of reducing congestion on our roads. A 
project of this magnitude will require Federal support to enhance our 
state and local efforts. Are you committed to ensuring support for a 
vibrant commuter rail system in this country?
    Answer. Commuter rail services play an important role in our 
Nation's transportation system. As a nominee, I am not familiar with 
the specifics of proposals to establish commuter rail service between 
Boston and New Hampshire. If I am confirmed, I would be interested to 
learn more about this initiative.

    Question 5. Automation. The trucking industry plays a critical role 
in my state and around the country. The previous Administration 
announced a working group on automation consisting of various public 
and private sector stakeholders as well as innovators, labor, and 
academia. Do you agree that there is value in a multi-stakeholder 
process to prepare for future technologies? Do you support the 
continuation of this working group under the current Administration?
    Answer. While it would be premature for me as a nominee to address 
the continuation of this particular working group, there is sometimes 
value in the Department engaging in multi-stakeholder processes to 
prepare for the safe and economic application of technologies. 
Automation presents important challenges, as I noted at my nomination 
hearing on March 29, 2017. If I am confirmed, I would look forward to 
engaging with a wide range of stakeholders and the public to address 
the important issues associated with this topic.
                                 ______
                                 
  Response to Pre-hearing Questions Submitted by Hon. Bill Nelson to 
                            Jeffrey A. Rosen
    Question 1. What lessons did you learn in your previous experience 
at the Department of Transportation and the Office of Management and 
Budget that you would bring to your job as the Deputy Secretary of 
Transportation?
    Answer. One of the things I came to appreciate from my prior public 
service was the importance of DOT officials having good communication 
and working relationships with the members of Congress, and I would 
certainly regard that as an important part of my job if I am confirmed 
to serve again at DOT.

    Question 2. Many transportation projects require Federal funding to 
get them over the finish line. While financing can be a helpful tool, 
what is your philosophy on Federal funding to support transportation 
projects? Do you believe there is a need for increased funding for 
infrastructure?
    Answer. From what I have seen, the Administration has indicated 
that diverse sources of funding to include state and local funds, 
Federal support, Federal credit and finance, as well as private capital 
can be better leveraged to address our national infrastructure needs. 
Although I am not yet at DOT, I anticipate that the Administration's 
future infrastructure proposal will contain new and innovative 
approaches that will also be an important part of the overall strategy 
to meet our national infrastructure needs.

    Question 3. Ports, freight, and rail have traditionally received a 
much smaller share of Federal transportation funding as compared to 
highways, even though this infrastructure system must work together to 
drive the economy and move goods. The President's budget proposal would 
further cut these priorities by eliminating funding for the TIGER grant 
program. Do you believe that current Federal funding is sufficient to 
support the needs of our freight system?
    Answer. There is no doubt that efficient freight movement is 
critical to our national economy. I am not yet at DOT, but if I am 
confirmed, I expect to be a participant in the budget process and 
decision making and would look forward to obtaining the data to better 
assess what is needed.

    Question 4. Many small and rural towns rely on dependable Amtrak 
service to support tourism and travel. Passenger rail service not only 
supports infrastructure jobs in the region, but it also can help 
support jobs at small businesses along Amtrak routes. Do you support 
Federal funding for Amtrak? Do you support increased funding to help 
communities establish and restore rail lines and stations? Do you 
support long distance rail service?
    Answer. I believe that intercity passenger rail is important and 
necessary. In the past, I have held the view that Amtrak was in need of 
reform. I am not current on the present status, but I have heard that 
it has made some progress. I am in favor of some Federal funding for 
intercity rail, and I think the needs of the communities are an 
important issue that needs attention.

    Question 5. Many transit systems are in need of increased Federal 
funding to help with necessary expansion. Do you support increased 
funding for transit systems, which are critical to moving the workforce 
and supporting development?
    Answer. My understanding is that, under the President's direction, 
the White House is leading the effort to put together a package to 
rebuild, refurbish and revitalize our country's critical 
infrastructure.

    Question 6. What are your views on the administration's intention 
in its latest budget proposal to shift air traffic control services 
from the Federal Aviation Administration (FAA) to an independent, non-
governmental organization? Do you share my concern that the transition 
to such a system could be disruptive, potentially costly, and would 
invoke significant questions of national security, given the complex 
relationship between the FAA and the Department of Defense?
    Answer. There seems to be wide agreement on the need to modernize 
the FAA's air traffic control technologies, often referenced as 
NextGen. There is not always agreement on how to accomplish that goal. 
Your question addresses some of the significant issues involved in the 
Administration's proposal to shift Federal Aviation Administration 
(FAA) air traffic control functions out of the FAA to an independent 
entity. As Secretary Chao indicated in her responses to Committee 
members following her nomination hearing, there will be a thorough 
Administration review of these issues, including costs, safety, the 
effect on rural areas, and any impact on the Department of Defense. If 
confirmed, I would hope to assist the Secretary in the extensive 
evaluation the details of this proposal would entail, and I would 
ensure that the concerns you raise are thoughtfully considered. Of 
course, Congress would have to enact this significant reform.

    Question 7. Please list all court cases and regulatory actions in 
which you served as counsel for the Chamber of Commerce of the United 
States of America from 2009 until the present. To the extent 
applicable, please include, at a minimum, the case caption, venue, date 
of filing, and a summary of the matters involved.
    Answer. To the best of my recollection and available records:

  a)  Yates v. United States, No.13-7451 (U.S. Supreme Court, decided 
        2/25/2015) (holding that Sarbanes-Oxley Sec. 1519 does not 
        apply to commercial fishing vessel's disposition of fish).

  b)  UARG v EPA, Nos. Nos. 12-1272 (U.S. Supreme Court, decided 6/23/
        2014) (rejecting erroneous EPA legal interpretations of statute 
        in promulgating regulations concerning PSD permits); and 
        earlier proceedings below regarding set of EPA rules.

    Question 8. Please list all court cases and regulatory actions in 
which you served as counsel for General Motors from 2009 until the 
present. To the extent applicable, please include, at a minimum, the 
case caption, venue, date of filing, and a summary of the matters 
involved.
    Answer. To the best of my recollection and available records, I did 
not appear as counsel for General Motors in any cases during that 
period of time. During my years at Kirkland & Ellis LLP from 1982-2003, 
I had represented General Motors in numerous cases, but not in recent 
years.

    Question 9. Please list all court cases and regulatory actions in 
which you served as counsel for Hyundai from 2009 until the present. To 
the extent applicable, please include, at a minimum, the case caption, 
venue, date of filing, and a summary of the matters involved.
    Answer. To the best of my recollection and available records, I did 
not appear as counsel for Hyundai during that period of time. During my 
years at Kirkland & Ellis LLP from 1982-2003, I had represented Hyundai 
Motor America, but not in recent years.

    Question 10. Please detail the nature and extent of all work you 
have performed for the Cargo Airline Association.
    Answer. To the best of my recollection and available records, I 
represented the Cargo Airline Association with regard to FAA's Flight 
Crew Member Duty and Rest Requirements, 77 Fed. Reg. 330-01 (Jan. 4, 
2012), in which the Cargo Airline Association ultimately intervened on 
the side of FAA in litigation filed against the final rule by the 
Independent Pilots Union in the U.S. Court of Appeals for the District 
of Columbia. On March 24, 2016, the D.C. Circuit rejected the petition 
and affirmed the rule in a per curiam opinion. IPA v FAA, No. 11-1483 
(March 24, 2016).

    Question 11. Please detail the nature and extent of all work you 
have performed for BNSF Railway.
    Answer. To the best of my recollection and available records, I 
have represented BNSF in two significant but confidential commercial 
arbitration matters involving disputes with a customer. In addition, I 
have provided advice regarding compliance with Federal law on some 
occasions.

    Question 12. Please detail the nature and extent of all work you 
have performed for Kapsch Trafficom North America.
    Answer. To the best of my recollection and available records, I 
have assisted KTNA in intellectual property litigation pending in 
Federal court in Delaware, at the International Trade Commission, and 
in certain proceedings before the Patent and Trademark Office. In 
addition, I have provided KTNA with advice regarding a procurement-
related litigation that was pending in Florida.

    Question 13. Please detail the nature and extent of all work you 
have performed for the U.S. Chamber Institute for Legal Reform.
    Answer. To the best of my recollection and available records, I 
have advised ILR from time to time about various Federal statutes and 
legal requirements, and of legal developments in the courts.
                                 ______
                                 
 Response to Pre-hearing Questions Submitted by Hon. Amy Klobuchar to 
                            Jeffrey A. Rosen
    Question 1. One area where I believe there is room for bipartisan 
cooperation with the Administration is investing in our Nation's 
infrastructure. In Minnesota, we saw the cost of neglecting our 
infrastructure on August 1, 2007, when the I-35W Bridge collapsed into 
the Mississippi River, killing 13 people and injuring many more. Senate 
leaders have released an infrastructure plan that would invest $1 
trillion to modernize the Nation's infrastructure and increase our 
economic competitiveness.
    Can you elaborate on how you think the administration can work with 
Congress to advance necessary infrastructure investments?
    Answer. As I understand it, the Administration is currently 
evaluating all the various tools and opportunities for a new 
infrastructure plan. If confirmed, I will work within the 
Administration to ensure that a variety of strategies and options for 
all infrastructure investments are considered. Since I am not yet a 
part of these discussions, it would be premature for me to speculate on 
the details and effects of such a plan.

    Question 2. The TIGER Discretionary Grant Program supports 
innovative projects, including multi-modal and multi-jurisdictional 
projects, which are difficult to fund through traditional Federal 
programs. In Minnesota, a $17.7 million 2016 TIGER Grant is helping to 
fund construction of a highway freight interchange in Scott County that 
will improve the flow of freight through the area and increase safety 
throughout the region. The President's proposed budget eliminates the 
TIGER Discretionary Grant Program. Without TIGER Grant funding, many 
communities will not be able to make necessary improvements to local 
infrastructure.
    Why has this program been eliminated?
    Answer. As I am not yet at DOT, I am not able to speak directly to 
such decisions. I am aware that the TIGER Program, first enacted as 
part of the Recovery Act in 2008, has not been formally authorized as 
part of a long-term surface transportation bill. Many projects funded 
by TIGER are eligible under DOT's other mandatory highway and transit 
formula programs. It is my understanding that the Nationally 
Significant Highway and Freight Projects discretionary grant program 
provides DOT the ability to award competitive grants to projects of 
national or regional significance. Additionally, I anticipate that the 
Administration's Infrastructure proposal will provide an important 
capability for the Department to address our Nation's transportation 
Infrastructure needs as well.

    Question 3. As co-chair of the Senate Broadband Caucus, I led a 
letter to President Trump in January signed by 48 Senators urging that 
broadband be included in any infrastructure package. Expanding access 
to broadband is the infrastructure challenge of our generation and 
fast, affordable Internet is essential for consumers and businesses of 
all sizes. Unfortunately, many areas of the country, particularly rural 
and low-income communities, still do not have access to quality 
broadband.
    Do you believe that broadband infrastructure should be included in 
infrastructure investment efforts?
    Answer. Speaking only for myself at this point, the answer is yes.

    Question 4. I have introduced legislation which would increase 
coordination when federally-funded highways are being constructed so 
that broadband infrastructure is installed at the same time . . . in 
other words, to only ``dig once.''
    Do you believe it is important for the Department of Transportation 
to be preparing our Nation's infrastructure for the demands of the 21st 
century economy through policies like dig-once?
    Answer. Your question highlights the parallels between conventional 
highway construction and the physical components of the broadband 
digital network that underlies the internet. With regard to the 
inclusion of broadband construction in the Administration's 
infrastructure initiative, Secretary Chao indicated in her nominee 
responses to the Committee that the Department will be reviewing and 
considering all of the options available for the infrastructure plan. 
As soon as that proposal has taken shape, she intends to share it with 
Congress.
    Additionally, I note that President Trump has just established the 
White House Office of American Innovation. That Office will enlist the 
expertise that the private sector has to offer and will be looking at 
transformative projects.

    Question 5. In the last Congress, I introduced the Stop Trafficking 
on Planes Act to require training for flight attendants to recognize 
and report suspected human trafficking. A provision based on my bill 
became law as part of the FAA Extension, Safety, and Security Act of 
2016. But human trafficking doesn't just happen on airplanes. Truck 
drivers, like flight attendants, are also on the front lines of the 
battle since one of the best times to identify human trafficking is 
during travel. Many truckers want to be helpful in the fight and groups 
like Truckers Against Trafficking are training truckers to identify and 
report human trafficking. I am working on legislation to help ensure 
they have the resources they need to be effective partners in combating 
human trafficking.
    Will you work with me to find ways the Department of Transportation 
can support private sector initiatives to fight human trafficking 
across all modes of transportation?
    Answer. Yes, I will work with you to find ways the Department can 
support private sector initiatives to fight human trafficking across 
all modes of transportation. I am told that, since 2012, the Department 
has worked closely with stakeholders on various human trafficking 
initiatives under the Department's initiative, Transportation Leaders 
Against Human Trafficking. The Department has also worked with the 
Department of Homeland Security to ensure that 70,000 airline personnel 
have been trained in how to recognize and report cases of Human 
Trafficking. The Department has facilitated similar training to Amtrak 
personnel, and has mandated Human Trafficking training for the 
Department's 55,000 employees. If I am confirmed, I will look forward 
to working with you to see how we can do more with the transportation 
industry.

    Question 6. Along with Senator Risch, I have been a leading 
advocate for the Recreational Trails Program, which is extremely 
important to my state. It's an issue that brings together cross-country 
skiers, bicyclists and the motorized vehicle community. It funds off-
highway vehicle, snowmobile and non-motorized trail uses and derives 
its funding from gas taxes paid by off-highway vehicle users when they 
fill up their machines.
    Are you committed to listening to all trail users for ideas on how 
this program can be improved?
    Answer. From my prior years at the Department of Transportation, I 
am confident that the program offices across the Department are 
receptive to public input and new ideas for program improvements, 
including the Recreational Trails Program. If confirmed, I would expect 
the various program offices to operate in a manner that is receptive to 
recommendations for improvement from the public.
                                 ______
                                 
Response to Pre-hearing Questions Submitted by Hon. Richard Blumenthal 
                          to Jeffrey A. Rosen
    Question 1. Do you receive a financial benefit over any offshore 
company or entity? If yes, please describe.
    Answer. Not to my knowledge. The Public Financial Disclosure Report 
(OGE 278e) that I submitted and that was transmitted to the Committee 
lists the securities that I hold with values that exceed $1000 or that 
produced more than $200 of income. To the extent that any security that 
I hold may have been issued by a foreign entity, the financial benefit 
that I receive from that security does not differ from the benefit to a 
member of the general public who holds that same security.

    Question 2. Do you exercise control over any offshore company or 
entity? If yes, please describe
    Answer. No.

    Question 3. Do you have signature authority over any offshore 
accounts? If yes, please describe.
    Answer. No.

    Question 4. Have you taken or given a loan to a foreign official or 
a family member or individual business entity controlled by that 
foreign office? If yes, please describe.
    Answer. No.

    Question 5. Are you subject to challenges or audits by any revenue 
agency anywhere in the world? If yes, please describe.
    Answer. Not to my knowledge.

    Question 6. Do you have any investments in vehicles intended to 
reduce tax liability? If yes, please describe.
    Answer. I am not aware of holding any investments intended for that 
purpose in the sense of tax-shelters, but like many Americans I have 
retirement accounts (such as IRAs, 401k, TSP) that have tax advantages.

    Question 7. Please list sources and amounts of all income received 
during the calendar year preceding your nomination and for the current 
calendar year, including all salaries, fees, dividends, interest, 
gifts, rents, royalties, licensing fees, honoraria, and other items 
exceeding $500 or more (if you prefer to do so, copies of the financial 
disclosure report, required by the Ethics in Government Act of 1978, 
may be substituted here).
    Answer. Please refer to my responses to Part E (confidential) of my 
Commerce Committee Questionnaire responses, and to my OGE 278 Financial 
Disclosure Report.

    Question 8. Please list the sources, amounts and dates of all 
anticipated receipts from deferred income arrangements, stocks, 
options, uncompleted contracts and other future benefits which you 
expect to derive from previous business relationships, professional 
services, firm memberships, former employers, clients or customers. 
Please describe the arrangements you have made to be compensated in the 
future for any financial or business interest.
    Answer. Please refer to my responses to Part E (confidential) of my 
Questionnaire responses, and to my OGE 278 Financial Disclosure Report.

    Question 9. Potential Conflicts of Interest: a. Please identify the 
family members or other persons, parties, affiliations, pending and 
categories of litigation, financial arrangements or other factors that 
are likely to present potential conflicts-of-interest when you first 
assume the position to which you have been nominated. Please explain 
how you would address any such conflict if it were to arise. b. Please 
explain how you will resolve any potential conflict of interest, 
including the procedure you will follow in determining these areas of 
concern.
    Answer. Please see Part B of my Questionnaire responses. As noted 
there, in connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with DOT's Designated Agency Ethics Official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
                                 ______
                                 
  Response to Pre-hearing Questions Submitted by Hon. Brian Schatz to 
                            Jeffrey A. Rosen
    Question 1. Please describe all business relationships which you 
have had during the last 10 years where your past or former client may 
reasonably have issues before the Department of Transportation and this 
committee during your tenure in the position that you have been 
nominated to hold. For each client, please detail your work and 
specific issues where you consulted or provided legal advice.
    Answer. Please see response nos. 10-12 to questions from Senator 
Bill Nelson above. In addition, to the best of my available records and 
recollection, the following two former clients might reasonably be 
anticipated to have issues before DOT or the Committee at some time:

    I represented the Airlines for America in a lawsuit against the 
FAA, titled Airlines for America v. FAA, No. 13-1140 (D.C. Cir. April 
19, 2013), which challenged the manner in which the FAA had implemented 
the budget sequester as inconsistent with the statutory language. 
Shortly thereafter, Congress itself clarified that FAA had the 
authority to transfer funds and mitigate the problems about which A4A 
had sought relief, in the Reducing Flight Delays Act of 2013, Public 
Law 113-9 (May 1, 2013).
    I represented Raytheon Technical Services Company in the defense of 
a lawsuit brought by the Washington Consulting Group, WCG v Raytheon, 
2010 CA 000296 B (D.C. Superior Court, filed in 2010, and summary 
judgment granted in favor of defendant on March 7, 2013). The case 
involved allegations that Raytheon had won an FAA contract to train air 
traffic controllers by theft of plaintiff's trade secrets; the court 
entered judgement against those claims and in favor of Raytheon.

    Question 2. Describe any activity during the past 10 years in which 
you have engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy. This includes 
providing legal, policy, or political services.
    Answer. Please refer to my response to sections B.6. of my Commerce 
Committee Questionnaire responses.
  Response to Pre-hearing Questions Submitted by Hon. Cory Booker to 
                            Jeffrey A. Rosen
Gateway Program/Northeast Corridor Investment
    Question 1. As you may know, a recent economic analysis of the 
Gateway Program demonstrated that every dollar invested in the Program 
returns $4 in economic benefits to the region. As the Northeast 
Corridor contributes some 10 percent of the Nation's Gross Domestic 
Product, how important do you believe this project is to the national 
economy?
    Answer. As a nominee, I am not yet familiar with the economics of 
the Gateway Program, and I would like the opportunity to learn much 
more about the project before commenting on its importance to the 
national economy.

    Question 2. The current Hudson River tunnels were built in 1910 and 
suffered extreme damage during Superstorm Sandy. The 450 NJ Transit and 
Amtrak trains that use the tunnels each day are at risk of a complete 
disruption if new tunnels are not built. I have worked closely with 
Senators Menendez, Schumer, and Gillibrand along with Secretary Foxx, 
Governor Christie, and the Port Authority to advance the Gateway 
Program. Can you commit to partner with New Jersey and New York to 
prioritize investment and expedite the completion of the Gateway 
Program?
    Answer. It is my general understanding that the President's 
Infrastructure Task Force will be evaluating projects of this nature 
and importance to balance the complementary roles that localities and 
the Federal Government should play in financing these large projects.

    Question 3. What's your plan to streamline environmental reviews, 
planning and construction of the full Gateway Program including a new 
Hudson River Tunnel, an expanded Penn Station and other associated 
infrastructure?
    Answer. I understand that the current plan for efficiently 
delivering the Gateway program would be a multipronged approach that 
streamlines multiple environmental review processes, coordinates 
planning activities among the Department's modes, and explores logical 
phasing of and funding for construction activities. If confirmed, I 
will receive a briefing on this project, but until I am fully briefed 
on this matter, it would be premature to comment on its specific 
aspects.

    Question 4. I believe we must take a holistic approach to improving 
our Nation's transportation network. Modes work together to provide a 
network of mobility and sometimes investments in a single mode can 
enhance the whole network by reducing demand or generating efficiency 
in other modes as a secondary impact. When the Federal Government 
invests in our intercity and commuter railroads on the Northeast 
Corridor, we are also investing in our highway and aviation systems by 
removing cars from roads and bridges and freeing up slots at congested 
airports. Do you agree that it is essential to consider this when 
looking at the overall transportation network in the U.S.?
    Answer. Yes. Taking a holistic view of the entire transportation 
system and recognizing the interdependence between different modes of 
transportation is essential to ensuring that our transportation system 
functions efficiently. While we have made great progress towards a more 
fully integrated transportation system, there is still more work to be 
done to ensure that different modes of transportation view each other 
as complementary pieces of the Nation's transportation network.

    Question 5. The Amfleet 1, single-level passenger cars dating from 
the mid-1970s is the backbone of Amtrak's Northeast Corridor Regional 
and eastern State-Supported passenger car fleet. It is approaching the 
point where it will require complete rebuilding or replacement. 
Purchasing new equipment will be more cost-effective and will improve 
Amtrak's product, enhance customer experience, lower maintenance cost, 
increase safety and accessibility and support domestic manufacturing. 
Investment in this type of product will create a number of good jobs in 
this industry. Would this type of job creating investment be a priority 
for your department?
    Answer. Even though I have not had briefings on Amtrak, it is clear 
that there is a lot to consider regarding Amtrak. We need to look at 
the whole concept of Amtrak--what service it is now providing, what 
service we want it to provide in the future, what the costs are, and 
what new technology or equipment may be needed. It would be premature 
to speak to the replacement of Amtrak's Amfleet before going through 
this process. If I am confirmed, I would expect to play a role in the 
process of evaluating this and other matters involving passenger rail 
service.
Budget Cuts
    Question 6. President Trump has promised to invest one trillion 
dollars in our Nation's infrastructure. However, in President Trump's 
budget blueprint, the administration proposed a 13 percent cut to the 
Department of Transportation including zeroing out the Federal Transit 
Administration's New Starts program. As you know, New Starts is 
critical to funding the Gateway Program, which includes construction on 
the portal bridge scheduled to begin next year. Do you oppose the 
proposed cuts to the New Starts program in order to make sure Federal 
funds are available to begin construction on the Gateway Program? 
Should you be confirmed, will you support increasing funding to New 
Starts?
    Answer. I am generally aware of the significance of the Gateway 
Program to the people of New Jersey and surrounding jurisdictions, as 
well as Northeast Corridor travelers. Also, I assume that the 
Administration recognizes that strong transportation infrastructure 
directly contributes to a secure nation and economic growth. In support 
of these goals, I am told that the President has created an 
Infrastructure working group led by the National Economic Council that 
is reviewing all infrastructure needs to ensure that funding is 
allocated efficiently and effectively to maximize returns on 
infrastructure investments. While the outlined FY 2018 Budget Request 
does not include new Full Funding Grant Agreements, I do not know what 
the President's infrastructure proposal will be. I believe the 
Infrastructure Task Force will be evaluating projects of this nature to 
balance the complementary roles that localities and the Federal 
Government should play in financing the projects.
Truck Safety
    Question 7. Every year, over 4,000 people are killed and nearly 
100,000 are injured in large truck crashes. In 2015, 4,067 people were 
killed in crashes involving large trucks. This is an increase of more 
than 4 percent from the previous year and a 20 percent increase from 
2009. Further, this is the highest fatality number since 2008. Early 
release data for 2015 shows that 116,000 people were injured in crashes 
involving large trucks, which is an increase of 57 percent since 2009.
    I am concerned that in recent years we have seen rollbacks in 
common sense truck safety protections, and I want to make sure that we 
can work together to reduce fatalities on our roads.
    Can you please describe your plan to address the rising rate of 
fatalities from large truck crashes?
    Answer. Every fatality on our Nation's roadways is a tragedy, and I 
share your concern with recent increases in crashes of large trucks. As 
Secretary Chao has emphasized, safety is the number one priority for 
the Department of Transportation. If confirmed, I would expect to 
participate with the Federal Motor Carrier Safety Administration 
(FMCSA) to leverage technology and advance programs that address non-
compliant motor carriers and drivers, and to reduce distracted driving 
and other unsafe driving behaviors in all driving populations. This 
would involve working closely with States and other stakeholders to 
identify safety issues and develop strategies to reduce crashes.

    Question 8. During your confirmation hearing, you noted that 
workers cannot protect themselves and they need the protection of 
Federal regulations. If confirmed, will you prioritize issuing 
regulations that protect truck drivers, specifically the rule requiring 
most commercial motor vehicles to install speed limiters?
    Answer. If confirmed, I would expect to work with Secretary Chao to 
ensure safety remains the top priority of the Department. Reducing 
truck and bus crashes and the associated fatalities and injuries is 
covered by the focus on safety. One element of this focus would be to 
work with the new leadership of the National Highway Traffic Safety 
Administration and the Federal Motor Carrier Safety Administration to 
determine what actions should be taken to regarding speed limiters.

    Question 9. Will you reject any weakening of rules that protect 
truck drivers such as the Hours-of-Service and Electronic Logging 
Device regulations?
    Answer. If confirmed, I would fully support Secretary Chao's 
commitment to improve truck and bus safety and to ensure the Department 
has data-driven approaches to safety regulations and enforcement. I am 
told that the statutorily-mandated Electronic Logging Device rule 
published in 2015, was recently upheld by the 7th Circuit U.S. Court of 
Appeals.

    Question 10. Will you commit to ensuring that the Department will 
not advance policies that can be used to justify requiring truck 
drivers to operate larger and heavier trucks?
    Answer. I recognize there is a lack of consensus on truck size and 
weight. The Moving Ahead for Progress in the 21st Century Act (MAP-21) 
required the Department to study the impacts of trucks operating at or 
within Federal truck size and weight limits and trucks legally 
operating in excess of Federal limits. The report that U.S. DOT 
provided to Congress last summer suggested that there are significant 
data gaps and insufficiencies in the models that limit the ability to 
extrapolate the results across the national system. The study 
recommended further research was necessary in order to fully understand 
the impacts of any change in existing Federal truck size and weight 
limits. If confirmed, I would ensure that DOT's relevant modal 
administrations will continue to pursue opportunities to further 
develop this body of research.
Technology and Innovation
    Question 11. The previous administration went to great lengths to 
promote the use of technology in the transportation sector. From 
working to remove regulatory barriers for unmanned aerial systems 
(UAS), to the creation of a Federal automated vehicle policy, to 
implementing the Smart City Challenge, technology and innovation were 
at the forefront of solving our most pressing transportation and safety 
challenges.
    How do you plan to harness new technologies at the Department of 
Transportation (DOT)?
    Answer. I echo Secretary Chao's view in her response to the 
Committee following her hearing that the private sector is the best 
source for ready-to-deploy technologies and innovations. A number of 
nascent technologies, such as autonomous vehicles, and advanced 
automation in all sectors, bear promise for advancing transportation 
safety across all modes. If confirmed, I would hope to work with 
Secretary Chao on a flexible regulatory environment that encourages 
development and deployment of these innovations, addressing safety 
challenges in close coordination with our partners in industry; state, 
local and Tribal governments; and universities to apply appropriate 
technology solutions to meet urgent local and regional needs.
Autonomous Cars/Persons with Disabilities
    Question 12. As you may know, the emergence of self-driving cars 
holds great promise for many people who have traditionally been 
disenfranchised. These autonomous vehicles can help provide greater 
independence to older Americans and persons with disabilities, 
providing them greater access to employment opportunities and health 
care.
    Do you plan to explore the benefits of autonomous cars for persons 
with disabilities?
    Answer. In my view, autonomous vehicles have a tremendous potential 
to provide benefits to a wide variety of Americans, including the 
elderly and persons with disabilities. If the technologies are 
successful, I would look forward, if confirmed, to working with 
Secretary Chao and Congress to pursue these benefits and ways to safely 
incorporate the technology into widespread use.
Rail Safety
    Question 13. I am also deeply concerned about urgent passenger rail 
safety issues. Last September, a New Jersey Transit commuter train 
crashed into the station terminal in Hoboken, New Jersey killing one 
person and injuring over 100. In 2015, an Amtrak derailment along the 
Northeast Corridor outside Philadelphia killed eight people and injured 
over 200. And again last week, a train derailed on the Long Island 
Railroad, injuring over 100 people. While the National Transportation 
Safety Board (NTSB) has yet to make a determination on whether the 
absence of the safety system known as ``Positive Train Control'' was a 
contributing factor in Hoboken or Long Island, we know it was in the 
Amtrak incident. Positive Train Control is a critical system that 
stands to prevent similar disasters in the future, but installation of 
the system is moving slowly across the Nation's railroads.
    Will you make Positive Train Control implementation a top priority 
for DOT?
    Answer. If confirmed, I look forward to working with Secretary Chao 
and the Federal Railroad Administration to oversee the rail industry's 
progress implementing PTC systems.
Key Transportation Programs
    Question 14. USDOT's successful TIGER program has granted millions 
of dollars for innovative port, roadway, transit and other multimodal 
projects throughout the US. Additionally, the Federal Transit 
Administration's New Starts, Small Starts, and Core Capacity programs 
have helped to fund light rail, commuter rail, heavy rail, streetcar, 
and bus rapid transit bus rapid transit projects. Given the vast demand 
for these grants across the country, how do you plan to ensure adequate 
funding levels for critical discretionary and competitive grant 
programs that create jobs, spur economic development, and help to 
rebuild our Nation's infrastructure?
    The port of New York-New Jersey, the largest on the east coast, 
expects increases in demand in the coming years while also continuing 
to grapple with truck congestion and air quality issues. How do you 
plan to ensure adequate investment in major seaports that are key 
economic drivers for the entire nation?
    Answer. While the Administration's budget recommends eliminating or 
cutting funds for several programs, such as TIGER and several programs 
within the Federal Transit Administration, the President will also be 
proposing what I understand to be a comprehensive infrastructure 
initiative. If confirmed, I would hope to be involved in the 
development of the new initiative.

    Question 15. The port of New York-New Jersey, the largest on the 
east coast, expects increases in demand in the coming years while also 
continuing to grapple with truck congestion and air quality issues. How 
do you plan to ensure adequate investment in major seaports that are 
key economic drivers for the entire nation?
    Answer. The Port of New York and New Jersey is a good example of 
the role ports have as a critical part of our overall transportation 
system, and as the commercial hearts of a region. And I agree that 
demand for goods moving through ports will increase as the growth of 
our economy and populations rise.
    I believe it is important to view investments in ports along with 
improvements to the condition and capacity of its water, road and rail 
connectors. The private sector and local communities are already 
partnering with Federal and state governments to expand the capacity of 
port and multi-modal infrastructure.
Bicycle and Pedestrian Issues
    Question 16. Communities across the country are embracing bicycling 
and pedestrian infrastructure as an integral part of their 
transportation network for a number of reasons, including attracting 
businesses, workers and younger Americans who are choosing to live 
without a car. How will you support programs that will help expand this 
type of important infrastructure to meet the growing demand?
    Answer. I understand that non-motorized travel has been in DOT's 
authorizing legislation since the 1991 ISTEA authorization expanded 
local governments' ability to use Federal funds for pedestrian and 
bicycle infrastructure. Most recently, I am told that the 
Transportation Alternatives program was authorized at $835 million in 
2016, and many State and local governments also chose to use some of 
their other Federal funds, such as Surface Transportation Block Grant 
funds, to support pedestrian and bicycle infrastructure. It is my 
understanding that FHWA offers technical assistance to ensure that 
infrastructure that is installed is safe and effective, and all of the 
surface transportation agencies within DOT work together to improve the 
safety of those traveling by foot and bicycle.

    Question 17. Increasing bicycle and pedestrian safety is critically 
important. In 2014, just over 700 cyclists were killed in a crash with 
a vehicle. On average, nearly 4,500 pedestrians are killed and 68,000 
are injured each year since the recent low point in pedestrian deaths 
in 2009. In 2015, pedestrian deaths increased 10 percent to 5,376 
deaths up from 4,884 in 2014. What is your plan to improve the safety 
of bicyclists and pedestrians?
    Answer. Safety is the Department's number one priority. Secretary 
Chao has expressed her commitment to working with our State and local 
partners to prevent all roadway deaths through better roadway design, 
safer vehicles, and through educational and enforcement programs.
Local Control
    Question 18. As a former Mayor I support providing additional 
resources and decision-making authority to local officials including 
increasing sub-allocation of Federal resources to the Metropolitan 
Planning Organizations (MPOs). What is your plan to ensure that local 
officials have a substantial role in transportation decisions, and do 
you support additional sub-allocation of Federal resources to MPOs?
    Answer. The nation's 409 Metropolitan Planning Organizations 
(MPO's) play an important role in metropolitan transportation planning 
in the United States. They develop fiscally responsible transportation 
plans that reflect the transportation vision and priorities for their 
regions, and they are taking on a new role in setting performance 
targets, as required by MAP-21. I expect that DOT will continue to work 
with MPOs on improving our transportation infrastructure. If confirmed, 
I will obtain full briefings on the issues surrounding sub-allocating 
Federal resources to MPOs and will seek to ensure that local officials 
have a substantial role in local transportation issues.
Diversity in Transportation Sector
    Question 19. Nearly one in ten jobs in the United States are in the 
transportation and/or infrastructure sector. However, women, workers of 
color, and workers with disabilities are significantly under-
represented in the sector compared to their overall participation in 
the workforce. I am a strong supporter of the Disadvantaged Business 
Enterprise (DBE) Program, which is designed to provide small businesses 
owned by socially and economically disadvantaged individuals an equal 
playing field to compete for federally funded transportation contracts. 
Can you commit to supporting the DBE Program, and describe other steps 
you plan to take to connect disadvantaged workers to employment in the 
transportation field?
    Answer. As indicated by Secretary Chao in her responses to the 
Committee following her nomination hearing, current law provides for 
specific Disadvantaged Business Enterprise (DBE) programmatic 
requirements. If confirmed, I would join her in pursuing equal 
application of the law and fulfilling the Department's legal 
obligations.
Funding
    Question 20. In your testimony, you agreed that an infrastructure 
bill this Congress would include some direct Federal investment in 
transportation, not solely private financing. Do you think an 
infrastructure bill should provide supplemental dollars to existing 
authorized programs that are underfunded thus far but offer big impacts 
in terms of economic benefit, job creation and mobility benefits, like 
intercity passenger rail grant programs? Or do you have ideas for new 
DOT programs that would distribute Federal grant dollars via new 
authorized programs?
    Answer. While I am not yet involved in developing the President's 
infrastructure proposal, if confirmed, I look forward to working with 
you and other members of Congress to be sure we are good stewards of 
all resources for the public good.

    Question 21. Since Amtrak was first created more than 45 years ago, 
there has been discussion of including it in a transportation trust 
fund. However, this simply never came to fruition. Instead, Amtrak 
relies on discretionary funding one Fiscal Year at a time, which is 
unfortunate. This creates uncertainty and wreaks havoc on Amtrak's 
ability to plan capital improvement projects. By comparison, highway 
and transit programs' dedicated funding via multi-year contract 
authority allows for better capital planning and creates efficiencies 
and cost savings. It would also be beneficial for intercity passenger 
rail to receive predictable and dedicated funding like almost all the 
other transportation modes. Would you support including at least a 
portion of Federal funding for intercity passenger rail in the trust 
fund?

    Question 22. While including intercity passenger rail in the trust 
fund is by far the preferred method of Federal funding, have you given 
thought to other options for multi-year predictable and dedicated 
funding of intercity passenger rail? For example, providing Amtrak with 
advance appropriations for several years instead of only funding it one 
year at a time. Would you support Congress providing advance 
appropriations or creating another trust fund-like mechanism dedicated 
to passenger rail?
    Answer to questions 21 and 22. As a nominee, it would be premature 
for me to weigh in on alternative funding possibilities for Amtrak. 
This is just one of the many significant issues facing Amtrak that we 
should look at.

    Question 23. Germany recently approved a transportation 
infrastructure plan to spend $126 billion on rail projects through 
2030. In the United States, which has four times Germany's population, 
Federal funding for vital infrastructure investments in the Northeast 
Corridor and elsewhere on the national passenger rail network amounts 
to just a few hundred million dollars a year. With each new fiscal 
year, there is no assurance that there will be any additional 
predictable and dedicated Federal spending to leverage private and 
state investment. How do we attract private investment in passenger 
rail infrastructure projects, like Gateway, when the Federal Government 
does not support a mechanism for substantial and reliable Federal 
investment in passenger rail?
    Answer. If confirmed, I look forward to working with you, the 
Committee, and Congress, to look at best practices and all options to 
incent private investment in passenger rail infrastructure. On the 
general question of attracting private investment in passenger rail 
infrastructure projects, my understanding is that the Build America 
Bureau (Bureau) was established to work with the modal administrations, 
eligible entities, and other public and private interests to develop 
and promote best practices for innovative financing and public-private 
partnerships, such as those that may be established for passenger rail 
infrastructure projects. To fulfill this goal, the Bureau helps 
streamline transportation finance and funding processes and provides 
project sponsors with transparent and efficient access to DOT's credit 
and grant programs.
National Passenger Rail System
    Question 24. Can you discuss your vision for intercity passenger 
rail in the U.S.?

    Question 25. Do you agree that the Federal Government has an 
important role to play to help ensure passenger rail remains a viable 
option to connect rural communities to the rest of our transportation 
network?

    Question 26. What role do you envision the DOT has to make good on 
this commitment to the various rural communities who rely on intercity 
passenger rail?
    Answer to questions 24, 25, and 26. Intercity passenger rail has an 
important role to play in our national transportation system. As I have 
previously stated, however, it would be premature of me to respond to 
these questions as a nominee who is not fully current on recent 
developments at Amtrak. I do understand that passenger rail involves 
important issues, and I believe they deserve attention as the 
Department shapes its transportation policies.

                                  [all]

                  This page intentionally left blank.
                  
                  
 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
